<html>
<title> - PERSPECTIVES ON CALIFORNIA WATER SUPPLY: CHALLENGES AND OPPORTUNITIES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
 PERSPECTIVES ON CALIFORNIA WATER SUPPLY: CHALLENGES AND OPPORTUNITIES

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

          Monday, January 25, 2010, in Los Angeles, California

                               __________

                           Serial No. 111-43

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
54-619                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Jeff Flake, Arizona
Frank Pallone, Jr., New Jersey       Henry E. Brown, Jr., South 
Grace F. Napolitano, California          Carolina
Rush D. Holt, New Jersey             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Louie Gohmert, Texas
Madeleine Z. Bordallo, Guam          Rob Bishop, Utah
Jim Costa, California                Bill Shuster, Pennsylvania
Dan Boren, Oklahoma                  Doug Lamborn, Colorado
Gregorio Sablan, Northern Marianas   Adrian Smith, Nebraska
Martin T. Heinrich, New Mexico       Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                


                    SUBCOMMITTEE ON WATER AND POWER

              GRACE F. NAPOLITANO, California, Chairwoman
         TOM McCLINTOCK, California, Ranking Republican Member

George Miller, California            Cathy McMorris Rodgers, 
Raul M. Grijalva, Arizona                Washington,
Jim Costa, California                Adrian Smith, Nebraska
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Jay Inslee, Washington               Doc Hastings, Washington, ex 
Joe Baca, California                     officio
Nick J. Rahall, II, West Virginia, 
    ex officio
                                 ------                                
      

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Monday, January 25, 2010.........................     1

Statement of Members:
    Calvert, Hon. Ken, a Representative in Congress from the 
      State of California........................................     9
    Chu, Hon. Judy, a Representative in Congress from the State 
      of California..............................................    11
    Costa, Hon. Jim, a Representative in Congress from the State 
      of California..............................................     7
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     6
    Napolitano, Hon. Grace F., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement of....................................     4
        Congressional Research Service report entitled 
          ``California Drought: Hydrological and Regulatory Water 
          Supply Issues''........................................     6

Statement of Witnesses:
    Brady, Brian J., General Manager, Imperial Irrigation 
      District, Imperial, California.............................    38
        Prepared statement of....................................    39
    Caballero, Hon. Anna, Assembly Member of the California State 
      Legislature, Representing the 28th Assembly District, 
      Sacramento, California.....................................    18
        Prepared statement of....................................    20
    Collins, Larry, Vice President, Pacific Coast Federation of 
      Fishermen's Associations, San Francisco, California........    83
        Prepared statement of....................................    84
    Connor, Hon. Michael, Commissioner, Bureau of Reclamation, 
      U.S. Department of the Interior, Washington, D.C...........    12
        Prepared statement of....................................    15
    Del Bosque, Joe L., Owner, Empresas Del Bosque Inc., Los 
      Banos, California..........................................    89
        Prepared statement of....................................    90
    Dunn, Lucy, President and Chief Executive Officer, Orange 
      County Business Council, Irvine, California................    80
        Prepared statement of....................................    81
    Famiglietti, Professor Jay, Ph.D., Department of Earth System 
      Science, University of California at Irvine, Irvine, 
      California.................................................    65
        Prepared statement of....................................    67
    Gleick, Dr. Peter H., President, Pacific Institute, Oakland, 
      California.................................................    59
        Prepared statement of....................................    61
    Kightlinger, Jeffery, General Manager, Metropolitan Water 
      District of Southern California, Los Angeles, California...    35
        Prepared statement of....................................    37
    Luna, Miguel A., Executive Director, Urban Semillas, Los 
      Angeles, California........................................    71
        Prepared statement of....................................    72
    Parks, Dan, Assistant General Manager, Coachella Valley Water 
      District, Coachella, California............................    50
        Prepared statement of....................................    51
    Snow, Hon. Lester A., Director, California Department of 
      Water Resources, Sacramento, California....................    21
        Prepared statement of....................................    23
    Stapleton, Maureen A., General Manager, San Diego County 
      Water Authority, San Diego, California.....................    41
        Prepared statement of....................................    43


 OVERSIGHT FIELD HEARING ON ``PERSPECTIVES ON CALIFORNIA WATER SUPPLY: 
                    CHALLENGES AND OPPORTUNITIES.''

                              ----------                              


                        Monday, January 25, 2010

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                     Committee on Natural Resources

                        Los Angeles, California

                              ----------                              

    The Subcommittee met, pursuant to call, at 1:00 p.m., in 
the Boardroom, The Metropolitan Water District, Los Angeles, 
California, Hon. Grace Napolitano [Chairwoman of the 
Subcommittee] presiding.
    Present: Representatives Napolitano, Costa, and McClintock.
    Also Present: Representatives Chu and Calvert.

  STATEMENT OF HON. GRACE F. NAPOLITANO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Napolitano. Good afternoon, ladies and gentlemen, and 
welcome to the Subcommittee on Water and Power's hearing. I now 
will call it to order.
    The purpose of today's hearing is to hold an oversight 
hearing on ``Perspectives on California Water Supply: 
Challenges and Opportunities,'' in Southern California.
    I ask unanimous consent that Congressman Ken Calvert and 
Congresswoman Judy Chu be allowed to sit on the dais and 
participate in the Subcommittee proceedings today, and without 
objection, I so order.
    Congressman Costa will be joining us shortly.
    After my opening statement, I will recognize all other 
Members of Congress and the Subcommittee for any statement they 
may have, or they can submit it for the record, as they choose. 
Any Member of Congress who desires to be heard will be heard.
    Additional material may be submitted for the record by 
Members of Congress, by any witness or by any interested party. 
The record will be kept open for 10 business days following 
today's hearing, and a five-minute rule, with a timer, will be 
enforced. Green means go, yellow indicates you have one minute, 
and the red means stop or I will gavel.
    I certainly want to extend my thanks to Metropolitan Water 
for allowing us to use this beautiful facility and for the 
hospitality for the witnesses and for us in hosting today's 
hearing. It means a lot. It is convenient and central. I also 
wanted to thank the Board members who are here. Board members, 
would you please stand up. I don't want to miss anybody. 
Members?
    Water, ladies and gentlemen, is California's gold. Either 
we have too little or too much recently, and this past week we 
saw almost a year's worth of rain. Yet we are nowhere near 
filling our dams, our rivers, our lakes or aquifers. It does 
not mean that our concerns over drought and how water is 
managed in California are over; far from it.
    We are in the midst of a real challenge: Increasing 
population, aging infrastructure, water supply restrictions, 
water quality concerns, environmental concerns, etcetera. The 
list goes on. It continues to grow with each year.
    We are here today to continue a discussion, and this will 
not be the last of our hearings in Southern California, in an 
attempt to clarify California's water status, the water 
situation that over the past three years has been intensifying 
and reaching a dangerous and critical point. The dilemma we 
face in Washington is how can we work together to meet the 
challenge cooperatively and in a civil manner; that is, without 
litigation.
    Management of water in California is a cooperative effort, 
balancing between State, Federal and local suppliers. The 
resulting plumbing system is managed to meet the needs of over 
30 million citizens who expect and are used to having a good 
quality product to be delivered to them at a reasonable price.
    Our desire today is to have a dialogue about how the water 
situation in Southern California factors into the state's wide 
approach to addressing the whole state's drought issues and 
concerns. Everyone here today has a story to tell, and many of 
you have asked to be heard, and we are asking that you submit 
something for the record. Likely, all of you have suggestions 
for some of those solutions. It is that dialogue about ideas 
and suggestions on how we can most effectively work together 
that we would like to have from you today.
    The importance of this discussion and why we are in 
Southern California is that the issue of water requires us to 
hear from all parties and constituencies. Developing a logical 
and doable approach to addressing the California water crisis 
requires a statewide coordinated approach.
    I believe we are seeing the manifestation of this in 
California's legislative efforts in November, the December 
Interim Federal Action Plan and last September's Memorandum of 
Understanding between the State and the six Federal agencies, 
or maybe it is seven. These are all good efforts to bring 
direction, and now we need consistent and dedicated leadership 
to be successful. Independent actions taken without commitment 
will not result in a long-term solution.
    There is not one answer that will solve the hurt that many 
have felt and continue to feel under current water conditions. 
A couple of storms are of some relief, but they are a 
reflection of weather impact by variable ocean conditions. They 
are not the long-term solutions to address the issues that 
underlie our whole water dilemma.
    There has been a great deal of conjecture and a lot of one-
way dialogue that the current water problems are due to the 
current regulatory environment, and a lot of finger pointing in 
the past. While making interesting theatre, they do not provide 
action nor resolve the underlying problems.
    In a December 2009 Congressional Research Service report, 
they concluded that, and I quote, ``the current drought has 
created a fundamental shortage of supply. Regulatory or court-
imposed restrictions, as well as the long-established state 
water rights system, exacerbate the effects of the drought for 
agricultural and urban water users.''
    The combined effect of drought, the state water rights 
system, the physical constraints of hydrologic plumbing system, 
carryover surface and groundwater supplies, changing dynamics 
of climate, and legally mandated regulations for water quality 
and the environment all affect the delivery of water to 
agricultural, urban and environmental systems of California.
    It is very evident today, our water management in 
California is supply limited. The challenge of all water users 
is how to adapt and mitigate to live within our water means, 
and not to have a reduction in service or quality and have a 
loss in the critical environmental services for that water 
quality.
    Some have questioned why we are having this discussion in 
Southern California rather than in the north. That is where the 
drought is hitting the hardest. The answer is simple. The 
drought is a statewide concern and demands that all portions of 
the state be heard from, especially when two-thirds of 
California's population is in Southern California.
    When looking at the issue of water debate in California 
over the last few years--I would say three or more--there have 
been numerous meetings, hearings, and discussions in Northern 
California and in the Central Valley. Curiously missing was 
hearing from the people and the issues facing the citizens of 
Southern California.
    Citizens in this area feel the drought from both imports 
from the Colorado River Basin and from Northern California. In 
Southern California, we are experiencing the near-perfect storm 
of reduced supplies, increased demand from rising populations, 
and the steadily increasing complexity of legal, environmental 
and administrative requirements. The recent court decisions 
regarding the management of the Colorado River and the 
Quantification Settlement Agreement potentially throws years of 
negotiations and cooperation in jeopardy, and with it water 
supplies for Southern California.
    Water is a basic human right. How many of us think about 
the water source when we turn on the tap in the morning to make 
our coffee or drink our tea? How many of us think about the 
journey that the drop of water has taken as it moves from the 
Sierras or the Rocky Mountains to the reservoirs, the canals, 
the water treatment plants, the pipes in our houses or 
apartments? We all take it for granted. The reality is, as we 
are finding out, that quantity, quality, and real-time supply 
of water is critical to our health and well-being and to our 
basic economy. Every citizen in California deserves a clean and 
dependable source of water.
    Today we are going to have three panels discuss three 
different aspects of the water issues in California. The first 
panel will discuss the Federal and State approach to the 
current water solution. This will include a discussion of the 
State of California's state water plan, followed by a 
discussion of the November historic water legislation.
    Last, we have asked the Department of the Interior to 
discuss the Federal-Delta water plan, the impacts of the recent 
QSA decision on the Colorado River water supply, and the role 
of water reclamation and reuse to supplies here in Southern 
California, and maybe even the support of the Administration's 
2012 increase to $200 million to alleviate the $600 million 
backlog of Title XVI recycling projects.
    I would appreciate it if the people behind you can see. 
Thank you so very much. Thank you for being here.
    The second panel will focus on the issues associated with 
water delivery to the citizens of Southern California. This 
will include discussions associated with the water delivery 
reductions from the two primary water supply sources of 
Southern California, imports from Northern California and water 
supplied from the Colorado River system, and the impacts 
associated with recent court decisions and what constraints 
this puts on supplying water to the citizens of the southland.
    The last panel will address the science and information 
needs that can help Federal, State and local water managers 
make better decisions, and identify specific local and regional 
impacts to the urban water users, to the fishermen, and to the 
farmers.
    We will use today's hearing to discuss, listen and, 
hopefully, learn more about the water crisis in all of 
California, and the coordinated efforts to address it. This 
discussion needs to begin now, if we are to work together to 
implement real solutions and real change, not just talk. We 
have a challenge in front of us, and together I am positive we 
can begin to identify those solutions.
    With that, I would like to now yield to the Ranking Member, 
to my right, of the Subcommittee on Water and Power, 
Congressman Tom McClintock, for his opening statement.
    [The prepared statement of Chairwoman Napolitano follows:]

      Statement of The Honorable Grace F. Napolitano, Chairwoman, 
                    Subcommittee on Water and Power

    Water in California--either we have too little of it or too much. 
This past week has resulted in almost a year's worth of rain. While the 
increase in our water supply is appreciated, it does not mean that our 
concerns over drought and how water is managed in California are over. 
Far from it. We are in the midst of a real challenge--increasing 
population, aging infrastructure, water supply restrictions, water 
quality concerns, environmental concerns ``. the list goes on and 
continues to grow with each year. We are here today to continue a 
discussion about the California water situation. A water situation that 
over the past three years has been intensifying and reaching a boiling 
point. The dilemma we face in Washington is how can we work together to 
meet the challenge cooperatively and in a civil manner.
    Management of water conditions in California is a cooperative 
effort--balancing between State, Federal and local suppliers. The 
resulting plumbing system is managed to meet the needs of over 30 
million citizens who expect a good quality product to be delivered to 
them. Our desire here is to have a dialogue about how the water 
situation in Southern California factors into the states-wide approach 
to addressing the larger drought issues and concerns. Everyone here 
today has a story to tell about how the drought has affected them or 
their constituents and likely all of you have suggestions for 
solutions. It is that dialogue about ideas and suggestions on how we 
can most effectively work together that we want to have today.
    The importance of this discussion and why we are here in Southern 
California is that the issue of water requires that we hear from all 
parts and constituencies. Developing a logical and doable approach to 
addressing the California water crisis requires a statewide coordinate 
approach. I believe we are seeing the manifestation of this in the 
California Legislatures efforts in November, the December Interim 
Federal Action Plan and last September's Memorandum of Understanding 
between the State and Federal agencies. These are all good efforts to 
bring direction and now need consistent and dedicated leadership to be 
successful. Independent actions taken without commitment will not 
result in long-term solutions.
    There is no one silver bullet that will solve the hurt that many 
are feeling with the current water conditions. A couple of days of rain 
are certainly a nice relief but they are a reflection of weather 
impacted by variable ocean conditions and are not the long-term 
solutions to addressing the issues that underlie our water dilemma.
    There has been a great deal of conjecture and a lot of one-way 
dialogue that the current water problems are due to the current 
regulatory environment. While making for interesting theatre they do 
not help in resolving the underlying problems. In a December 2009 
Congressional Research Service report, CRS concluded that ``the current 
drought has created a fundamental shortage of supply. Regulatory or 
court-imposed restrictions, as well as the long-established state water 
rights system, exacerbate the effects of the drought for agricultural 
and urban water users''.
    The combined effect of the drought, the state water rights system, 
physical constraints of the hydrologic plumbing system, carryover 
surface and groundwater supplies, changing dynamics of climate, and 
legally mandated regulations for water quality and the environment all 
affect the delivery of water to the agricultural, urban and 
environmental systems of California. The issue is very simple--today 
our water management in California is supply limited. The challenge to 
all water users is how to adapt and mitigate to live within our water 
means and not have a reduction in service or have a loss in critical 
environmental services and water quality.
    Some have questioned why we are having this discussion in Southern 
California rather than further north. The answer is simple--the drought 
is a statewide concern and demands that all portions of the state be 
heard from. When looking at the issue of water debate in California 
over the last 3 years, there have been numerous meetings, hearings, and 
discussions in northern California and the Central Valley. Curiously 
missing was hearing from the people and issues facing the citizens of 
Southern California.
    Citizens in Southern California feel the drought from both imports 
from the Colorado River Basin and from northern California. In Southern 
California we are experiencing the near perfect storm of reduced 
supplies, increased demand from rising populations, and a steadily 
increasing complexity of legal, environmental and administrative 
requirements. The recent court decisions regarding the management of 
Colorado River water and the Quantification Settlement Agreement 
potentially throws years of negotiations and cooperation in jeopardy 
and with it water supplies for Southern California.
    Water is a basic human right. How many of us think about it the 
waters source when we turn on the tap in the morning to fill that 
coffee or tea pot? How many of us think about the journey that the drop 
of water takes as it moves from the Sierras or the Rocky Mountains to 
the reservoirs, the canals, the water treatment plants and the pipes in 
our houses or apartments? We take it for granted. The reality is as we 
are finding out is that quantity, quality and real-time supply of water 
is critical to our health and well being. Every citizen in California 
deserves a clean and dependable source of water.
    Today we are going to have three panels discuss three different 
aspects of the water issues in California. The first panel will discuss 
the federal and state approach to the current California water 
situation. This will include a discussion of California's state water 
plan, followed by a discussion of the November historic state water 
legislation. Lastly we have asked the Department of the Interior to 
discuss the Federal-Delta water plan, the impacts of the recent QSA 
decision on Colorado River water supply and the role of water 
reclamation and reuse to supplies here in Southern California.
    The second panel will focus on the issues associated with water 
delivery to the citizens of Southern California. This will include 
discussions about impacts associated with water delivery reductions 
from the two primary water supply sources of Southern California, 
imports from northern California and water supplied from the Colorado 
River system and the impacts associated with recent state court 
decisions and what constraints this puts on supplying water to the 
citizens of the southland.
    The last panel will address the science and information needs that 
can help Federal, State and local water managers make better decisions, 
as well as help to identify specific ``local and regional ``impacts to 
urban water users, fishermen and farmers.
    We will use today's hearing to discuss, listen, and hopefully learn 
about the water crisis in California and the efforts being made to 
address it. This discussion needs to occur now if we are to work 
together to implement real solutions. We have a challenge in front of 
us, and together I am positive we can figure out solutions.
    With that said, I am pleased to now yield to the Ranking Member of 
the Subcommittee on Water and Power, Congressman Tom McClintock, for 
his opening statement.
                                 ______
                                 
    [NOTE: The Congressional Research Service report entitled 
``California Drought: Hydrological and Regulatory Water Supply 
Issues'' dated December 7, 2009, has been retained in the 
Committee's official files. It can also be found at: http://
www.crs.gov/Pages/Reports.aspx?ProdCode=R40979

STATEMENT OF HON. TOM McCLINTOCK, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. McClintock. Thank you very much, Madam Chairwoman. 
First, I would like to express our appreciation for putting the 
Central Valley into its busy schedule so that it can hear 
firsthand of the economic damage and human misery that has been 
caused by the Federal Government's decision to shut off 200 
trillion gallons of water to Central Valley farms in order to 
indulge the environmentalist tech project, the Delta Smelts.
    In the absence of the Committee's cooperation, the Minority 
Republicans just held such a hearing under our own auspices 
this morning in Fresno. I can tell you that Secretary Salazar's 
statement to the Committee last year in which he admitted the 
government had the discretion to turn the pumps back on but 
would not do so because, quote, ``that would be like admitting 
failure,'' did not sit well with the people there, and the 
Administration's absence was also noted.
    This disastrous folly has destroyed a half-million acres of 
the most fertile farmland in America and destroyed the 
livelihoods that supported 30,000 struggling families. The 
prices on grocery shelves here in Southern California are 
directly affected by the loss of 500,000 acres of Valley 
agriculture due to this decision, and on behalf of the people 
of the Central Valley, from whom I have just heard this 
morning, I again renew the Minority's urgent plea that this 
Committee come to the Central Valley to see firsthand the 
suffering that this policy has caused.
    Today's hearing is about challenges and opportunities on 
California's water supply. I found the questions raised in the 
witnesses' invitations indicative of a concern that this 
Congress has lost perspective on creating abundant water 
supplies. Today, this Congress and this Administration seem to 
have adopted the position that government's principal objective 
should not be to create abundance, but rather to ration 
shortages.
    The Majority's questions to witnesses failed to mention the 
need for more water storage or the costs and benefits of all 
water supply infrastructure options. I must again remind the 
Subcommittee of the obvious reality, that managing a water 
shortage is not the same as solving a water shortage.
    Having read some of the testimony presented to the 
Committee today, I believe that we need to measure all water 
proposals against the simple and obvious alternative of 
renewing our commitment to the construction of new dams and 
reservoirs. One of the last great dams was the Oroville Dam 
which cost roughly $600 million to construct in 1968. Due to 
the inflation adjustment, that is about $3.5 billion in today's 
money. That dam produces 3.5 million acre-feet of water.
    In other words, the modern-day, inflation-adjusted cost of 
the Oroville Dam, including its massive power plant, comes to 
about $1,000 per acre-foot, and yet this Committee has ignored 
new dam construction in favor of such things as water recycling 
projects that cost upwards of $18,000 per acre-foot. That is 
insane.
    In my district, it is the site of the Auburn Dam which 
began construction some 40 years ago. The most complex part of 
that dam, the giant footings cut into the surrounding bedrock, 
were completed in the early 1970s, but then the objections of 
the environmental left brought the project to a halt. That dam 
today could be providing 2.3 million additional acre-feet of 
water storage, 800 megawatts of the cheapest and cleanest 
electricity available, and 400-year flood protection for the 
Sacramento Delta, and all that is lacking is the political will 
to proceed.
    I think that this Congress has forgotten the policies of 
the Pat Brown generation of builders, the visionaries who 
created the Central Valley and state water projects. Instead, 
we now write off any ideas of new storage and ignore the plight 
of our nation's bread basket in the San Joaquin Valley. So 
while valley communities--again, the bread basket of the 
nation--run food lines with food imported from China, we seem 
content to accept rationing as the way to resolve our water 
crisis. I believe we can do a lot better than that. Thank you, 
Madam Chairwoman.
    Mrs. Napolitano. I am sorry, but the audience will please 
refrain from any emotion of any kind. This is a hearing. No, I 
am serious. We will ask you to be escorted out. Simply, we need 
to proceed. We need to move forward and, yes, we agree with a 
lot of things. So please, please, bear with us.
    Mr. Costa.

STATEMENT OF HON. JIM COSTA, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Costa. Thank you very much, Madam Chairperson, for this 
hearing this afternoon. I think it is important that Southern 
California clearly understand, as the people do in the San 
Joaquin Valley that I represent, that their water supply is at 
risk as well. I represent Ground Zero where the worst impacts 
of the drought have been felt over the last three years--not 
just because of below-average rainfall, but because of 
regulatory constraints that make it extremely difficult for the 
Federal and state water projects to provide water for the 
intended purposes for which they were created.
    The fact of the matter is that last year, while the 
Governor and the Legislature were able to--and I want to 
commend them for passing a very important water package that we 
hope the voters will approve this November--those are longer-
term solutions, and they are far from being achieved. We hope 
that they will be implemented but, in the meantime, California 
is living on borrowed time.
    Our water system is broken. The plumbing system and the 
Sacramento-San Joaquin River delta system is broken. Initially 
developed to provide water supply for the entire state, 
approximately 20 million people. Today, we have 38 million 
people living in California, with the prospect that in the year 
2030 we will have maybe 50 million people--another 12 million 
people. The water supply that we have today is already being 
maxed out with all of the demands that are being placed upon 
it.
    The projects, when they were created in the Thirties, 
Forties and Fifties, were intended to provide a sustainable 
water supply for every region of California, but in 1992 we 
passed the Central Valley Improvement Act. Good, bad or 
indifferent, we now require those same projects not only to 
provide a sustainable water supply for every region of 
California, but we now ask them to restore fisheries and water 
quality, primarily an ecosystem, which is commendable, to a 
level that existed in the 19th Century.
    The problem is, as you know, people point fingers, and they 
are accusatory about what people shouldn't farm here. Well, I 
take umbrage with that. Everybody likes to eat, and frankly, we 
take for granted the food supply in this state and the food 
supply that is provided in the most productive region in the 
entire country, in the San Joaquin Valley that I represent, 
that has been the hardest hit by this drought.
    God forbid that Southern California faces the impacts that 
we are feeling in communities like Firebaugh and Mendota and 
down to Delano where you have unemployment levels from 41 
percent to 36 percent to 32 percent, and they have food lines 
with some of the hardest working people you will ever meet in 
your lives, that normally would be working to put food on 
America's dinner table, in food lines, in the richest country 
in the world. Unacceptable.
    So, ladies and gentlemen, this hearing in Southern 
California is important, because the water supply for our 
entire state is at risk, and what we are feeling today in the 
San Joaquin Valley, if we don't correct and fix these problems, 
will be felt in Southern California, and the boon of 
California, the golden dream of California for a bright 
prosperity, economic prosperity in the 21st Century, will be 
erased. That is how serious this crisis is today.
    So let's be clear. While the Administration has attempted 
to provide some solutions in the last year, much more needs to 
be done. We cannot have another year of a 10 percent water 
allocation to the San Luis Unit. It simply will not work, and 
the Administration needs to wake up and understand this.
    We need to do everything we can to think out of the box. We 
have a unique situation, and I will close on this point. As a 
result of the biological opinion which went into effect 
yesterday or today, we now--even though we had record rainfalls 
last week, as you noted, Madam Chairwoman--we can't pump 
because of the turbidity. We don't have enough water. We can't 
pump because of the impacts on the species. We have too much 
water; we can't pump because of the impact on the species.
    Ladies and gentlemen, when are we going to use common 
sense, and when will we be able to pump water to provide for 
the San Joaquin Valley and for Southern California? That is 
what we are talking about. So I, Madam Chairwoman, appreciate 
this hearing. We have a lot of work that we have to do, and we 
have to do it through cooperation. Politicizing the issue of 
water, as we have noted for over a century, is not going to 
solve these crises.
    We have been fighting over water resources in the West and 
in California all the way back to the days of Mark Twain when 
he noted whiskey is made for drinking, and water is made for 
fighting. Let us put the fighting behind us. Let us get some 
practical solutions this year. My constituents cannot live 
without some solutions this year. Thank you.
    Mrs. Napolitano. Thank you, Congressman Costa, and we agree 
with a lot of what is being said, and this is the first hearing 
in Southern California. There have been at least 16 hearings in 
Central and Northern California in the last few years since I 
have been in Congress. So allow us to be able to hear what is 
going on.
    May I add to your comments, Congressman Costa, that L.A. 
County has, what, almost 14 million people. That is more than a 
third of the state's population. L.A. City alone has almost 4 
million. So, you understand, we recognize many of our water 
agencies have done what they needed to do to address the water 
shortage before we reached the proportions that some of the 
other cities that don't have water meters in Northern 
California.
    Mr. Calvert?

  STATEMENT OF HON. KEN CALVERT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Calvert. Thank you, Madam Chairwoman, and thank you for 
allowing me to sit on the dais with the Committee, and Mr. 
McClintock for giving me this honor to do that. Typically, I am 
happy to have a hearing focusing on important water challenges 
in Southern California but today, I must admit, I have mixed 
emotions.
    The reason that I am conflicted is because, as I understand 
it from Mr. McClintock and other leaders in the water world, 
this group has been trying to get a hearing in the Central 
Valley for folks there to talk about the suffering of what is 
going on with this--one of the most devastating water shortages 
of our lifetime.
    The Minority Members of this Committee, as I understand it, 
repeatedly request field hearings in the Central Valley to hear 
from these folks. I would recommend that we do that soon, and I 
would be happy to join in that hearing to listen to the people 
who are suffering in the central part of our state.
    Last year, Senator Feinstein said, quote, ``Our state's 
water crisis is seriously impacting the San Joaquin Valley and 
its communities, which depend on agriculture for their economic 
survival. A lack of water threatens to decimate the Valley 
economy, and some cities are already struggling with 
unemployment rates between 25 and 45 percent. This crisis is 
something that requires action and decisiveness.''
    That was several months ago and, obviously, the problem has 
only grown worse. Unfortunately, it appears to the people that 
we continue not to acknowledge the crisis in the Valley. With 
the current economic conditions throughout our state, we cannot 
afford to ignore the water challenges before us. In addressing 
the challenges, I believe there are some areas where increased 
Federal involvement can be helpful. However, I also believe 
there are other areas where California would be better off if 
the Federal Government just simply got out of the way.
    One matter that has emerged is a good example where Federal 
involvement can be helpful. The uncertainty caused by the 
recent judicial decision affecting the Quantification 
Settlement Agreement, the QSA, is something, I believe, the 
Department of the Interior must take an active role in dealing 
with. An active participant in the QSA negotiations, as I was, 
I can testify to the immense challenges and tough decisions 
involved in that agreement. Strong leadership by the Department 
of the Interior will be needed to ensure that the stakeholders 
are able to maintain the stability and certainty that is 
currently provided by the Quantification Settlement Agreement.
    In Congress, the Water and Power Subcommittee has, on a 
bipartisan basis, even if they are expensive, Tom, authorized 
Federal funding for water recycling, other important water 
projects that have helped California water districts stretch 
the most out of our limited water supply.
    The Federal Government should also play a role in the 
development and exchange of technological advancements in water 
supply infrastructure. However, as we are aware, Federal 
assistance will continue to be limited due to our poor 
financial condition. That being said, there are a number of 
things that we can do on the Committee and through the 
Administration and Congress to improve water in California and 
the economic conditions that will not cost the American 
taxpayers a single dime.
    I firmly believe that it is the responsibility of this 
Committee and Congress to exempt the Delta pumping operations 
from the failed Endangered Species Act restrictions until the 
Bay-Delta Conservation Plan is complete, and a comprehensive 
solution for managing the Bay-Delta is in place.
    The smelt population this past summer fell back to a 
historic low set in 2005, and now is well below the high points 
recorded in the late 1970s. Given these findings, I don't know 
how anyone can say the Delta pumping restrictions are 
benefitting the Delta Smelt. Meanwhile, the devastating 
economic impacts are undeniable. As Mr. Costa pointed out, even 
if we have significant rainfall and snow pack in the Sierras, 
because of the interpretation of the biological opinions, 
pumping can't take place. That is, I think, ridiculous.
    Looking beyond the Delta, there are steps Congress should 
take to reduce the regulatory load placed on water districts 
constructing new water supply projects. If water districts are 
going to invest local rate funds to reduce their dependence on 
Federal water projects and other resources, we should not 
artificially inflate the cost of these projects by imposing 
unnecessary requirements. In other words, let us get the 
Federal Government out of the way, and make it easier for 
districts to provide an affordable and reliable water supply in 
California for small businesses.
    Then one last thing, Madam Chairwoman. I would be remiss if 
I failed to express my condolences on the passing of two 
legends in the California water world, former ACWA Executive 
Director Steve Hall, and former Orange County Water District 
Director and MWD Board member Wes Bannister.
    Like many of you here, I had the pleasure of working with 
both Steve and Wes to address major challenges to our local 
area and state, like CALFED and the Quantification Settlement 
Agreement. Steve and Wes were true leaders, consensus builders 
who worked tirelessly to improve our state. To say they will be 
missed is an understatement, not only as leaders but as 
friends. Thank you, Madam Chairwoman.
    Mrs. Napolitano. Thank you, Mr. Calvert, and I now will 
call on Ms. Chu.
    Mr. Costa. Madam Chairwoman. I would just like to join with 
Mr. Calvert.
    Mrs. Napolitano. All of us, I think, would like to join 
with that.
    Mr. Costa. They were both wonderful individuals.
    Mrs. Napolitano. Yes, I knew them both.
    Mr. Costa. Steve's service is going to be on Friday in 
Sacramento.
    Mrs. Napolitano. Ms. Chu?

 STATEMENT OF HON. JUDY CHU, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Ms. Chu. Well, thank you, Madam Chair Napolitano and 
Ranking Member McClintock, my colleagues on the Water and Power 
Subcommittee. Thank you for allowing me to participate and 
provide this statement at today's very important hearing on 
California's fragile water supply.
    Two great issues face our state. First, many of our 
districts have been so hard hit by the economy and double digit 
job loss. Second, California faces such a dire water supply 
shortage, we are approaching our third year of an ongoing 
drought, and our economy is made up of many different sectors 
which are impacted either directly or indirectly by the 
availability of water. With the economy and water supply so 
inextricably dependent on each other, it is imperative that we 
start working together with a shared regional strategy to look 
for solutions to help adapt and mitigate our state's water 
supply.
    I am proud to have a number of local and municipal water 
districts in my district of the San Gabriel Valley who have not 
only worked toward innovative water systems for clean-up, 
reuse, recycling and storage, but have also waged a campaign to 
raise awareness and educate businesses and residents about the 
importance of water conservation. As a result, there has been a 
significant reduction of water usage.
    My hope is that we no longer look at our fragile water 
aquasystem and supply as an issue of Southern California versus 
Northern California, but that we come together as one state to 
work together to ensure that we have a quality and dependable 
water supply for our businesses, our farmers, our fisheries, 
and our communities for many generations to come.
    In Southern California alone, we have been able to use 
Title XVI funds to help develop local water supplies and 
augment and replace imported water. Consequently, we have been 
able to reduce our water usage in Southern California by 18 
percent, even in light of an increasing population. Imagine 
what we would be able to do is we could come together and deal 
with this crisis with a statewide approach and, of course, 
include the important piece, which is active and engaged 
participation from our Federal agencies.
    We in Congress must be fully engaged, and with the 
leadership of Chairwoman Napolitano, I look forward to working 
together with my colleagues and our delegation on how Congress 
can continue to stay engaged and bring better resources to deal 
with this ongoing water supply source that our state is facing.
    I thank the witnesses who have traveled from near and far 
to provide their expert testimony, and I look forward to 
hearing your perspectives on the challenges and opportunities 
of California's water supply.
    Mrs. Napolitano. Thank you, Congresswoman Chu. Thank you 
for being with us and being part of this, because it affects 
everybody in Southern California as well as those in Northern 
California.
    We move on to our witnesses. We have three panels, as 
stated before, and witnesses will be introduced before they 
testify. After we hear from a panel, we will have a question 
and answer period. All your submitted prepared statements will 
be entered into the record, and all witnesses are asked to 
kindly, please, summarize the high points of your testimony, 
because they will be on the record, and limit your remarks to 
five minutes, and the timer before you that will be used to 
enforce the rule.
    It also applies to the question and answer period, a total 
of five minutes for questions, including responses, applies to 
our Members of Congress. If there are any additional questions, 
if time permits, we may have a third round, but don't bank on 
it. We have 13 witnesses.
    The first panel, we have The Honorable Michael Connor, 
Commissioner, Bureau of Reclamation, Department of the 
Interior, from Washington, D.C. The second witness is Honorable 
Anna Caballero, Assembly Member of the California State 
Legislature, representing the 28th Assembly District in 
Sacramento, and the third panelist is The Honorable Lester A. 
Snow--congratulations, sir, on your recent appointment as the 
new Director of the California Department of Water Resources in 
Sacramento.
    We are very thankful that you were able to find the time to 
be with us today. So we will begin with The Honorable Mike 
Connor.

   STATEMENT OF HON. MICHAEL CONNOR, COMMISSIONER, BUREAU OF 
          RECLAMATION, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Connor. Thank you, Madam Chairwoman and members of the 
Subcommittee. I am Mike Connor, Commissioner of the Bureau of 
Reclamation. I am pleased to summarize my written statement and 
give the Department's perspective on California's water supply.
    Again, I am here with guarded optimism that the recent 
storms, which I do understand have brought some local flooding 
here in Southern California, have at least on the positive side 
brought water supply improvements for reclamations in major 
reservoirs in California, but this recent storm between January 
15th up to January 20th started at Shasta, Folsom and Trinity 
and New Melones Reservoirs improved by about 361,000 acre-feet 
in total.
    More rain followed this past weekend. A week of rain, 
however, does not make up for three years of drought. 
Notwithstanding improvements, the major CVP reservoirs still 
only range from 60 percent to 77 percent of average storage for 
this time of year. Nonetheless, we are hopeful that, as we move 
through the rainy season, the positive trend will continue.
    I should note for the record, though, in response to the 
initial statements, that right now we are pumping from the 
Federal facilities, the Jones Pumping Plant. In total, the 
combined state and Federal pumps are pumping approximately 
6,000 CFS. The Smelt Working Group did meet this morning, and 
there were no recommendations to restrict the pumping at this 
point in time. So that is where we are currently. There is a 
restriction in place as a result of the NOAA Biological Opinion 
that is currently the basis for the 6,000 CFS but, nonetheless, 
there is substantial----
    Mrs. Napolitano. Commissioner, would you restate that? We 
have Mr. Costa who wants to hear you. You are not coming in 
loud enough.
    Mr. Connor. Oh, I am sorry.
    Mrs. Napolitano. The last statement that you just made.
    Mr. Connor. So in response to the comments earlier, with 
respect, I just wanted to provide the Subcommittee a status 
update on where we are with respect to pumping from the 
combined state and Federal water projects. We are presently 
pumping about 6,000 CFS from those facilities. The Smelt 
Working Group did meet this morning to review the conditions. 
There were no recommendations for any restrictions on the 
pumps. Currently, there is a limitation provided by the NOAA 
Biological Opinion that limits the negative flow in the Owens 
and Middle Rivers to -5000 CFS. So currently that is what is 
operationally keeping the pumping at 6000 CFS.
    Mr. Calvert. Madam Chairwoman, just a technical----
    Mrs. Napolitano. Can you wait until the questions later.
    Mr. Calvert. All right.
    Mrs. Napolitano. Please continue.
    Mr. Connor. I should also note that recent rains have 
helped storage in the Lower Basin of the Colorado River 
watershed. Fortunately, Lake Mead has gained a little bit of 
elevation this past week as less water was being used 
downstream as a result of the wet weather. Overall, the current 
trend is one of improvement from the water supply's 
perspective.
    It goes without saying, though, that drought impacts 
California uniquely due to its large population, reliance on 
imported supplies, and the intense competition for the use of 
limited supplies.
    At the end of the last California drought, which lasted 
from 1987 to '92, California's population was just over 31 
million. Today, there are roughly 7 million more Californians, 
all of whom need water, and the agricultural production and 
other economic activities supported by water. In this setting, 
the Subcommittee's focus on water conservation is right on 
point. Other means of enhancing supply are also appropriate to 
consider.
    One of the most successful Federal programs for water 
conservation is the Reclamation's Title XVI program. In 
Southern California this program has enabled reclamation to 
support 26 water recycling or groundwater projects which at 
full build-out will provide over 392,000 acre-feet of water per 
year to communities in Southern California.
    Last year, President Obama signed the American Recovery and 
Investment Act, and this has provided an opportunity to make 
meaningful progress in addressing the backlog of Title XVI 
projects, and it will help reduce dependence on the 
increasingly fragile Bay-Delta in the long term. All told, more 
than 400 million, roughly 40 percent of Reclamation's Recovery 
Act funding, has gone to California projects, significantly 
more than any other reclamation state.
    We are applying this funding to a mix of projects to 
promote not just traditional water supplies but also 
restoration efforts to improve the ecosystem and stabilize 
Reclamation's own ability to delivery water. Still, concerted 
efforts of water conservation cannot erase the fact that 
Southern California depends on imported water for the majority 
of its total annual water supply. Using 2004 as a reference, 
within the Metropolitan Water District Service Area where we 
are today, 1.8 million acre-feet came from the state water 
project from the Sacramento-San Joaquin Delta. Another 700,000 
acre-feet came from the Colorado River to the east. The 
remainder of that imported supply, roughly 200,000 acre-feet, 
comes from the Owens Valley.
    As California continues to diversify its water supply and 
promote conservation and efficiency, it is imperative that we 
continue to improve conditions in the Colorado River Basin and 
the Bay-Delta region. Notwithstanding drought, the Colorado 
River apportionment to California this year will be the full 
4.4 million acre-feet. Reclamation in the seven Basin states 
and a number of partners have made great progress in the last 
10 to 15 years in adjusting operational issues in the Colorado 
River Basin and preparing for the day when demand exceeds 
available water. This effort continues to be a work in 
progress----
    Mrs. Napolitano. Please continue. You have a minute left.
    Mr. Connor. Thank you, Madam Chairwoman. And we look 
forward to continuing our efforts to use water more efficiently 
and to conserve storage, wherever possible.
    With respect to the QSA, that is a matter that is currently 
in litigation, but I will say that the Federal Government 
believes it has valid agreements with the parties to the QSA, 
and we intend to stand by those agreements.
    Parts of the Bay-Delta are less certain at this time. The 
importance of the Bay-Delta to Southern California's water 
supply was starkly evident in 2009.
    To address the issues associated with restricted water 
supply and environmental conditions in the Delta, the 
Department released an Interim Federal Action Plan for the 
California Bay-Delta on December 22, 2009. In this document we 
have detailed plans for a new path forward in the Bay-Delta 
region.
    Specifically, the Federal Government reaffirmed its 
partnership with the State of California and its commitment to 
coordinate a range of important actions with those of the 
state. Most important is our joint work to produce the Bay-
Delta Conservation Plan. The BDCP is the most significant 
effort underway to address long-term water issues in California 
generally and in the Bay-Delta specifically. The Federal 
Government is fully committed to the BDCP process and is now 
more fully engaged than ever before.
    We will ensure that Federal actions in this area complement 
recently enacted California water legislation, with the 
ultimate goal of being able to deliver water on a reliable 
basis without continued harm to the Bay-Delta ecosystem.
    In the meantime, we will continue to implement actions in 
the near term to shore up water supplies for those water users 
suffering significant shortage. In 2010 we will facilitate 
final permitting construction of the Delta-Mendota and 
California Aqueduct Intertie, which will allow greater 
flexibility in operating the state and Federal pumps and allow 
for recovery of water between the two systems. We expect to 
initiate construction in June of this year and to complete that 
in the fall of 2011.
    Ultimately, the project is anticipated to restore 
approximately 35,000 acre-feet annually of project water to the 
CVP. We will also continue to work closely with the state to 
facilitate voluntary water transfers, building on the 600,000 
acre-feet of transfers that occurred in 2009. Maximum 
operational flexibility will also be pursued in the scheduling 
guidelines and water contracts.
    Thank you again for the opportunity to testify on this 
important subject. I will be happy to answer the questions at 
the appropriate time.
    [The prepared statement of Mr. Connor follows:]

 Statement of Michael L. Connor, Commissioner, Bureau of Reclamation, 
                    U.S. Department of the Interior

    Madam Chairwoman and members of the subcommittee, my name is Mike 
Connor, Commissioner of the Bureau of Reclamation. I am pleased to 
provide the perspectives of the Department of the Interior (Department) 
on the California water supply as we move into what may prove to be a 
fourth year of drought in California. I will also address some of the 
subcommittee's specific interests in water conservation, reuse and 
recycling.
    Last year, the water supply conditions confronting the Bureau of 
Reclamation (Reclamation) and its customers in California, particularly 
south of the Delta, brought about one of the most difficult years in 
our history. This year may prove to be no less severe. Next month, 
Reclamation's Mid-Pacific Region will announce its initial forecast of 
agricultural, municipal and industrial water supplies from the Central 
Valley Project (CVP), which will likely feature very low water 
allocations. The actual numbers are still being determined by our 
Central Valley Operations office using the latest snowpack and 
streamflow data. Here in the Lower Colorado Region, a drought persists 
on the Colorado River, but all states in the Lower Basin will receive 
their full apportionments under the Annual Operating Plan (AOP) for the 
Colorado River which was published by the Department on January 5th.
    While there have been more severe droughts, never before has 
drought fallen upon a state with so large a population, and so many 
competing uses for its water. At the end of the last California 
drought, which lasted from 1987 to 1992, California's population was 
just over 31 million. Today, there are roughly seven million more 
Californians, all of whom need water and the agricultural production 
and other economic activities supported by water.
    Here in southern California, local governments and agencies like 
the Metropolitan Water District of Southern California (MWD) have 
responded by partnering with state and Federal agencies to achieve 
tremendous reductions in per capita urban water use. For example, the 
City of Long Beach has reduced its per capita water use from 138 
gallons per day in 2000 to 103 gallons per day in September 2009. In 
addition to this tremendous reduction in water use through 
conservation, the City of Long Beach announced in September 2009 that 
water demand was 21 percent below the 10-year average water demand. 
While market forces and the price of water play a role in this dynamic, 
the region's inherently dry hydrology has instilled an acute awareness 
of the value of water and its conservation in an arid region.
    One of the Federal programs for water conservation is the 
Reclamation Wastewater and Groundwater Study and Facilities Act, Title 
XVI of Public Law 102-575. In southern California, this program has 
enabled Reclamation to help fund the planning or construction of 26 
water recycling or groundwater projects which at full build out will 
provide over 391,650 acre-feet of water per year to communities in the 
greater Southern California coastal areas of Los Angeles, Orange 
County, San Diego and the Inland Empire. This amount of water is enough 
to serve the needs of approximately 391,650 five-person households, or 
approximately 1.96 million people. Before the enactment of the American 
Recovery and Reinvestment Act (ARRA), Federal investments in Title XVI 
overall totaled about $389 million through FY 2009 and resulted in an 
estimated 245,000 acre-feet of water made available in 2009.
    The Title XVI program was established by Congress in 1992 to 
provide Federal funding of up to 25% of a project's construction costs, 
with all operations and maintenance funding provided by project 
sponsors. While the program has provided more than $392 million in 
funding for these southern California projects since its inception 
through Fiscal Year 2009, including ARRA, the number of Title XVI 
projects submitted to Reclamation for study and to this subcommittee 
for authorization continues to expand.
    In view of this and the serious water issues facing California, the 
Obama Administration is taking actions that have brought and continue 
to bring substantial Federal investment in California's water 
infrastructure. As referenced above, last year President Obama signed 
the American Recovery and Reinvestment Act (ARRA). This law has 
provided an opportunity to fund many of California's water challenges 
and projects, will help maximize the continued and future delivery of 
water, and may reduce some of the demand placed on the Bay-Delta. All 
told, more than $400 million, roughly 40 percent of Reclamation's ARRA 
funding, has gone to California projects, significantly more than any 
other Reclamation state. We are applying this funding to a mix of 
projects to promote not just traditional water supplies, but also 
healthy fisheries and habitat projects to recover, sustain, and protect 
species' ability to reproduce and thrive. We understand our obligation 
to protect aquatic resources in California together with our state and 
Federal partners, and we know that the economic impacts of fishing 
season closures on salmon fishing communities are felt no less severely 
than in other sectors of the economy.
    The Department effectively maximizes the value of its scarce 
resources for Title XVI projects and complementary programs like Water 
Conservation Initiative Challenge Grants. Challenge Grants, like Title 
XVI, leverage non-Federal dollars to effectively and efficiently manage 
water in communities where the need exists. Whereas Title XVI recycles 
and reuses otherwise unusable water supplies, Challenge Grants provide 
incentives for water users to actually use less water than would 
otherwise be the case. The Department's Water Conservation Initiative, 
which incorporates Title XVI and Challenge Grants, was a centerpiece of 
our 2010 budget request, and will be a continuing priority of this 
Administration going forward. In addition, last summer Reclamation 
announced 16 awards totaling $5.6 million as part of the 2009 CALFED 
Water Use Efficiency Grant Program. Even before the drought struck, 
Reclamation had been putting significant effort and resources into 
various initiatives intended to minimize the serious impacts from 
periods of dry hydrology. Since 2004, Reclamation has awarded over $40 
million in cost-shared financial assistance for 67 projects in 
California under the competitive Challenge Grant Program referenced 
above. The improvements resulting from these grants are projected to 
create or conserve 177,000 acre-feet of water annually for agricultural 
and urban uses.
    Still, concerted efforts at water conservation cannot erase the 
fact that southern California depends on imported water for the 
majority of its total annual water supply. <SUP>1</SUP> The amounts 
vary depending on the water year type. Using 2004 as a reference, 
within the MWD service area where we are today, 1.8 million acre-feet 
came from the State Water Project from the Sacramento/San Joaquin Bay-
Delta in the north. Another 700,000 acre feet in 2004 came from the 
Colorado River to the east. The remainder of the imported supply, 
roughly 200,000 acre-feet, comes from the Owens Valley. About 1.6 
million acre feet, or 38 percent of MWD's overall supply in 2004, came 
from local supplies, according to MWD's most recent Regional Urban 
Water Management Plan.
---------------------------------------------------------------------------
    \1\ All figures in this paragraph derived from the November 2005 
Regional Urban Water Management Plan of the Metropolitan Water District 
of Southern California, pgs. A2-1, and table A.2-1 http://
www.mwdh2o.com/mwdh2o/pages/yourwater/RUWMP/RUWMP--2005.pdf
---------------------------------------------------------------------------
    Notwithstanding drought, the Colorado River apportionment to 
California this year will be the full 4.4 million acre feet, with the 
potential for some surplus under the Annual Operating Plan (AOP) for 
the Colorado River. The Quantification Settlement Agreement (QSA), 
executed by the Secretary of the Interior and other parties in October 
2003, was a major milestone on the Colorado River and is important to 
all who rely on the Colorado River. In short, the numerous Federal and 
non-Federal agreements reached in 2003 result in a more efficient 
management of the beneficial use of water in California under the 
Consolidated Decree in Arizona vs. California and other authorities. 
The QSA agreements help to ensure that California's long term use of 
the river is within the State's 4.4 million acre-feet annual 
apportionment under Federal law.
    Validation proceedings relating to certain of the agreements 
reached in 2003 are currently pending in California state court. These 
are contested proceedings to which the United States is not a party. 
The litigation is ongoing in 2010, and the Department does not intend 
to comment on those proceedings. The Department has valid and binding 
agreements with the California agencies that are parties to the 2003 
Colorado River Water Delivery Agreement and we intend to stand by that 
agreement.
    The importance of the Bay-Delta to Southern California's water 
supply was starkly evident in 2009. To address the issues associated 
with restricted water supply and the environmental collapse in the 
Delta, the Department released an Interim Federal Action Plan (Action 
Plan) for the California Bay-Delta on December 22, 2009. In this 
document, this Administration has detailed its plans for a new path 
forward in the Bay-Delta. Specifically, the Federal government 
reaffirmed its partnership with the state of California and its 
commitment to coordinate actions with those of the state. Most 
important is that Federal agencies are working in concert with the 
State of California and local authorities in producing the Bay-Delta 
Conservation Plan (BDCP). The BDCP is the most significant effort 
currently underway to address critical long-term water issues in 
California generally and in the Bay-Delta specifically. Consistent with 
the Action Plan released in December 2009, Federal agencies are 
bolstering their active participation in partnership with the State and 
local authorities in the collaborative, long-term Bay-Delta 
Conservation Plan (BDCP) process.
    Simply put, we are committed to work closely with the state of 
California, our Federal partners, water contractors, and all interested 
parties to encourage the smarter supply and use of Bay-Delta water. In 
2010, we will facilitate final permitting and construction of the 
Delta-Mendota and California Aqueduct Intertie. The Intertie will be a 
pipeline and pump station connection between the Federal Delta-Mendota 
Canal and California Aqueduct. Connecting these two facilities will 
allow greater flexibility in operating pumping systems which each have 
their own export constraints, and allow for recovery of water between 
the state and Federal systems. The Intertie's operations are included 
in the new biological opinions from the U.S. Fish and Wildlife Service 
and the National Marine Fisheries Service for the Delta. Intertie 
construction effects on terrestrial species were addressed in a 
project-specific biological assessment in August 2009. We expect to 
initiate construction in June of this year, and complete construction 
in 2011.
    Under the Action Plan released in December 2009, we will continue 
to foster water transfers between willing buyers and willing sellers, 
improve scientific knowledge of turbidity and Delta smelt, and use 
results from a pending National Academy of Science study on how to best 
balance water delivery needs with those of threatened and endangered 
species. The Federal agencies also will work closely with the state in 
developing mid and longer-term infrastructure options that can 
potentially address the chronic conflicts that led the Delta Vision 
report commissioned by Governor Schwarzenegger to conclude that current 
water supply strategies are unsustainable in the face of the Bay-Delta 
ecosystem collapse, climate change impacts and seismic risks.
    Finally, we will work together to continue to deliver drought 
relief funding and ensure integrated flood risk management, including 
the prioritization of projects and activities for flood risk management 
and related levee stabilization projects and navigation. The Action 
Plan features participation from the Department, the Army Corps of 
Engineers, the Department of Agriculture, the Environmental Protection 
Agency, the Department of Commerce, and the Council on Environmental 
Quality.
    Of course, groundwater will continue to be an essential water 
supply for many of California's coastal and inland communities. With 
the combined impact of the drought and environmental needs, existing 
groundwater sources are being significantly stressed. Within the 
Department, the U.S. Geological Survey is actively engaged in expanding 
the range of information available to water users and policymakers 
regarding groundwater. The USGS developed the Central Valley Hydrologic 
Model to assess water resources in the Central Valley, which is an 
important tool to evaluate the impacts of drought on groundwater 
conditions. Reclamation has helped fund new USGS work to combine use of 
the Central Valley Hydrologic Model with new data collection to look 
specifically at potential subsidence impacts on water-delivery canals. 
This new hydrologic model can also be used by water managers to address 
water issues related to conjunctive water use, recognizing the 
interdependence of surface water supplies and groundwater.
    According to the USGS, the San Joaquin Valley, which includes the 
San Joaquin and Tulare Basins, has experienced large changes in 
groundwater storage. In the early 1960s, groundwater pumping caused 
water levels to decline to historic lows on the west side of the San 
Joaquin Valley, which resulted in large amounts of surface subsidence. 
In the late 1960s, the surface-water delivery system began to route 
water from the wetter Sacramento Valley and Delta regions to the drier, 
more heavily pumped San Joaquin Valley. The surface-water delivery 
system was fully functional by the early 1970s, resulting in 
groundwater-level recovery in the northern and western parts of the San 
Joaquin Valley. Overall, the Tulare Basin portion of the San Joaquin 
Valley, the hottest and driest part of the Central Valley, is still 
showing declines in groundwater levels and accompanying depletion of 
groundwater storage. This fact will affect the overall water supply 
available to agriculture water users.
    Reclamation remains focused on managing, developing, and protecting 
water and related resources in an environmentally and economically 
sustainable manner in the best interest of the American public. We know 
that an emphasis on water conservation is key to the sustainability of 
the state of California. I am committed to doing all I can to further 
this mission and, to the best extent possible, meeting the needs of our 
customers.
    Thank you again for this opportunity to testify on this important 
topic. I would be happy to answer any questions the subcommittee may 
have.
                                 ______
                                 
    Mrs. Napolitano. Thank you, Commissioner.
    Now we will hear from Assemblywoman Anna Caballero.

   STATEMENT OF HON. ANNA CABALLERO, ASSEMBLY MEMBER OF THE 
 CALIFORNIA STATE LEGISLATURE, REPRESENTING THE 28TH ASSEMBLY 
                DISTRICT, SACRAMENTO, CALIFORNIA

    Ms. Caballero. Good afternoon, Madam Chair and members. It 
is quite good to be here today. Thank you for the invitation.
    As you heard, I represent the 28th Assembly District, which 
is primarily an agricultural community representing the Salinas 
Valley, San Benito County, Watsonville and Delroy. It is a 
major area where fruit and vegetables are produced, and I am 
here today because we really have an opportunity to work in 
partnership, and it is going to be absolutely critical.
    I do apologize. I will make my comments very brief. I had 
expected to have 15 minutes to speak. I was prepared to talk 
about the recent legislation that was passed in Sacramento. I 
will refer you to the documents that have been prepared by the 
Water Resources Board to have detailed information, and so I 
won't go into that.
    Mrs. Napolitano. Ms. Caballero, would you just mention 
where they are so that the public and Members of Congress would 
know.
    Ms. Caballero. Yes. The documents, Madam? The documents are 
the Safe and Clean Reliable Drinking Water Act of 2010, which 
is the water bond document, and then a Comprehensive Water 
Package, which is four bills that we adopted at the same time. 
You will see the Water Bond on the ballot, or you should, in 
November 2010.
    I wanted to take a minute today to reemphasize the issue of 
the lack of water for the Central Valley, because it also 
impacts the 28th Assembly District, which is San Benito County. 
I apologize for reiterating the facts, but I think they 
absolutely have to be discussed here today, because the fact 
that we are not able to take care of the ecosystem and export 
water at the same time has had a tremendous impact, negative 
impact, on the Central Valley and San Benito County.
    It is carving a huge depletion of groundwater reserves in 
that area, and it is anticipated to create a significant loss 
of land as the property starts to subside and you lose the 
opportunity to store groundwater. But more importantly, 500,000 
acres of farmland has been idled due to the lack of water. Over 
21,000 jobs have been lost at a time when we can least afford 
to lose those jobs, $1 billion in economic loss in the 
agricultural sector.
    Small businesses are at risk, and there are long food 
lines, and you will hear today that many farmers are at risk of 
losing their property. I have recently heard of farmers that 
have been multi-generation farming that have lost their 
property, absolutely unacceptable in one of the richest 
agricultural valleys in the world and in our country.
    You have heard that small communities in the west side of 
the Valley, Mendota and Firebaugh, have faced 40 percent 
unemployment and that people are standing in long food lines. 
These communities can't survive another year with minimal 
allocations, and we have heard this year that the allocation 
will be five percent. While we are hoping that the region range 
will change that. Five percent allocation means that there will 
be no farming.
    It is absolutely imperative that we work together, the 
state government and the Federal Government, to do everything 
we can to work collaboratively, and let me give you an example 
of one of the frustrations. As we were negotiating the package 
of bills, the water bills, in the fall, I had an opportunity to 
travel to Washington, D.C., where we discussed with the 
Administration the opportunity to invest in the Two Gates 
Project, which would provide an opportunity for us to see if we 
could separate the Delta-Smelt from the turbid pumps in the 
Delta.
    We understood that that was a high priority for the 
Administration. We, therefore, put into our package of bills 
$28 million in state funding and moved ahead very quickly on 
that, because we wanted to see that project come to life. We 
understood that the Federal Government had put up $10 million, 
and recently learned last week that that project is off the 
table.
    It is very frustrating to have worked so hard to create an 
opportunity to create a solution and then have it eliminated 
without any discussion about why that happened and what our 
next plan is.
    So to wrap up, it is absolutely imperative that we come up 
with some vigorous discussion about how we can solve this water 
problem, how we can get water immediately to the Central Valley 
at a time when we have such high unemployment here in the state 
to put people back to work, which could make a big difference 
and could show that, in fact, we are working together, the 
state government with the Federal Government, to try to solve a 
problem that has been created.
    So I thank you for the opportunity to be here today and 
look forward to continued discussions, and I want to recognize 
the Chair. She has really been an advocate of a water solution, 
and I appreciate the opportunity to testify.
    Mrs. Napolitano. Thank you so very much for being here and 
for your kind words. It is my understanding that Two Gates is 
not off the table. It is just delayed because of certain 
issues. So we look forward to hearing more on that.
    [The prepared statement of Ms. Caballero follows:]

       Statement of The Honorable Anna Caballero, Assemblywoman, 
                      California State Legislature

    Madame Chair Napolitano, my name is Anna Caballero and I represent 
the 28th District in the California State Assembly. Thank you for 
convening this hearing here in California on our water supply 
challenges. We appreciate your drawing the attention of the Congress to 
some of the difficulties we have experienced--and continue to 
confront--on ensuring reliable water supplies for our state's 
agricultural, urban and environmental needs.
    While we benefited from a good amount of rain all over California 
last week, our water challenges remain. This year's State Water Project 
initial water delivery allocation was 5% of contract entitlements--the 
lowest in history. Last week's rain and snow helped, but we will need a 
substantial amount more than average to refill our water storage 
reservoirs. The Sacramento-San Joaquin Delta remains in crisis, for 
both its ecosystem and water exports. The recent drought has led to 
depletion of our groundwater reserves. We have many challenges ahead 
and, hopefully, with the State and the Federal Government working 
together, we will take advantage of the opportunities that arise.
    Last year, the Legislature stepped up to address some of the 
critical water challenges California faces. We took important first 
steps on several issues, but they are only the first. We need all 
agencies, stakeholders and communities to step forward to make some 
difficult decisions in the years ahead. The Legislature has set some 
new directions, a path forward, but we need all critical players to 
move forward on that path.
    The Federal Government is one of the most important players in 
California water. It holds the largest block of water rights in 
California--about 7 million acre-feet. It has broad authority--and 
responsibility--to address water and aquatic ecosystem problems, 
particularly in the Delta. While the Congress has shown a ``consistent 
thread of purposeful and continued deference to state water law,'' the 
Federal Government has a long history of leadership in California water 
issues. We need the Congress and the Obama Administration to step 
forward to contribute to resolving some of our most pressing water 
issues.
    In last year's Delta/Water Legislation, we invited the Federal 
Government to participate and offered contributions to facilitate that 
participation. The best way to start the discussion of how we might 
work together is a summary of the legislative package:
    <bullet>  SB 1 (Simitian)/Delta Legislation: Reforms state 
policies, programs and governance for the Sacramento-San Joaquin Delta 
(Delta), and establishes guidelines for developing a new Delta Plan. 
Appropriates $28 million for the federal ``Two Gates'' project in the 
Delta.
    <bullet>  SB 2 (Cogdill)/Water Bond: Authorizes an $11.14 billion 
water infrastructure bond for the November 2010 ballot. Funding 
categories include drought relief, the Delta, water storage, integrated 
regional water management, watershed conservation, groundwater quality, 
and water recycling.
    <bullet>  SB 6 (Steinberg)/Groundwater Monitoring: Creates a 
statewide groundwater elevation monitoring system, relying on local 
agencies in all basins to report the depth to groundwater.
    <bullet>  SB 7 (Steinberg)/Water Conservation: Establishes a 
statewide water conservation program, in a new ``Sustainable Water Use 
and Demand Reduction'' part in the Water Code (Part) and reauthorizes 
the Agricultural Water Management Planning Act. Sets an urban water 
conservation target of 20% reduction in per capita water use by 2020, 
allowing flexibility for local agencies to determine how best to 
accomplish that reduction.
    <bullet>  SB 8 (Steinberg)/Water Reporting & Appropriations: 
Deletes water diversion reporting exemptions for diverters in the 
Delta. Appropriates funding from bonds and a special fund for increased 
State Water Resources Control Board enforcement staff and other Delta/
water projects.
    As a package, these bills address several of California's water 
challenges, but I wish to draw your attention, in a bit more detail, to 
the Delta bill--Senate Bill 1 by Senator Joe Simitian. The Delta is 
where we need the Congress and the Federal Government to engage the 
most. The operation of the federal Central Valley Project translates 
into several federal agencies taking action in the Delta--the Bureau of 
Reclamation, the Fish and Wildlife Service and the National Oceanic and 
Atmospheric Administration--and federal courts intervening in those 
activities.
    We structured the Delta bill to invite the Federal Government to 
engage with us in setting a new direction for Delta policy. In enacting 
this legislation, we exercised the State's authority over the control, 
appropriation, use, and distribution of water generally. In structuring 
the development of a new Delta Plan, we required state agencies to take 
actions that would engage the Federal Government, including requiring:
    <bullet>  Delta Stewardship Council to consult with federal 
agencies in developing the Plan.
    <bullet>  Development of the Delta Plan consistent with federal 
laws, including the Coastal Zone Management Act, the Clean Water Act 
and the Reclamation Act of 1902.
    <bullet>  Delta Stewardship Council to submit the Delta Plan to 
federal agencies for approval, if the Delta Plan is adopted pursuant to 
the federal Coastal Zone Management Act.
    This last requirement, in particular, invites the Congress to 
engage in thinking about a new federal law to improve federal and state 
agency cooperation in the Delta. Section 85300(d) of the California 
Water Code allows submission of the Delta Plan to any federal official 
assigned responsibility for the Delta pursuant to a new federal 
statute, anticipating that Congress may enact a new law in response to 
the State's new statutory framework for the Delta.
    Let me be clear: We invite you to work with us in the Legislature 
in crafting a new legal relationship between the state and federal 
governments in the Delta. Our legislation sets a new course, but 
requires many decisions in the years ahead. It establishes a framework 
for structuring the federal-state relationship, but only Congress can 
enact laws to require federal agencies to work with us and follow our 
State's leadership. We hope to have the opportunity to work closely 
with you on the challenges we all face in the Delta
    We need to craft an enduring relationship that ensures federal 
engagement regardless of who sits in the White House. For eight long 
years, the Bush Administration ignored its responsibilities in the 
Delta. When Secretary Salazar showed up for a Delta helicopter tour 
last year, we were delighted to welcome him to one of our greatest 
water debates--the first time a Secretary of the Interior had visited 
the Delta since Secretary Bruce Babbitt visited several times in 2000, 
during development of the CALFED Bay-Delta Program. Bureau of 
Reclamation Commissioner Mike Connor also has visited our state on 
several occasions. We need to find a way to institutionalize that level 
of federal engagement in protecting the Delta to achieve the co-equal 
goals of ``providing a more reliable water supply for California and 
protecting, restoring, and enhancing the Delta ecosystem.''
    Our two legislative bodies working together to fashion that 
enduring relationship between our governments offers the best 
opportunity for our State of California to overcome the challenges it 
faces in water policy.
                                 ______
                                 
    Mrs. Napolitano. The Honorable Lester Snow.

  STATEMENT OF HONORABLE LESTER A. SNOW, DIRECTOR, CALIFORNIA 
     DEPARTMENT OF WATER RESOURCES, SACRAMENTO, CALIFORNIA.

    Mr. Snow. thank you, Madam Chair and members. I appreciate 
the opportunity to talk about California's water issues. I 
submitted a statement, but I will hit a few other points, not 
directly within that statement.
    I first want to indicate that both documents that Assembly 
Member Caballero brought in are available on the Department of 
Water Resources website for anybody who would want to access 
them.
    First, let me put a finer point on what I will call the 
water supply update. As has already been mentioned, in 2009 we 
finished that. That was the third drought year in California. 
Last year, the State Water Project stood at a 40 percent 
allocation. The West Side CVP was at a 10 percent allocation. 
Water Resources started this year with a preliminary allocation 
for our contractors of five percent. That is the lowest in the 
history of the State Water Project.
    Fortunately, the storm track that has already been 
referenced--our snow pack is about 115 percent of normal to 
this date. The reason I stress this date is, if this is the 
snow pack we had at the end of the season, it would only be a 
64 percent of average supply. We will do the snow survey on 
Friday, and new updated appropriations on the 20th of February.
    If the storm track holds, we will do a little bit better, 
but actually, the fact that we are talking about a storm track 
and whether it will bail us out is actually a symptom of the 
problem that we have, and that problem is a water management 
system that is no longer keeping up with our needs. As a result 
of climate change, environmental degradation, and lack of 
sustained investment in the system, our water system can no 
longer meet the needs of the state.
    We need a long-term, comprehensive solution. In order to 
have a sustainable water resource system, our water management 
system must permanently change to a diversified approach. That 
means we have to look at energy, water and environmental 
issues.
    The Governor has consistently promoted the comprehensive 
approach that ranges from conservation, recycling, habitat 
restoration, to new reservoirs and new conveyance facilities in 
the state. We are long past the point that a single project or 
strategy can bail us out. Some might like to say, all we need 
to do is more conservation. Some might like to say, all we need 
to do is build one more reservoir. The fact of the matter is we 
have to implement all of those options. The Governor has 
consistently proposed an infrastructure investment strategy 
that attempts to fund all of those activities, a diversified 
approach.
    Let me hit just a few points along those lines. Our entire 
system is based around development and use of surface water and 
the development of groundwater supplies. It is the stable 
foundation of our water system. If we are conserving water, we 
are conserving surface and groundwater that has been developed. 
Therefore, recycling water, it is dependent on surface and 
water supplies. We must reinvest in our surface and groundwater 
systems in order to make it through this problem and deal with 
the century to come.
    Conservation is a great opportunity. There is much to be 
saved and provided in terms of stability through our 
conservation efforts. In terms of urban areas of California, 
there is approximately 9 million acre-feet that is used in 
urban California. Well over half of that is used outdoors. 
There is great conservation potential to save outdoor water use 
in urban areas, with little, if any, impact to lifestyle in the 
state.
    We estimate that somewhere in the neighborhood of 2 million 
acre-feet of additional conservation savings is available in 
urban areas without affecting lifestyle. The Governor has 
pushed and committed to achieving 20 percent reduction in use 
by 2020, and the Legislature passed for the first time ever a 
conservation bill. Implementing that conservation bill not only 
will save water, but will actually reduce CO<INF>2</INF> by 1.4 
million metric tons.
    Recycling water use: Today we recycle about 250,000 acre-
feet. There is a potential for as much as 2 million acre-feet. 
Today we have about 160,000 acre-feet of desalination capacity, 
with another 400,000 on drawing boards.
    Now let me close very quickly with a couple of fundamental 
points. Our future lies in fixing the Delta. That means 
restoring habitat, changing conveyance, and addressing the 
other stresses that are affecting the species beyond the water 
system. It means passing the water bond. The water bond funds 
new storage, conservation, recycling, local conveyance, and 
habitat. We need to reinvest in our water future.
    Finally, let me reiterate the point that the Commissioner 
has already mentioned, the state's commitment to QSA. No matter 
what the Judge has done, whether through appeal or whether 
through a change in the contract, QSA will stay together, and 
we will meet the needs of those agreements. Thank you.
    Mrs. Napolitano. Thank you, Director Snow.
    [The prepared statement of Mr. Snow follows:]

                Statement of Lester A. Snow, Director, 
                California Department of Water Resources

Introduction
    Chairwoman Napolitano, and members of the Subcommittee, I 
appreciate the opportunity to appear before you today to discuss the 
challenges and opportunities facing California's water supply.
    Recognizing the critical importance of a reliable water supply to 
our economy and our environment, Governor Arnold Schwarzenegger's 
administration has focused unprecedented resources and leadership to 
address the state's water issues. Those efforts culminated this past 
November with the passage of a comprehensive water package and bond 
proposal that will reform, rebuild and restore California's water 
system. At the federal level, focus and support from our California 
Congressional delegation and the Obama Administration has been vitally 
important in dealing not only with our current water crisis but also 
the steps necessary for our long-term water reliability and security.
    There is no single approach to managing California's water 
resources or the entirety of our state's natural resources in the face 
of ecosystem needs, the needs of a struggling economy, and the impacts 
of climate change. However we have the opportunity to implement 
programs and make management decisions based on strong science that 
achieves a new level of sustainable and integrated resource management. 
This may not be easy, but a sustainable resource management approach is 
the only way we can move forward in the 21st century.
    Today I would like to discuss current water conditions and how that 
relates to Southern California's water supply. I would also like to 
provide the Subcommittee with an overview of the comprehensive 
legislative package I just mentioned, and finally discuss the 
importance of a strong federal-state partnership to address the Delta 
and other statewide water issues.
Water Supply Conditions
    As you know, 2009 was a third straight year of drought in 
California. We saw 500,000 acres of farm land fallowed or pulled out of 
service. There are more than 60 water agencies with mandatory 
conservation requirements. We have seen significant and alarming over 
drafting of groundwater basins. Going into this winter, the carryover 
in the state's major reservoirs was one-third to one-half below normal. 
The latest Fall Midwater Trawl by the California Department of Fish and 
Game, which measures fish populations, has the lowest indices on record 
for delta smelt and longfin smelt. This is further evidence that the 
Delta, through which much of the water supply for Central and Southern 
California is conveyed, is an ecosystem in peril and in desperate need 
of restoration.
    Last month, the Department of Water Resources announced the lowest 
initial allocation on record for the State Water Project--just 5% of 
contractor requested amounts. The initial allocation is a very 
conservative estimate of what we expect to deliver in 2010 as a 
percentage of SWP contractors' initial requests for water deliveries. 
At that time, our Sierra snowpack levels were well below normal. Over 
the past 10 days, we have seen a marked improvement in conditions. But 
even if we end this year with normal levels of snow and runoff, our 
water supply outlook will not improve significantly. Regulatory 
restrictions on Delta exports in the spring and early summer will make 
it difficult to deliver water to Southern California, the Central 
Valley, the Bay Area and coastal cities, even if it is available in our 
reservoirs. Hopefully the current ``El Nino'' track of storms will 
improve our water supply conditions without causing significant flood 
damage.
Climate Change
    Many factors contribute to our current water crisis. From recent 
regulatory ecosystem protection measures to a multi-year drought, 
combined with an overlay of climate change that is not only affecting 
current conditions but will increasingly impact our water systems. 
Climate change impacts, including less snowpack, higher flood peaks, 
and sea level rise, create new uncertainties. By 2050, scientists 
project a loss of at least 25 percent of the Sierra snowpack with more 
of our precipitation occurring in the form of rain because of warmer 
temperatures, increasing the risk of flooding. More variable weather 
patterns may also result in increased dryness in the southern regions 
of the state.
    Many of the effects that could occur due to climate change can be 
mitigated, in part, with the same water management strategies one would 
employ when dealing with an extended drought.
    DWR's strategy to mitigate the combined effects of climate change 
and a decrease in the snowpack is multi-pronged and diverse. We are 
building a diverse and comprehensive ``portfolio'' of water management 
strategies that are effective in combination with each other, both in 
the short-term and long-term.
    In the short-term, DWR is promoting and financing programs which 
increase public education and awareness about water use and improve and 
increase water conservation and water recycling throughout California. 
We are striving to improve our emergency response to both flood and 
drought conditions. Of particular note, we activated our Drought Water 
Bank program last year, and a Water Transfers Program for this year to 
help alleviate statewide drought conditions. The Drought Water Bank 
serves as the ``broker'' between parties seeking to market or sell some 
or all of their legal water supplies to buyers who have critical water 
needs such as orchard growers. DWR staff responsible for the day-to-day 
operations of the State Water Project work closely with operators of 
the Central Valley Project and staff of the National Weather Service to 
optimize the efficiency and effectiveness of joint water project 
operations in tandem with forecasted weather conditions.
Regional Planning, Research and Technological Advances
    For the longer-term, DWR continues to be involved in funding 
research and advising on the development and advancement of new 
technologies such as desalination and water recycling, developing 
better climate change modeling capabilities and the administration of 
regional water use efficiency programs such as the Integrated Regional 
Water Management Program.
    DWR utilizes and continues to develop a variety of tools to 
forecast water supply dynamics. One of our significant efforts involves 
collaboration with NASA (National Aeronautical and Space 
Administration) to incorporate satellite imagery data into our 
assessments of snowpack extent and depth using different radar 
technologies. We are also developing detailed models of individual 
watersheds, within the larger Bay-Delta watershed, which can predict 
amounts and timing of snowmelt runoff, as well as runoff temperature.
    In an effort to better balance the needs for protection of 
potentially catastrophic flooding and a dwindling water supply in 
Central Valley reservoirs, new Forecast-Coordinated Operation 
partnerships are being developed among the reservoir operators and 
hydrologic forecasting agencies to improve decision support systems and 
to take advantage of improved meteorological forecasting to better 
optimize real-time reservoir management.
Colorado River
    Another major source of water supply for Southern California is the 
Colorado River. The Quantification Settlement Agreement--or QSA--is 
particularly important to ensure California preserves stability in its 
Colorado River supplies. The State Superior Court's recent tentative 
ruling invalidating key elements of the QSA agreements threatens 
California's water supply reliability; however, it is important to 
stress that the QSA parties, including the State of California, intend 
to work together to deal with issues raised in the court's ruling and 
jointly, will preserve this important agreement.
Policy Priorities and Funding
    We have a serious and complex water crisis looming in California, 
but this is also a time of great opportunity. It is a time for 
creativity, a time for new ideas, and most importantly, a time for 
action to ensure that future generations have a clean, reliable water 
supply that we've enjoyed for decades in this state.
    The legislative package that was passed in November with bipartisan 
support, and signed by Governor Schwarzenegger, recognizes the 
importance of solving California's complex water problems. It signals a 
commitment to the co-equal goals of water supply reliability and 
ecosystem restoration, a workable Delta governance structure and a 
clear path for the Bay Delta Conservation Plan. And it includes, for 
the first time, statewide conservation requirements for urban and 
agricultural water users as well as groundwater monitoring.
    We now have a policy framework for moving forward and a proposed 
$11 billion bond that will be on the November ballot. The bond is 
essential, providing funding for virtually every water management 
project that we can conceive of. This includes funding for water supply 
reliability, drought relief, surface and groundwater storage, Delta 
restoration, water recycling, conservation, watershed restoration, and 
groundwater protection and cleanup. Every region in the state will 
benefit from these funds. A portion of funding is guaranteed to each of 
the hydrologic regions, and all regions are eligible to compete for 
additional funding to help finance water management projects and 
programs with local, regional and statewide benefits.
    The South Coast region, which includes parts of Los Angeles, 
Orange, Riverside, San Bernardino, San Diego and Ventura counties would 
receive $856 million for water supply reliability projects and be able 
to tap into a share of $6.3 billion in other regional and statewide 
funding from the bond.
The Sacramento-San Joaquin Delta
    The Delta is not just the hub of California's water supply system, 
but a dramatic and critical manifestation of complex resource 
conflicts. It is, in many respects, the canary in the coal mine and the 
mine in this case is, ``How will society deal with complex resource 
conflicts at a statewide and national level?'' How do we find that 
balance between our economy and our environment as we move forward?
    The answer to that question lies to a large degree in a process we 
and numerous other government and non-government entities are currently 
engaged in known as the Bay Delta Conservation Plan or BDCP. BDCP 
represents a completely different approach to dealing with water 
problems. In the past, we would propose a project, and commit to 
mitigation of that project. In the case of BDCP, we've actually 
proposed developing recovery plans, a Habitat Conservation Plan (HCP) 
under federal law and a Natural Community Conservation Plan (NCCP) 
under state law, and we are looking at conveyance as a component of 
that strategy. It is a different approach but it is essential to moving 
forward and dealing effectively with California's future water needs. 
It is imperative that we continue on that path and it is imperative 
that we meet critical deadlines before the end of this year.
    That leads to the importance of the state-federal partnership. 
Active and committed federal involvement to solving California's water 
issues is essential. Having the high-level commitment from Secretary of 
the Interior Salazar and Secretary of Commerce Locke is essential to us 
carving out this new frontier on how we are going to resolve problems. 
Everything that we are trying to do and every approach that we are 
trying to make in terms of achieving co-equal goals and a balance in 
the Delta is dependent on federal decisions and the federal agencies 
being part of the solution. We cannot do it on our own.
    Fixing the Delta means real-time commitment and real-time decision 
making over the next 11 months. We have to make major accomplishments 
on flows, on conveyance, on extent of habitat, and a failure of us to 
make progress in 2010 prior to a transition to a new Governor taking 
office means, in the best case, delays. In the worst case, it means 
starting over. We cannot afford that either--for the economy or the 
environment.
    In December, the federal agencies issued an Interim Federal Action 
Plan for the Delta. In that document, federal officials strongly commit 
to work with California on a coordinated plan by February. That plan 
will identify our most important initiatives and near term action items 
deserving progress during 2010. Many forces--including old challenges 
and new leadership--converged to make this new state-federal 
partnership both necessary and possible. It represents a new era of 
unprecedented, close collaboration--a federal-state partnership that is 
absolutely essential to fixing the Delta and will represent a new 
frontier of problem-solving complex resource conflicts.
    The work plan provides an overview of key activities needed to make 
progress in the Delta and on wider water challenges in California. 
Among the major issues are development of a public draft of the Bay 
Delta Conservation Plan, action on water transfers for drought 
response, and coordination of state and federal Delta monitoring and 
research facilities. On water project operations, the plan calls for 
providing scientific information and working with the National Academy 
of Sciences on its current review of smelt and salmon biological 
opinions. Expedited action is contemplated on infrastructure projects 
including an Intertie linking the Delta-Mendota Canal and the 
California Aqueduct, providing more flexibility for state and federal 
water system operations and deliveries. Habitat restoration is also a 
major priority including a project to achieve flood control and 
ecosystem restoration benefits in the North Delta.
    Making it work probably means pushing harder than we have in the 
past, including tough calls and going outside our comfort zone. But 
there is no doubt that we need a collaborative approach to take 
advantage of the window of opportunity we have to change the way that 
we manage natural resources in California.
Conclusion
    We stand at a critical juncture in dealing with California's water 
issues. Our new reality is that we must manage a resource that is 
characterized by uncertainty and vulnerability due to climate change 
and changing ecosystem needs. The past is no longer an accurate 
indicator of the future.
    What we need is a roadmap of strategies for sustainable water use 
in California. We hope that the Congress and the federal government 
will continue to recognize the severity of this issue to our state and 
our nation, and work with us to make the changes and investments 
necessary to improve our water future.
    Thank you for the opportunity to testify before this Subcommittee. 
I would be happy to answer any questions.
                                 ______
                                 
    Mrs. Napolitano. I will now start with the questions and 
answers. I have many questions, and it would take the whole day 
for me to pose them, because there are so many issues, as we 
all know.
    Part of it is, Director Snow, have you thought of using the 
California Channel to educate the public on conservation, on 
the issue on--all those--the California Channel could be a 
perfect vehicle, if it is used. Then you have all the cities 
that have public access and government access channels that are 
free channels.
    Mr. Snow. Yes. You are talking about the public education. 
there have been different efforts to try to get that message 
out, both in the schools as well as advertising campaigns. 
Metropolitan Water District has been a leader here in Southern 
California, trying to get that message out.
    Mrs. Napolitano. No, I am talking about utilization of 
California Television Channel out of Sacramento that usually 
tapes--or actually runs the hearings in Sacramento, and it 
gives that information and all of that, but it is a perfect 
channel. It goes to many TV viewers. You need to think out of 
the box here, and that is what I am alluding to, is that have 
we done everything we possibly can to educate our general 
public. I am afraid the answer for me is no.
    Also, you mentioned the drought water bank in your 
testimony is a potential short term goal. What challenges did 
you face in facilitating the water transfers, and are east to 
west transfers possible under the current statute?
    Mr. Snow. Two parts to that. One, probably the single 
biggest issue we had with the drought water bank last year was 
the ability to move water across the Delta. Traditionally, in 
California the greatest source of water to move in drought 
situations is in the Sacramento Valley, typically with some of 
the rice growers up there. That means the water has to move 
across the Delta, meaning you have to have pumping capacity.
    So at different periods of time, we did not have the 
capacity because of restrictions, regulatory restrictions, to 
move the water across the Delta during certain periods of time, 
which increased the cost of water. There is the opportunity to 
move water from the east side of the valley, the San Joaquin 
Valley, to the west side of the San Joaquin Valley. Some of 
that actually has to flow through the pumping plant, because 
there is limited conveyance capacity across the Valley.
    Mrs. Napolitano. Well, there are many other areas that I 
would like to question, but I want to give my colleagues a 
chance. But, Commissioner Connor, thank you for being with us 
today. I told you, you would be on the hot seat today.
    There's a lot of questions that cross our mind, and I want 
to convey the thanks to Secretary Salazar, because you have 
been able to put--what?--seven agencies to work on the issue on 
Northern California. He visited it, the first time that the 
Secretary of the Interior has visited Northern California and 
talked, listened, maybe not acted to the extent that people 
want him to immediately, but you have only been here how many 
months?
    Mr. Connor. Personally, I have been on--it seems longer 
than it actually has, but I think it is about seven months.
    Mrs. Napolitano. Seven months, and we are trying to write 
eight years of policy that has been ignored in Washington. So I 
am sorry, but I am very, very concerned about the direction. 
Some people want to point fingers, and that just really irks 
me, because I know that you have been trying. I know we have 
dialogued with you. I know you have been responsive to a lot of 
Members, and we hope to continue to move on that.
    In August we provided Secretary Salazar suggestions on how 
to create 1 million acre-feet of water through water reuse, 
reclamation, conservation. Not only has the prior 
administration not wanted to consider Title XVI, which it only 
wanted in the toolbox to addressing water shortages in Southern 
California and, hopefully, in Northern California, also, but 
what has the Department done to address this, and will the 
Department address supporting our request for 200 million to 
address the 600 million backlog that the Bureau has on Title 
XVI?
    Mr. Connor. Well, thank you for your comments, Madam 
Chairwoman. First of all, I would be the first to acknowledge 
that, although I think we have done a lot--I have personally 
been out to the Valley and met the farmers on three occasions; 
twice, I have been out there with the Secretary of the 
Interior, Secretary Salazar--I think we would be the first to 
acknowledge that we need to do more, absolutely.
    The situation calls for action at the highest levels. We 
have tried to coordinate the Federal Government's activities 
through the Interim Federal Plan, and implementation of that 
plan and building on that plan are the highest priorities for 
this Administration.
    With respect to the notion of creating the 1 million acre-
feet of additional supply through Title XVI and other 
conservation efforts, I think we have also done a lot in that 
area. I think we have made effective use of the Recovery Act 
funds that the Bureau of Reclamation received.
    Approximately $950 million was provided Bureau of 
Reclamation, of which we have allocated approximately $405 
million of that funding to California. Of that, $134 million 
has gone to Title XVI recycling projects in California, and 
that is a good start in addressing the backlog, but even after 
that $134 million investment, we still have a $646 million 
backlog.
    Mrs. Napolitano. But you have reduced my budget.
    Mr. Connor. Yes. Well, I think on the positive----
    Mrs. Napolitano. And I didn't take kindly to that.
    Mr. Connor. Well, we will be--I think you can expect that 
there will be more support for Title XVI from this 
Administration, in addition to moving forward, getting those 
funds out of the gate and getting those projects--that money 
onto the economy to do its intended effect of providing jobs, 
as well as providing water. I think you will see a follow-up 
support for the Title XVI program.
    We are also looking at other aspects of the water 
conservation initiative, those being the challenge grant 
funding that we have. We allocated $40 million of Recovery Act 
money for water conservation efficiency activities, and $24 
million of that funding went to the State of California to 
facilitate conservation projects, some of that--I think, a 
majority of that in the San Joaquin Valley. That was on top of 
another $6 million in CALFED water efficiency grants.
    So we are building up to the level that you suggested in 
your letter last fall. We are not quite there, but we will 
continue to follow up those efforts with the resources we have 
this year, in 2010, as well as 2011 and beyond.
    Mrs. Napolitano. Well, thank you, and I hope that you can 
help us convince the Administration that this current thrust 
into jobs, of development, recycled water and some of the other 
water projects can be exceedingly beneficial in providing those 
job development and putting people back to work.
    Mr. Connor. Absolutely.
    Mrs. Napolitano. Thank you. Mr. McClintock.
    Mr. McClintock. Thank you very much, Madam Chairwoman.
    First, Mr. Connor, in your testimony you point out that at 
the end of the last California drought, which lasted for five 
years, California's population was just over 31 million. Today 
there are roughly 7 million more Californians, all of whom need 
water in the agricultural production and other economic 
activities supported by water.
    My question is: With that increase in need, why in the 
world are we still dumping 200 billion gallons of fresh water 
into the Pacific Ocean for the enjoyment and amusement of the 
Delta Smelt, a population which, as Mr. Calvert pointed out, 
continues to decline even with these massive water diversions?
    Mr. Connor. Well, we have limitations based on two 
biological opinions, one involving the Delta Smelt and one 
involving a number of salmon species, and there have been 
restrictions in place at some level for sometime. Those 
restrictions were enhanced this last year with the new 
Biological----
    Mr. McClintock.----Restrictions, which the Secretary of the 
Interior himself admitted to this Committee last year that they 
could suspend because of the severe economic damage being done 
to the Central Valley. However, they chose not to do so because 
that would be like admitting failure. But I put to you the 
question again. Given the dire need of this state for 
additional water, why in the world are we continuing the 
diversion of that enormous volume of water into the Pacific 
Ocean?
    Mr. Connor. I am not aware that that statement was made, 
and I don't understand, given the obligation to follow the 
Endangered Species Act----
    Mr. McClintock. The statement was made. In fact, I played a 
video tape of it this morning in Fresno. It did not go over 
well.
    Let me continue. You also say, notwithstanding drought, the 
Colorado River apportionment to California this year will be 
the full 4.4 million acre-feet, and there is a chance for some 
surplus under the annual operating plan for the Colorado River. 
It seems to me, if this is the third year of the severe drought 
and they are still able to deliver the full 4.4 million acre-
feet on the Colorado, not that much of a drought.
    Mr. Connor. The Colorado River has had the benefit of 15 
years of cooperation and negotiation amongst the seven Basin 
states the Federal Government and a number of water management 
agencies that have restructured the management of that system, 
that have led to a lot of cooperation in dealing with the 
Endangered Species Act issues that exist in the Upper Basin as 
well as the Lower Basin, and upon those cooperative efforts and 
the agreement to coordinate management operation of the 
reservoirs in that system, we have been able to maintain 
deliveries consistent with the Colorado River Compact.
    Mr. McClintock. Because we are not dumping 200 billion 
gallons of water from the Colorado River into the Pacific 
Ocean. We are only doing that on the Sacramento, which directly 
impacts the Central Valley and the agricultural heart of this 
state.
    Mr. Connor. We are not releasing water at that level, but 
there is certainly water being provided in the Upper Basin and 
the Lower Basin for environmental purposes to help mitigate the 
impacts of the Endangered Species.
    Mr. McClintock. Oh, so the difference between the drought, 
which on the Colorado River allows full delivery of the water 
plus maybe some surplus on top of that, and the Sacramento is 
the water diversions of the Sacramento.
    Let me go to Mr. Snow. What is the percentage of annual 
precipitation that we have seen in the past year compared to a 
normal year on the Sierra?
    Mr. Snow. Well, from memory I believe last year we ended up 
with about 67-68 percent of normal.
    Mr. McClintock. Of normal precipitation?
    Mr. Snow. For normal runoff.
    Mr. McClintock. Normal runoff?
    Mr. Snow. Right.
    Mr. McClintock. What about precipitation, because the 
figures I saw were 90 to 96 percent of normal, and you have 
just testified that we've got 115 percent of normal for this 
point in the season.
    Mr. Snow. Normal precipitation to this point: Precipitation 
and runoff. When you have drought, you have a drier watershed, 
your precipitation percentage does not result in the same level 
of runoff because of a dry watershed.
    So for the last three years we have had a slightly higher 
precipitation from a percentage of normal than runoff, because 
the watershed takes up so much of the water. So in a year like 
this, if we ended up with normal precipitation, it would be 
slightly below normal runoff.
    Mr. McClintock. My point is in far more severe droughts 
than the one that we have experienced over these past three 
years, we have made far greater water deliveries to the San 
Joaquin Valley, the difference being we weren't dumping all of 
that water into the Pacific Ocean, the way we are today.
    Mr. Snow. There's two things that are responsible for where 
we are right now. One, there is a fundamental shift in the 
weather patterns, and so we have drought that is providing 
water in a different pattern, but we have--and I think this is, 
obviously, your point--much more strict regulatory standards 
that we have to meet in terms of when we can pump water.
    Mrs. Napolitano. Thank you. Mr. Costa.
    Mr. Costa. Thank you very much, Madam Chairwoman. On that 
point, on the restrictions, Mr. Snow, give me your take on it 
as the person who ran the state water project. Last year, it 
was my understanding, even with the constraints of the 
Biological Opinion, and it gets into a complicated mathematical 
formula, that the 10 percent allocation that was left available 
while other regions for 100 percent, could have been as much as 
30 percent allocation and still been with the Biological 
framework. Is that your view?
    Mr. Snow. I am not sure I followed that.
    Mr. Costa. The allocation to the San Luis Unit, by the x2 
factor in terms of how much water could be made available and 
still be within the framework of the Biological Opinion on 
smelt, that additional water could have been made available 
last year. Do you support that view?
    Mr. Snow. Not within the restrictions, no.
    Mr. Costa. You don't? Because some estimates are as much as 
if they had been using the criteria, that additional water 
could have been provided. Let us move on then.
    As it relates to the issue of the other stress factors 
involving the Delta, 120,000 gallons of ammonia by tertiary 
treatments in Sacramento and Stockton, 2000 pumps that have 
riparian lights to water that are unscreened and sometimes pump 
as much water as is exported, the quadrupling of the population 
at Pittsburgh, the Antioch, Lodi, all those areas that have 
runoff of the streets and fertilize their lawn and garden, all 
of those impacts, including predatory species that are non-
native, why are they not taken into account in terms of how we 
manage the two water projects?
    Mr. Snow. Well, one of the--I would call it--limitations of 
the Endangered Species Act is that it has to focus on the 
permit that is in front of them, and so one of the problems 
that we have is, despite the fact we might say that our 
diversions are not as significant--are not the sole cause of 
the problem, it doesn't help that we point out that it may be 
the discharges that is a bigger problem than the pumps. We are 
still regulated on that.
    Mr. Costa. So you are saying that the other factors cause 
stress?
    Mr. Snow. Absolutely, and that is----
    Mr. Costa. The refineries, the discharges?
    Mr. Snow. That is the reason we have attempted to move from 
a fairly narrow Section 7 type of permit to a habitat 
conservation plan that allows you to look at those other 
stresses.
    Mr. Costa. Well, sooner rather than later, Mr. Snow. It is 
unfair that we put the entire burden of the fishery and the 
water quality on certain regions of California, when we don't 
impact the water supply, for example, in the City and County of 
San Francisco that normally would provide water that would go 
through the Delta.
    Mr. Connor, are you familiar with ``Listen to the River?''
    Mr. Connor. Of the CVPIA?
    Mr. Costa. Yes, the report that was done in 2008 by the 
Department of the Interior.
    Mr. Connor. Yes, sir.
    Mr. Costa. And to your knowledge, has the Department and 
the Bureau implemented any of these recommendations?
    Mr. Connor. Well, we are certainly looking at a number of 
the recommendations right now, particularly the notion that we 
have to have a more integrated approach to managing some of the 
environmental issues, the fisheries issues, etcetera.
    Mr. Costa. Well, it is unfortunate that we have to have the 
second round with the National Academy of Science, because they 
clearly indicated here the problems that exist within the 
efforts to implement CVPIA 16 years after it was implemented. 
This is 2008. It said problems of determining how salmon and 
steelhead may benefit from the management actions and search 
for solutions aren't peculiar to the Central Valley. The 
Pacific Northwest and elsewhere have also learned that the 
complex life cycle of these fish and of the range are poorly 
understood. The potential environmental concern includes that 
these fish make it almost nearly impossible to assign the 
casualty to specified protection or mitigation action.
    Then it goes on to talk about the other information, the 
lack of trustworthy population estimates. It goes on to the 
inability to separate the effects of both natural and 
anthropodic confounding influences. It talks about the minimum 
CVPIA monitoring and evaluation, precisely the questions that 
you are trying to derive. It talks about few qualitatively 
rigorous evaluations in your program. It talks about a more 
formal assessment hypothesis is required.
    It goes on and talks about the problems with monitoring and 
evaluation. To our knowledge, no integrated database or 
management system exists to how to manage environment in 
biological and monitoring opinions.
    Mr. Connor. I agree with you.
    Mrs. Napolitano. I would like to point out, that was under 
the prior administration.
    Mr. Costa. Oh, no, no, no. They have had a chance. There is 
no response to this.
    Mr. Connor. The response is that we have----
    Mrs. Napolitano. Can we please move on? I would like to 
move on. Your time is up.
    Voice. We need to have it.
    Mrs. Napolitano. You can have a copy of it from them. OK? 
Please, we need to move on. I think all of us need to be able 
to be part of the solution, not the problem. One of the things 
that the state assemblywoman--we didn't ask any questions of 
you, and I don't want you to go away feeling neglected. Does 
the state have a Plan B, if the water bond does not pass?
    Ms. Caballero. Well, with all due respect, Madam Chair, I 
think part of the challenge is that that water bond discussion 
was really a negotiation that took a great amount of time. If 
you are asking me, if it doesn't pass, will we be back at it, 
looking at another alternative, absolutely. There is no 
question, we need to invest in our infrastructure, and we will 
do whatever we need to do.
    The real key about that bond is that it provides the 
opportunity to do the conservation we have been talking about, 
to do the reclamation projects that we have been talking about, 
to recycle water, to be able to really build the infrastructure 
to be able to take water from one side of the Valley to the 
other side of the Valley, to do the inter-connectivity.
    Mrs. Napolitano. I understand.
    Ms. Caballero. Without that, we are going to be stuck with 
a system that continues to service----
    Mrs. Napolitano. Thank you. I just wanted to introduce 
that. I need to let Mr. Calvert have his comments, but I want 
to be sure that I thank the state for finally getting involved, 
because I have heard from a lot of my water agencies that they 
are totally dependent on other solutions instead of form the 
state, and I think the state finally stepped up to the plate. 
Mr. Calvert?
    Mr. Calvert. Thank you. Thank you, Madam Chairwoman. by the 
way, we can't blame the last three years of drought on the last 
eight years' problems, in spite of the politics here.
    Voice. That is right.
    Mrs. Napolitano. One more outbreak, and you are out.
    Mr. Calvert. And the purpose of the political comment--you 
owe one minute to Mr. Costa to get an answer to his question.
    Mr. Costa. Thank you very much, my colleague. Mr. Connor, 
could you respond, because this is very troubling in terms of 
what has or has not happened as a result of this.
    Mr. Connor. I agree, it is troubling. I think there is a 
lot of work in implementing the provisions of the CVPIA as they 
were originally intended, and had they been implemented in that 
way with coordinated monitoring, understanding the fisheries' 
needs better, diversifying refuge supplies, that may, in fact, 
have alleviated some of the situation that exists today.
    So a lot of the things that you have mentioned are part of 
the interim Federal work plan, and we understand that we need 
more aggressive implementation actions.
    Mr. Costa. Well, let me just make one final comment here, 
because it is critical to this whole report. It says, to 
increase the probability of success, the agencies need to 
redesign and implement an integrated program to improve the 
status of the Central Valley Project Improvement Act, and I 
don't know that you are doing that.
    Mr. Connor. I think that is the whole point of the Federal 
work plan, the coordination that we are doing amongst several 
agencies and the aggressive science action that we have and the 
resources we are trying to apply.
    Mr. Costa. Thank you.
    Mrs. Napolitano. Does that include the state participation? 
I will give you extra time. Does that include state 
participation, Ms. Caballero? Mr. Snow?
    Mr. Snow. Of course. We have been working very closely on 
this, and expect to have a joint Federal Work Program, but 
fixing the Delta cannot be done, either by the Feds or the 
state alone. We both have to be working on it, and the same 
with building storage.
    Mrs. Napolitano. Would you be kind enough to allow the 
general public to understand what programs you are working on 
to help them, because apparently, a lot of people don't know 
that you are working to be able to find the solutions, and they 
are getting very upset. They feel the Federal Government nor 
the state is acting toward helping them out during this crisis, 
and I don't know what all you are going to do. But you need to 
tell them. All these agencies that are working to be able to 
reach consensus to move ahead, and not just talk about it, but 
formulate that action, and then put it into play. I am sorry. 
Mr. Calvert.
    Mr. Calvert. Thank you, Madam Chairwoman. Mr. Snow, 
obviously, you are very familiar with what is going on in the 
Central Valley and the impact that it has with the farming 
community. If this goes on another year because of the stress 
on the permanent crops in that area, will a significant amount 
of that production go out permanently?
    Mr. Snow. Well, I think, in talking with a lot of the 
members of the agricultural community, that is exactly what is 
happening.
    Mr. Calvert. So saying that, I met with Mr. Hayes, I think, 
a year ago, and we were talking about the Two Gates and the 
necessity of immediately putting the permitting on Two Gates 
where we could build it and, hopefully, had it built by now; 
because, as I understand it, Dennis Majors was ready to build 
that project on site and rapidly get it going. But as I 
understand it, the Administration has indefinitely delayed the 
Two Gates project. As I understand it, there is a letter from 
the San Luis Delta-Mendota Water Authority that accuses the 
Administration, and Mr. Connor maybe can answer this, of a 
scientific double standard, and apparently indefinitely 
delaying this project, which was some way to help mitigate this 
smelt issue and to get some additional pumping going on.
    Are you aware of this letter? Are you aware of that issue, 
and why the Two Gates Project is not being able to be 
permitted?
    Mr. Connor. Yes, sir, I am well aware of that letter and 
well aware of all the actions that have been taken with respect 
to Two Gates. Two Gates has been a priority from a permitting 
standard, absolutely. We have spent hours and hours trying to 
move forward----
    Mr. Calvert. Well, reclaiming my time from the gentleman, 
if it is a priority, why hasn't it been done? Right now, we are 
running out of time. We are talking about this water bond. Even 
if it does pass, and there is a question whether it will pass, 
quite frankly, because of the cost and the political climate 
that we are in, none of these projects will be built for years. 
So we need to move on with some interim projects today in order 
to save the Central Valley.
    We just heard testimony from Mr. Snow saying that in 
another year, much of the production in the Central Valley will 
be permanently out. They are not going to replant those trees.
    Mrs. Napolitano. Would the gentleman yield for a moment?
    Mr. Calvert. Happy to.
    Mrs. Napolitano. There will be additional time. The 
question then leads to: We know that there are farmers losing 
their land, their crops, going bankrupt, fallowing the 
farmland. Mr. Connor, have we worked with USDA, with Commerce, 
with all the agencies, SBA, to be able to help these 
individuals stay in the industry until the times get better, 
until--as he is pointing out--those projects come on line to be 
able to do the water delivery. Are we doing that? Thanks.
    Mr. Calvert. Well, the problem there, Madam Chairwoman, is 
that the trees will be dead.
    Mr. Connor. Yes. The answer to your question, the Federal 
Work Plan identifies a range of actions, and I realize it is 
not popular to talk about the relief that we can provide 
financially, given the lack of water, but we do think it is 
appropriate, and we have worked closely with the Department of 
Agriculture who declared 57 or 58 counties a disaster last 
year. That made emergency loans available. That made other 
types of assistance available.
    I know that is not a substitute for water. I know people 
want water, and they want to produce products, but that is one 
interim step, as well as figuring out the right projects that 
we can do in the short term that will help yield the water.
    The fundamental problem with Two Gates, and I will be 
succinct, is not the bill reclamation, not the Fish and 
Wildlife Service, but the CALFED independent Science Panel 
found fundamental scientific flaws with the basis for the Two 
Gates Project which needed further investigation. That was one 
issue.
    The second issue, costs escalated from somewhere in the $20 
million range to $80 million, when all was said and done. That 
included some O&M costs. So the resources weren't immediately 
available for the project.
    Third, there were over 1400 comments in the environmental 
assessment projects expressing strong concerns about the Two 
Gates Project from the citizens of California, not from the 
Federal agencies, that need to be evaluated and looked at as 
part of our environmental complaint activity.
    Fourth, we did a design and did a construction view of Two 
Gates, and it raised nine significant issues about the 
technical foundation for the project. We have not shelved Two 
Gates. We are actively working on Two Gates, but those 
questions need to be answered to figure out if it is worth the 
investment of that kind of money and whether it really yields 
additional water.
    In the interim, we are going to do projects like the 
Intertie, which we know is a good project, which we know has 
the capacity to generate additional water. We are going to move 
forward with conservation projects. We are going to diversify 
water supplies to refugees. Those, we know, will have some 
added benefit for the water supply for the Central Valley 
Project.
    Mr. Calvert. Madam Chairwoman, I have one question.
    Mrs. Napolitano. Last question.
    Mr. Calvert. During your opening testimony, you mentioned 
you are delivering 6,000 CFS a day into the Central Valley. If 
it wasn't for the biological opinion, the existing biological 
opinions, I should state, on the smelt and the salmon, what 
would be the delivery per day?
    Mr. Connor. That is an excellent question, and I don't have 
the exact answer.
    Mr. Calvert. Could you supply that answer for the Committee 
at some point?
    Mr. Connor. Yes. I will be candid. It is about 6,000 CFS, 
but I don't know the exact number, and we will provide that 
information as soon as possible.
    Mr. Calvert. Excuse me. Mr. Snow, do you know the answer to 
that question?
    Mr. Snow. I probably should say no instead of guessing. So 
we will follow up, but it is probably on the order of 10,000 
CFS, given the storms that we have had.
    Mr. Calvert. Thank you.
    Mrs. Napolitano. Thank you. I would like to reiterate to 
Commissioner Connor that this Committee sent a letter to you in 
regard to the question that Congressman Costa sent, and we 
still don't have an answer. I would really appreciate an answer 
to all this Committee. Thanks.
    Mr. Calvert. Madam Chair, may I follow up?
    Mrs. Napolitano. We are moving on. We have already spent 
over an hour and 20 minutes.
    Mr. Calvert. Well, you took quite a bit of liberties here. 
I would like----
    Mrs. Napolitano. I am the Chair.
    Mr. Calvert. I would like to extend----
    Mrs. Napolitano. We are moving on to the next panel. We 
will continue to work on the different issues together and look 
forward to a lot more cooperation.
    Mrs. Napolitano. I would like to bring Mr. Jeffrey 
Kightlinger, General Manager of Metropolitan Water District of 
Southern California, Los Angeles. Again, thank you, Met, for 
hosting us in this fine facility; Mr. Brian Brady, General 
Manager, Imperial Irrigation District, Imperial California; Ms. 
Maureen Stapleton, General Manager, San Diego County Water 
Authority in San Diego; and Mr. Dan Parks, Assistant General 
Manager of the Coachella Valley Water District in Coachella.
    Mr. Kightlinger, if you would be so kind, you have five 
minutes. Thank you, sir.

STATEMENT OF JEFFREY KIGHTLINGER, GENERAL MANAGER, METROPOLITAN 
             WATER DISTRICT OF SOUTHERN CALIFORNIA

    Mr. Kightlinger. Thank you very much, Madam Chair, Members 
of Congress. I really want to thank you for coming to Southern 
California and getting an urban Southern California perspective 
on the issues and the drought we are facing and, certainly, 
welcome you to Metropolitan and appreciate your use of our 
facilities here, and glad we could play host.
    I particularly want to thank the Chairwoman for all the 
tremendous work she has done and the support she has given for 
urban water over the years, and we appreciate this opportunity 
to speak here.
    This has been a very challenging time. Metropolitan does 
straddle the area of California in the sense that we get our 
water supply--our imported water supply for Southern California 
comes from both the Colorado River, as my friends here and our 
partners, as well as the State Water Project in Northern 
California. This has been a very challenging time in that we 
have been hit on both supplies.
    From 2000 to 2008, the Colorado River has gone through an 
unprecedented drought, and in 2003 when Secretary Gail Norton, 
Interior Secretary Gail Norton, cut back California from 5 
million acre-feet of deliveries to 4.4, that hit fell on 
Metropolitan. Our Colorado River aqueduct which holds 1.2 
million acre-feet and had been full for several decades was 
immediately cut in half to 600,000 acre-feet, and we had to 
make up those supplies elsewhere.
    Then, certainly, as you are well aware, in much of the 
testimony in the last committee and the last panel, our State 
Water Project supplies have been severely impacted. So we have 
been dealing with loss of supply both on the Colorado River 
side and the State Water Project side.
    Mrs. Napolitano. Excuse me just a second. Commissioner 
Connor, I would like for you to hear the testimony, please. 
Thank you. I am sorry. Go ahead.
    Mr. Kightlinger. Thank you, Madam Chair. In addition to the 
drought in California for the last three years and the drought 
on the Colorado River, we have had to deal with the legal 
rulings on the QSA as well as the restrictions, the fishery 
restrictions that Commissioner Connor talked about. These are 
the most restrictive fishery restrictions ever seen in the 
Endangered Species Act that have cost Metropolitan over half a 
million acre-feet of supplies that we would have received over 
the last two years. That is the equivalent to the hole that we 
currently have in our Diamond Valley Lake reservoir that we 
would have filled if we had been able to access our State Water 
Project supplies.
    So how have we survived these last couple of years here in 
Southern California? Two main areas: One is the Colorado River. 
Through good work and cooperation, after the passage of the 
QSA, after the enactment of that, as well as the Federal 
guidelines in 2007, we have managed to rebuild our Colorado 
River supply from 600,000 acre-feet in 2002 to over a million 
acre-feet last year, the first time we have passed the million 
acre-foot mark since 2002. So 2009 we delivered 1.1 million 
acre-feet of Colorado River water through cooperation with 
Nevada and Arizona as well as Imperial Irrigation District, 
Palo Verde Irrigation District and Coachella Valley Water 
District.
    That has been a tremendous success, and it really is a sign 
of cooperation among the Basin states and the partners on the 
river.
    The second main area we had to work on last year was 
conservation. Metropolitan, very reluctantly but had to do so--
we put out mandatory conservation for 19 million people in 
Southern California, and we implemented 10 percent mandatory 
cutback across the board, and the region responded with over 15 
percent as a region. So it was a real success. But where do we 
go from here? How do we solve these issues going forward?
    There are three main areas that we would like to focus on, 
working with our delegation, working with Congress, and working 
with this Administration. First is continued cooperation on the 
Colorado River. We continue to need that support of the three 
Basin states, the Lower Basin states, Arizona, Nevada, 
California, working together to ensure continued supplies 
throughout the Colorado River Basin, and we certainly 
appreciate your support of the Hoover Power bill, and we are 
going to need more legislation and more help on the river to 
continue the progress we have made.
    Second, on the State Water Project, it is absolutely 
essential we have a Delta fix implemented as expeditiously as 
possible to get ecosystem restoration and new conveyance across 
the Delta. These are absolutely critical, and we need to move 
this as quickly as we possibly can.
    Third and finally, we always appreciate the support for our 
recycling and our reclamation, our conservation programs. These 
are going to be absolutely critical as we diversify our water 
supply for Southern California, and enable California to 
continue to grow and prosper.
    With that, I will take any questions when the time is 
appropriate. Thank you.
    Mrs. Napolitano. Thank you, sir.
    [The prepared statement of Mr. Kightlinger follows:]

          Statement of Jeffrey Kightlinger, General Manager, 
           Metropolitan Water District of Southern California

    Chairwoman Napolitano:
    On behalf of the Metropolitan Water District of Southern 
California, thank you for convening this hearing to explore and address 
the water supply challenges facing this region and to share 
Metropolitan's action plan for addressing a worsening problem that 
threatens communities, businesses and farms throughout this state.
    Southern California has experienced its first year of region-wide 
mandatory conservation since 1991 because of Metropolitan's decision 
last year to reduce deliveries to its 26 member agencies in six 
counties.
    Metropolitan imports supplies from the Colorado River and from 
Northern California via the State Water Project. Three years of below-
average rainfall throughout the state, combined with new restrictions 
on State Water Project supplies because of the deterioration and 
collapse of the ecosystem in the Sacramento-San Joaquin Delta, has 
resulted in the need to reduce supplies for 19 million Southern 
Californians and for residents throughout the state.
    Because of aggressive efforts and outreach by Metropolitan and our 
member public agencies there is widespread awareness about California's 
water problems and our residents and businesses have risen to the 
challenge and significantly reduced their water use. For example, water 
use has been reduced in Southern California by over 15% throughout the 
region; some areas are even quite higher. But despite the welcome 
recent rains and the good effort on local conservation, the underlying 
crisis remains and will be readily apparent in the months and years 
ahead.
    Southern California like much of the state faces ongoing shortage 
or near-shortage conditions because of the problems in the Delta. 
Metropolitan's initial allocation of supplies from the State Water 
Project for the coming year is 5 percent of a full delivery. That is 
the lowest initial allocation in the history of the Project. We hope 
and anticipate this allocation to increase in the weeks ahead, but the 
question is: by how much? Metropolitan's board of directors is 
scheduled to discuss and make a decision at its meeting in April to 
determine the amount of water it can deliver to its member agencies 
this year. The recent rains did not wash away our water problems--or, 
the state's problems, and the possibility of continued shortage 
conditions is quite real.
    Many of us who have been following water issues for decades have 
been accustomed to a quick bounce-back in deliveries from the State 
Water Project when the drought cycle ends and the rains return. But 
this pattern will no longer hold true. New water supply restrictions 
because of deteriorating environmental conditions in the Delta will 
have their greatest impact in wet and average years. Metropolitan will 
lose the ability to capture as much as 600,000 acre-feet of water in 
above-average and wet years because of these restrictions. This is 
water that normally would replenish the groundwater basins in Los 
Angeles, the San Gabriel Valley and Orange County that desperately need 
replenishment. Some of these aquifers are at or near their lowest 
groundwater elevations in recorded history. That is unacceptable. As a 
region and a state, we must find a way to capture adequate supplies in 
wet years in order to withstand the inevitable dry cycles. The key to 
this solution lies in addressing the crisis in the Delta.
    In the short term, all water supply restrictions must be based on 
sound science, while every effort is made to find the means to ease 
these environmental restrictions without harming fish populations. 
Three years of reduced water deliveries from the State Water Project 
have not reversed the collapse of the ecosystem, a compelling sign that 
ecosystem restoration and a strategy to address other stressors is 
essential.
    For the longer term, the key to the Delta challenge relies in 
combining ecosystem improvements with water conveyance improvements. 
This strategy is now emerging through the state-federal effort known as 
the Bay Delta Conservation Plan. It is absolutely essential that the 
Interior Department stay on track and produce a draft environmental 
impact statement for the BDCP this year.
    For Metropolitan, it will be vital to maintain our ongoing efforts 
to maximize the available supplies from the Colorado River, which faces 
its own challenges as it recovers from record drought. The conservation 
ethic of our residents will have to continue now and into the future 
and we will have to look for new and innovative ways to treat, manage 
and increase the use of recycled water to ensure the most efficient use 
of our limited supplies. Title XVI projects will be pivotal in bridging 
the gap between the problems we have today and the implementation of a 
long-term Delta solution. Equally important is the acceptance that 
improving the quality and reliability of our water, from improving 
treatment to addressing the crisis in the Delta, comes at a cost that 
will result in higher rates. Even so, our supplies remain well under a 
penny a gallon for some of the highest quality water for any major 
metropolitan region on earth. We have major challenges ahead of us. But 
we do have ways to solve them. Thank you Chairwoman Napolitano for your 
continued leadership on water issues on behalf of this region.
                                 ______
                                 
    Mrs. Napolitano. Mr. Brian Brady, General Manager, Imperial 
Irrigation District.

    STATEMENT OF BRIAN J. BRADY, GENERAL MANAGER, IMPERIAL 
           IRRIGATION DISTRICT, IMPERIAL, CALIFORNIA

    Mr. Brady. Thank you, Madam Chair and members. There is a 
common misconception in the Imperial Valley that the Imperial 
Irrigation District is transferring conserved water to urban 
Southern California, because it isn't needed in the Valley and 
there is money to be made. In fact, IID is a party to the QSA, 
and water transfer is authorized for precisely the opposite 
reason, to protect the Imperial Valley's water rights that 
would otherwise be subject to legal challenge under the 
reasonable and beneficial consumptive use standard that applies 
to all Colorado River contractors.
    In other words, IID is voluntarily transferring conserved 
water as a means of preserving its historical rights and 
eliminating the threat of a forced taking of water from the 
Imperial Valley. Now without going into all the history, 
throughout the last six years IID's position has been the same. 
Water transfer agreements authorized by the QSA are far from 
perfect. I think we would all agree with that, but they are 
needed to afford the District and its water users both a 
revenue stream to pay for conservation and sufficient time to 
stave off any future legal challenge.
    I think, as we all know, the QSA is a product of decades of 
conflict resolution, compromise, consensus, and if we were 
allowed to unravel it, the result would be chaos. Some would 
say, why don't we start all over again. Our answer to that is 
that it is what would be walking away from as IID.
    Number one would be an annual cap of 3.1 million acre feed 
from the Colorado River and certain procedures where we can go 
over that cap for particular reasons; a revenue stream to fund 
needed system and on-farm water conservation improvements vital 
to protecting the Valley's water rights and forestalling future 
challenges on beneficial use; a nearly finalized habitat 
conservation and natural community conservation plan to 
mitigate not only the transfer's impact on the Salton Sea but 
also to the District's strain on agricultural field habitats, 
and also early start habit and air impacts, mitigation efforts 
that are already underway in the Salton Sea.
    It is this last point having to do with the Salton Sea that 
warrants careful consideration in the Valley. That is because 
the basis of Judge Candee's decision to invalidate the QSA, the 
joint powers authority with the science financial 
responsibility for the transfer's impact among participating 
water agencies in the State of California could stand as an 
impediment to any water sharing agreement going forward now or 
in the future.
    The existing agreement again, even though it has been ruled 
invalid, offers the most viable framework and the least risk to 
the district in reaching accord on the Salton Sea mitigation 
question. That doesn't mean we will necessarily succeed. It is 
only that we have the greatest chance of success with that.
    The promise for a better deal, as some would call for, must 
be measured against the prospect of no deal, and for this 
reason, above all others, abandoning the QSA and starting all 
over again just would be bad public policy, and more 
importantly to us, in a very parochial manner, bad for the 
Valley. Thank you very much.
    Mrs. Napolitano. Thank you, sir.
    [The prepared statement of Mr. Brady follows:]

             Statement of Brian J. Brady, General Manager, 
                      Imperial Irrigation District

    There is a common misperception in the Imperial Valley that the 
Imperial Irrigation District is transferring conserved water to urban 
Southern California because it isn't needed here and there is money to 
be made in sending it elsewhere.
    In fact, IID is a signatory to the Quantification Settlement 
Agreement and the water transfers it authorized for precisely the 
opposite reason: to protect the Imperial Valley's water rights that 
would otherwise be subject to legal challenge under the reasonable and 
beneficial consumptive use standard that applies to all Colorado River 
contractors. In other words, IID is voluntarily transferring conserved 
water as a means of preserving its historical rights and eliminating 
the threat of a forced taking of water from the Imperial Valley.
    The reason this myth of ``selling water'' has taken hold locally, I 
believe, is because the internal debate over the valley's water rights 
has been raging for so long that fatigue has set in and only a few 
people are still around who can recall the chain of events leading up 
to the 2003 signing of the agreement, which, in turn, set into motion 
the nation's largest agricultural-to-urban water transfer.
    The makeup of the IID Board of Directors, and of the Imperial 
Valley, has changed in the last six years, but the drought conditions 
that culminated in the decision to transfer up to 300,000 acre-feet of 
the area's water per year to the district's urban partners have, if 
anything, become more intractable since the QSA went into effect.
    IID is transferring water to the San Diego County Water Authority 
and the Coachella Valley Water District because of a ruling in 1982 by 
the State Water Resources Control Board that the district was failing 
to put its water to reasonable and beneficial use. IID has always 
maintained that its water use is as efficient as any district's in the 
West, but a determination was made that the costs of future legal 
fights were outweighed by the safety and certainty of a water transfer 
agreement that would pay for greater efficiency and shore up the 
district's exposure to reasonable and beneficial use challenges.
    In 1989, IID entered in to a water transfer agreement with the 
Metropolitan Water District of Southern California to perform system 
improvements that would conserve 105,000 acre-feet annually, a water-
sharing pact that remains in place today. Then, in 1995, the district 
began negotiations with the San Diego County Water Authority to 
conserve and transfer up to 200,000 acre-feet a year through a 
combination of system and on-farm water conservation measures that 
would create an economic stimulus in the Imperial Valley.
    Those talks produced a signed agreement in 1998, but its 
implementation was put on hold by a larger effort on the part of the 
federal government to quantify water use in the lower basin of the 
Colorado River and to bring California into conformity with its annual 
entitlement of 4.4 million acre-feet from the river. The purpose of 
this overarching Quantification Settlement Agreement was to resolve 
longstanding disputes between water agencies and arrive at a compromise 
among California, Arizona and Nevada that would, according to then-
Secretary of the Interior Gale Norton, ``usher in an era of limits'' on 
the Colorado River.
    But achieving ``peace on the river'' was easier to do in a 
proclamation than it turned out to be in practice. The next four years 
would be taken up with crafting agreements that would not only pass 
muster with the seven Western states that rely on the Colorado River 
but would also find support on the IID board. The linchpin of this 
agreement was always the water transfer between IID and San Diego, but 
the priority system among Colorado River contractors as well as the 
state's interest in addressing impacts caused by the transfer on the 
Salton Sea introduced two new aspects to the discussion.
    One was that the Coachella Valley Water District, which had 
subordinated its water right to that of the district's in 1934, 
threatened to block the transfer of water from going forward unless it 
could obtain additional water as part of any final agreement. The other 
was the Salton Sea, a troubled body of water that would be adversely 
impacted from any reduction in inflows caused by the water transfer. In 
both instances, an accommodation was made. The first was to allow CVWD 
into the transfer agreement for an additional 100,000 acre-feet a year; 
the second was to adopt fallowing as the sole means of generating water 
for the transfer during the first 15 years of the deal to mitigate its 
effects on the Salton Sea.
    Neither of these changes was well-received by IID or, for that 
matter, within the Imperial Valley, but it remained constructively 
engaged in the process because the alternative, the summary taking of a 
quantity of its water by the federal government for no compensation, 
was considered too great a risk for the district and its water users.
    And that is exactly what happened in January 2003, following a New 
Year's Eve vote to approve the QSA by the IID board that failed 3-2. 
Within a matter of days, the district saw its annual water order cut by 
327,000 acre-feet and only got it back by winning an injunction in U.S. 
District Court. But this victory was only temporary, as the Bureau of 
Reclamation was allowed to prepare its case for a part 417 
investigation into the reasonable and beneficial use of water in the 
Imperial Valley and there was no doubt that if IID did not find a way 
to re-engage in the QSA process it would be back in court, with no 
guarantee of a favorable outcome and an unspecified quantity of water 
hanging in the balance.
    This proved to be sufficient motivation for the board to try again, 
which it did on October 3, 2003, passing the landmark agreement by a 3-
2 vote that was as controversial then as it is today. IID went to court 
to validate the agreement, a legal process that would join all of the 
litigation that was bound to ensue, and the QSA coordinated cases were 
taken up before Judge Roland Candee in Sacramento Superior Court. In 
the meantime, water to meet the district's obligations to the urban 
water agencies and to mitigate the transfer's impacts on the Salton Sea 
would be produced primarily through fallowing.
    Throughout this six-year period, IID's position has been the same: 
the water transfer agreements authorized by the QSA are far from 
perfect but they are needed to afford the district and its water users 
both a revenue stream to pay for conservation and sufficient time to 
stave off any future legal challenge to its reasonable and beneficial 
consumptive use. The QSA is the product of decades of conflict 
resolution, compromise and consensus and if it is allowed to unravel, 
the result will be chaos. This isn't a scare tactic but a stark fact: 
remove the basic protections provided to IID under the QSA from hostile 
legal action by either the state or the federal government, and the 
vacuum created in its wake will become a vortex of legal uncertainty 
and political vulnerability.
    The public has a right to know--and to comprehend--why the IID, in 
light of Judge Candee's recent decision to invalidate the QSA over its 
perceived deficiency in parceling out responsibility for the mitigation 
of the transfer's effects on the Salton Sea, would seek a stay of this 
ruling and to appeal it so that the transfer of water can continue 
indefinitely. Why, our critics ask, hasn't the district just walked 
away from the QSA and announced to the world that it now wants a better 
and more lucrative water transfer agreement than the one found to be 
invalid by a state court?
    Perhaps the best way to understand it is to consider what IID would 
be walking away from:
    <bullet>  An annual cap of 3.1 million acre-feet from the Colorado 
River and an inadvertent overrun and payback policy that allows the 
district, under certain circumstances, to exceed that cap.
    <bullet>  A revenue stream to fund needed system and on-farm water 
conservation improvements vital to protecting the Imperial Valley's 
water rights and forestalling the possibility of future reasonable and 
beneficial consumptive use challenges.
    <bullet>  Nearly finalized habitat conservation and natural 
community conservation plans to mitigate not only the transfer's 
impacts on the Salton Sea but also to the district's drain and 
agricultural field forage habitats.
    <bullet>  Early-start habitat and air impacts mitigation efforts 
that are already under way at the Salton Sea and would cease to exist 
without the QSA in place.
    It is this last point having to do with the Salton Sea that 
warrants careful consideration in the Imperial Valley. That's because 
the basis of Judge Candee's decision to invalidate the QSA, the joint 
powers authority that assigns financial responsibility for the 
transfer's impacts among the participating water agencies and the state 
of California, could stand as an impediment to any water-sharing 
agreement going forward, now or in the future.
    The existing agreement, even though it has been ruled invalid, 
offers the most viable framework and least risk to the district in 
reaching accord on the Salton Sea mitigation question. That doesn't 
mean we will necessarily succeed, only that we have the greatest chance 
of success in pursuing, and attempting to fix, the plan that is already 
on the table.
    The promise of a better deal must be measured against the prospect 
of no deal. For this reason, above all others, abandoning the QSA and 
starting over again wouldn't just be bad public policy.
    It would be bad for the Imperial Valley.
                                 ______
                                 
    Mrs. Napolitano. We will move on to Ms. Maureen Stapleton, 
General Manager, San Diego County Water Authority in San Diego.

 STATEMENT OF MAUREEN A. STAPLETON, GENERAL MANAGER, SAN DIEGO 
                     COUNTY WATER AUTHORITY

    Ms. Stapleton. Good afternoon, Chairwoman and Members of 
Congress. The Water Authority provides imported water to San 
Diego County and our $170 billion economy and 3.1 million 
people. The Water Authority, like Metropolitan Water District, 
gets our water from both the Bay-Delta and the Colorado River.
    The Colorado River water is purchased both via Metropolitan 
Water District and through our water transfers with Imperial 
Irrigation District and Coachella through the canal linings. On 
the Sacramento-San Joaquin Bay-Delta, we purchase our supplies 
through Metropolitan Water District as well as some additional 
dry year supplies that we have gotten during this drought 
period.
    We feel like we have hit the perfect storm in many regards. 
You heard today about the drought, both on the Bay-Delta and on 
the Colorado River. If that was the only challenge we had to 
deal with, we would be able to handle it. Water districts plan 
for multi-year droughts. We have invested billions of dollars 
improving our water supply reliability and additional billions 
of dollars in water infrastructure improvements to address 
droughts on the river and in the Bay-Delta, but our drought 
challenges are really compounded by court decisions and 
regulatory actions.
    So that is why we talk about the perfect storm. It isn't 
just one issue that we are struggling with. It is multiple 
issues. On the Colorado River front, the recent decision by the 
Sacramento Superior Court Judge that invalidated dozens of 
agreements that comprised the Quantification Settlement 
Agreement has really added to the challenges for the Water 
Authority, for Imperial, Coachella and Metropolitan Water 
District.
    Our agencies are working cooperatively together with the 
State of California and the Federal Government to resolve this 
latest challenge, and we expect that we will do so. We need the 
Federal Government to assist and support in these efforts to 
ensure the continuity of the QSA.
    Adding to the perfect storm also is the climate change 
issue and the long-term impacts on precipitation and snow packs 
for our water agencies, and ultimately water reliability. It is 
clear that water planning in the 21st Century will look much 
different than water planning that we have historically done in 
previous decades.
    For the San Diego County Water Authority, really, what is 
important to us is implementing our region's fully diversified 
portfolio. Over the course of two decades, we have invested 
billions of dollars in highly reliable and long-term water 
supplies and billions of dollars in our water infrastructure 
improvements, including reservoirs and dams, pipelines, water 
treatment plants.
    I brought a slide today, and I don't know if it can go up. 
Nothing tells San Diego's story better than the graphic up on 
the screen. In the upper lefthand corner is a pie chart 
depicting the water supply portfolio in '91 where we were 95 
percent dependent on a single supplier, and only five percent 
of our supplies were local yield.
    You can see, by 2010 we have begun that diversification 
program through the QSA, through improved improvements in 
conservation, recycling, brackish groundwater recovery, and by 
2020 we will be adding ocean desalination. You can see that 
it's really an investment in our water supply and in our 
infrastructure that will ultimately bring water reliability to 
our region.
    I think Lester Snow said earlier, there is no silver bullet 
that will solve water supply reliability for California. It is 
going to be--someone said to me once it was really the silver 
buckshot. You need it all. You need all of the components to 
really make this happen.
    I would like to, in a final minute, really talk about the 
Federal Government and a critical partner that we need out of 
you in improving California's water supply reliability. 
Specifically, on the Bay-Delta, you need to support the 
completion of the Bay-Delta Conservation Plan and consider 
actions to help us implement that plan. In addition, you need 
to make sure that the co-equal goals of environment and water 
supply reliability are there and that one does not overshadow 
the other.
    Congress has also played an important role of improving our 
self-reliance through Title XVI, water recycling projects or 
groundwater recovery. That self-sufficiency is truly important. 
Then on climate change, we believe Congress should focus its 
Federal efforts on improving climate modeling, including 
regional downsizing, and we seek your assistance and your 
funding in achieving that as well. Thank you.
    Mrs. Napolitano. Thank you, Ms. Stapleton.
    [The prepared statement of Ms. Stapleton follows:]

          Statement of Maureen A. Stapleton, General Manager, 
                    San Diego County Water Authority

About the San Diego County Water Authority
    The San Diego County Water Authority is a public agency (special 
act district) that provides imported water supplies that amount to 
approximately 80% of all water used in San Diego County to support the 
region's $170 billion economy and 3.1 million people. The Water 
Authority is comprised of 24 member retail water providers--water 
districts and cities--and is governed by a 36-member board of 
directors.
    The Water Authority owns, operates and maintains one of 
California's largest regional water distribution systems, with more 
than 300 miles of large-diameter pipelines, pump stations, reservoirs, 
and water treatment facilities.
    The Water Authority imports water from two principal sources: 1) 
the Colorado River, via supplies purchased from the Metropolitan Water 
District of Southern California (MWD) and through long-term water 
conservation and transfer agreements with the Imperial Irrigation 
District; and 2) the Sacramento-San Joaquin Bay-Delta, through supplies 
purchased from MWD and additional short-term, dry-year water transfers 
from sellers located upstream of the Bay-Delta.

Colorado River Supply
 What is the Quantification Settlement Agreement (QSA) and how does its 
        implementation affect California's overall water supply?
    The Colorado River Quantification Settlement Agreement, signed in 
2003, along with 34 related agreements (collectively referred to as the 
QSA), settled more than seven decades of disputes over the use of 
Colorado River water within California. The QSA parties include the 
Imperial Irrigation District, Coachella Valley Water District, 
Metropolitan Water District of Southern California, San Diego County 
Water Authority, the State of California, the Federal Government, five 
Bands of Mission Indians, and other parties. The QSA quantifies 
California's entitlement to Colorado River water, provides mechanisms 
for transfer of conserved water, establishes obligations for funding 
and implementation of environmental mitigation and restoration 
programs, implements federal law providing for the lining of the All 
American and Coachella Canals, and settles various lawsuits and legal 
proceedings. The QSA permitted the implementation of the California 4.4 
Plan, in compliance with United States Supreme Court order, as well as 
an array of water conservation and transfer agreements that provide 
significant water supply certainty and reliability throughout Southern 
California. The QSA is critical to the State's water supply reliability 
and helps reduce pressures on the ecologically sensitive Sacramento-San 
Joaquin Bay-Delta. A reliable water supply from the Colorado River is 
vitally important for Southern California water agencies as they manage 
water supply shortages from drought and regulatory restrictions on 
pumping of water from the Bay-Delta.
    In 2010, the Quantification Settlement Agreement (QSA) and its 
water transfers and other programs are entering their seventh year of 
implementation. When the QSA is fully implemented, it will facilitate 
more than 765,000 acre-feet of transfer water annually to millions of 
Californians. Nearly half of all Californians receive at least a 
portion of their water supply from water transfers and other supply 
programs made possible by the QSA.
    Before the QSA was signed in 2003, disputes among the ``Seven 
States'' <SUP>1</SUP> over use of the Colorado River were commonplace. 
Because of its large share of Colorado River supplies, California was 
at the center of most of those disputes. By quantifying the entitlement 
of the Imperial Irrigation District (the largest user of Colorado River 
water), and the Coachella Valley Water District, and settling disputes 
among competing California users, the State of California and the 
United States, the QSA provided the basis for conserved water transfer 
program and provided all Colorado River users with greater certainty 
over their rights to, and reliability of Colorado River water.
---------------------------------------------------------------------------
    \1\ In the U.S., seven western states--Wyoming, Colorado, Utah, New 
Mexico, Nevada, Arizona and California--share water supplies from the 
Colorado River. Under a U.S.-Mexico treaty, the Republic of Mexico also 
receives supply from the Colorado River.
---------------------------------------------------------------------------
    The QSA implements the Colorado River Interim Surplus Guidelines 
approved in January 2001, and includes the Colorado River Water 
Delivery Agreement: Federal Quantification Settlement Agreement, 
providing a clear framework for management of California's deliveries 
of Colorado River water. It also paved the way for more recent and 
equally historic multi-state accords involving the Colorado River, 
including the agreements implementing the Record of Decision for the 
Colorado River Interim Guidelines for Lower Basin Shortages and the 
Coordinated Operation of Lake Powell and Lake Mead, adopted in December 
2007. The 2007 Interim Guidelines, amended and extended the 2001 
Interim Surplus Guidelines, and provides a framework for additional 
conservation, storage, and delivery of Colorado River water. The 
agreements adopted pursuant to the 2007 Interim Guidelines provide 
additional water for Nevada, Arizona, and California. Under these 
agreements, California agencies are entitled to store conserved water 
year in Lake Mead under the agreement's Intentionally Created Surplus 
provisions.

 What happens (i.e., what would be the water supply) if the QSA is not 
        implemented as negotiated?
    The certainty in water supply reliability that the QSA provides has 
been called into question by a recent ruling by the Sacramento Superior 
Court. Soon after the QSA was finalized in 2003, the Imperial 
Irrigation District filed a validation action <SUP>2</SUP> to obtain a 
judicial determination of the validity of its actions regarding 13 of 
the QSA agreements. The Coachella Valley Water District, Metropolitan 
Water District, San Diego County Water Authority, State of California, 
Vista Irrigation District, and City of Escondido joined the lawsuit in 
support of IID's validation effort. Individual land owners, the County 
of Imperial, and the Imperial County Air Pollution Control District 
opposed validation of the agreements. In addition, several parties 
filed separate lawsuits challenging various aspects of the QSA. The 
lawsuits, several of which have been dismissed by the court, were 
coordinated in a single proceeding in the Sacramento Superior Court. 
Superior Court Judge Roland Candee was assigned the case as the trial 
judge.
---------------------------------------------------------------------------
    \2\ A validation action is a special kind of lawsuit under which a 
government agency can proactively seek a court's determination--or 
validation--that its actions or contracts are consistent with 
California law.
---------------------------------------------------------------------------
    On December 10, 2009, Judge Candee issued a tentative ruling that 
found that the agreement creating the Quantification Settlement 
Agreement Joint Powers Authority (QSA JPA Agreement) violated a 
provision of the California Constitution governing financial 
obligations and appropriation of money by the State. On Jan. 14, 2010, 
Judge Candee issued a Statement of Decision affirming his tentative 
ruling and granting an initial 30-day stay from the date of the final 
ruling while the parties contemplate an appeal. Once Judge Candee 
issues a final judgment in the case, an appeal will be filed. Because 
Judge Candee found that 12 of the agreements were interdependent, he 
invalidated 11 other QSA agreements affecting long-term QSA transfers. 
As to the balance of the QSA agreements not before Judge Candee and 
already validated as a matter of law, Judge Candee ruled that they 
remained valid. In all, agreements that govern the conservation and 
transfer of more than 765,000 acre-feet annually may be affected by the 
ruling.

 The Colorado River Basin is also experiencing drought conditions. What 
        effects will continued drought conditions in the Colorado Basin 
        have on overall California water supplies?
    California's share of the Colorado River under shortage conditions 
is governed by the shortage guidelines that the Bureau of Reclamation 
implemented in December 2007 (Colorado River Interim Guidelines for 
Lower Basin Shortages and the Coordinated Operations for Lake Powell 
and Lake Mead). These guidelines detail the conditions under which 
water shortages are declared on the river, and the agencies that are 
responsible for absorbing the shortages. A shortage condition exists 
when the Secretary of Interior determines that insufficient water is 
available to satisfy the normal 7.5 million acre-feet (maf) of demand 
for the Lower Basin states (Arizona, California, and Nevada) 
<SUP>3</SUP> in a given calendar year. During a normal year, the Lower 
Basin states receive this water in the following proportion:
---------------------------------------------------------------------------
    \3\ The Upper Basin states are comprised of Wyoming, Colorado, Utah 
and New Mexico.
---------------------------------------------------------------------------
    <bullet>  Arizona: 2.8 maf
    <bullet>  California: 4.4 maf
    <bullet>  Nevada: 0.30 maf
    Under provisions of the shortage guidelines, Reclamation would 
declare varying levels of shortage that depend upon projected 
elevations of water in Lake Mead. The supplies to Arizona and Nevada 
would be progressively reduced under an increasingly severe shortage, 
but California would retain its 4.4 maf normal year apportionment. The 
following table shows how shortages would be implemented depending upon 
projected Lake Mead elevations. As of Jan. 11, 2010, the Lake Mead's 
elevation was 1,097 feet.

[GRAPHIC] [TIFF OMITTED] T4619.001

Groundwater Supply
    What role does groundwater play in overall water supply management 
and allocation? What is the status of groundwater supplies in Southern 
California? How can groundwater basins be recharged efficiently to 
maintain levels and minimize the impact of saltwater intrusion?
    San Diego County has very limited groundwater resources, but we are 
working to make the most of what we do have. While San Diego County 
does not have the large basins that exist in parts of Orange, Los 
Angeles, Riverside and San Bernardino counties, it does have 
groundwater capabilities in the sandy alluvial basins along some of the 
local rivers and streams.
    Most of the groundwater in the Water Authority's service area is 
brackish and many of the plans to use that water involve removing the 
salt through the use of desalination technology. Because of the 
advances in reverse osmosis membrane treatment and energy recovery 
technology, brackish groundwater recovery has become cost effective. 
Brackish groundwater and pumped groundwater currently meet 3% of our 
region's need for water. The Water Authority's member retail water 
agencies have plans to double that number to 6% by 2020 through 
brackish groundwater recovery and conjunctive use projects that would 
recharge a basin with local or imported water. Two of our member 
agencies--the Fallbrook Public Utilities District and Marine Corps Base 
Camp Pendleton--are working together on a conjunctive use project that 
will recharge a basin using local surface water runoff that will serve 
both Fallbrook and Camp Pendleton.
    Other local agencies are exploring the idea of recharging a 
groundwater basin with highly treated recycled water using the same 
technology used to desalt brackish groundwater and ocean water.
    While groundwater does not provide a very significant amount of 
supply to the region overall, for some retail water agencies it can be 
substantial and a key element of their overall water supply 
reliability. Two of our local retail agencies--the City of Oceanside 
and the Sweetwater Authority--operate brackish groundwater desalters 
that when fully expanded will make up 18% and 27% of their water supply 
by 2020.
    Other agencies are exploring brackish groundwater recovery, but one 
of the limitations on the size of these projects is balancing the 
extraction of water from the basin with impacts to vegetation and 
habitat that rely on the groundwater. Cost effective recharge 
opportunities to maintain water groundwater level are limited because 
of our geology and most of these projects operate on a safe yield 
basis.
    Although we don't have the local geology to develop large scale 
recharge projects in San Diego County, we still believe that 
groundwater is an important part of the region's water supply 
portfolio.
    As an alternative to local groundwater storage, having water in 
storage south of the Delta is a key strategy to lessen the impacts of 
reduced Delta exports and a strategy that the Water Authority has 
embraced. Our agency has entered into two 35-year agreements for 
groundwater banking south of the Delta in Kern and San Bernardino 
Counties. Those agreements will provide our region with 70,000 AF of 
storage capacity with guaranteed annual put and take capacity. This 
provides San Diego County with additional drought protection in times 
like these, as well as allowing us to have a place to store water in 
wetter years when imported supplies may be available.

Water Supply Forecasting
 What do you see a the cumulative effect of the decrease in snowpack in 
        the Sierra Nevada and the Rocky Mountains and what can be done 
        in the short term and long term to mediate the effects? What 
        tools are you using to forecast water supply demands?
    Scientists have established that the early signs of climate change 
are already being felt in California. We have seen increased average 
temperatures, changes in temperature extremes, reduction in snowpack in 
the Sierras and snowmelt occurring earlier.

Sierra Nevada
    The California Climate Adaptation Strategy issued in late 2009 
includes projections for 2050 of: a 2--5 degree F rise in temperature, 
a 12--35% reduction in precipitation, and a 12-18 inch sea level rise. 
This strategy further concludes that more precipitation will fall as 
rain. With increased rainfall and earlier runoff from snowmelt, the 
state will face increasing challenges of water storage for the dry 
season and protection from floodwaters during the wet season. Sea level 
rise may increase salt water intrusion into the Delta.

Colorado River
    IPCC Working Group II concludes that there will be a 10%-30% runoff 
reduction over some dry regions at mid-latitudes during the next 50 
years. Studies of the impacts of climate change on Colorado River 
streamflows have been going on for several decades, including 
statistical studies by U.S. Scientists from the 1980s and early 1990s, 
plus climate model studies from the last few years. These studies 
reflect a range of projections from a 5% reduction to a 45% reduction. 
Studies are currently under way to narrow the range of uncertainty of 
the reduction in flow on the Colorado River resulting from climate 
change.
    Water supply planning is facing new uncertainties that challenge 
the use of conventional planning methods. Supply planning has 
traditionally used historical data based on a set of predictable 
patterns, such as recorded weather and hydrologic time series, to 
determine and shape future projections. This has served water utilities 
well in the past; however planning methods will need to change with the 
introduction of new uncertainties such as climate change and the 
greater weather variability that comes with it. To better guide the 
incorporation of uncertainty information into its water supply 
planning, the Water Authority will utilize a decision assessment 
framework as part of its 2010 Urban Water Management Plan update.
    As a start to this process, the Water Authority is currently 
performing a water demand and supply mix vulnerability assessment. Once 
the vulnerabilities have been identified, the Water Authority will 
utilize a decision support planning method--``scenario planning''--
which develops a small but wide-ranging set of future scenarios to test 
and make planning decisions more robust. Common strategies, or ``No & 
Low Regrets'' strategies, will be identified that can address a wide 
range of uncertainties. These No & Low Regrets solutions are adaptive 
and flexible, and can ramp up or ramp down, depending on how the future 
scenarios progress.
    The Water Authority plans to revisit the scenario planning process 
every five years, as required under California law, to update its Urban 
Water Management Plan. The UWMP update will be the long-range planning 
assessment of the water supply mix reliability. As part of the shorter-
term planning process, the Water Authority will evaluate the water 
supply mix reliability on an annual basis in its Annual Water Supply 
Report. Through this annual assessment process, the No & Low Regrets 
strategies can be revisited and their implementation adjusted, if 
needed, should changes to the scenario outcomes occur.
    The end result is a more robust water supply mix with the highest 
level of reliability to respond to future uncertainties.

Near-Term and Long-Term Planning
    The San Diego County Water Authority and nine other large urban 
water agencies formed the Water Utility Climate Alliance (WUCA) 
dedicated to providing leadership and collaboration on climate change 
issues affecting drinking water utilities by improving research, 
developing adaptation strategies and creating mitigation approaches to 
reduce greenhouse gas emissions. A key priority of WUCA has been 
federally-supported climate research, this stems from our need to 
better understand the potential impacts of climate change on the water 
systems we manage. Recently WUCA released a white paper on the state of 
the science on climate modeling and downscaling and how these tools can 
be improved to meet our needs. We hope that this white paper will be a 
catalyst for a continued dialogue between water utilities, the climate 
modelers, the research community and federal agencies.
    A key finding of the paper is that for the next few years, 
significant uncertainties will remain at the scale and in the timeframe 
that utilities make decisions. In the meantime, water utilities will 
have substantial decisions to make with the potential for significant 
impacts. Although water utility planning is usually based on static 
climate projections and historical data, new approaches are needed to 
incorporate the wide range of climate projections into water utility 
planning.
    As a result of this need WUCA will release a second white paper at 
the end of the month to provide guidance to water utilities, which may 
be conducting vulnerability assessments and want to move forward with 
adaptation strategies. The report documents five decision support 
planning methods that utilities can use to assist in characterizing and 
comprehending multiple uncertainties while minimizing the risks 
associated with these decisions.
    Although the Water Authority and the members of the Water Utility 
Climate Alliance have made significant efforts to comprehend the 
impacts of climate change on water utilities, we encourage the federal 
government to:
    <bullet>  Focus on improving climate modeling, including regional 
downscaling, to better meet the needs of water utility managers
    <bullet>  Provide support for climate adaptation projects, 
including infrastructure enhancements for large urban water utilities, 
that may be needed to reduce the regional impacts of climate change.

Conservation, Water Reuse, and Water Reclamation
 What is the role of conservation, water recycling, and water 
        efficiency in meeting future demands? What lessons can we learn 
        from the city of Los Angeles cutting their water use by 17% in 
        five months?
    After the drought of the late 1980s and early 1990s, San Diego 
County learned the vitally important lesson of the consequences of 
overreliance on a single source of imported water. We emerged from that 
experience with a strategy to achieve greater reliability through 
development of a diversified water supply portfolio. Since 1991, the 
Water Authority and its 24 member agencies have been singularly focused 
on achieving diversification of both our imported and local water 
supplies. The following pie charts compare San Diego County's water 
supply portfolio in 1991, Fiscal Year 2010 and the projected supply mix 
in 2020.

[GRAPHIC] [TIFF OMITTED] T4619.002

    Conservation, water recycling and reuse and the development of 
ocean water desalination are critical elements to our diversification 
strategy and successfully achieving supply reliability.
    We have dedicated significant funds in the last 18 years to 
implement conservation and are an original signatory to the Memorandum 
of Understanding for Urban Water Conservation. Conservation programs 
and water efficiencies implemented since 1991 have reduced our service 
area's demand for water by 8% ``enough water to meet the total annual 
water needs of 100,000 households of four. When coupled with the water 
use restrictions and aggressive outreach put in place to address the 
current supply situation, San Diego County used the same amount of 
water in 2009 that we last used in 1996 although we have added 400,000 
people to our region.
    Our goals for conservation in the future remain ambitious and we 
believe we are well on our way to accomplishing the states goal of a 
20% reduction by 2020. We have had extensive dialogue with stakeholders 
through three regional Conservation Summits and the public and business 
community involvement that resulted. We are pioneering the use of water 
budgets to manage water use in the landscape and in creating a supply 
chain of water efficient landscape and a trained profession that 
knowledgeable in low water use plants and irrigation practices. San 
Diego County is home to a unique Water Conservation garden that 
provides the public an opportunity to see real world low water use 
landscape and how to do it. Managing demand through water use 
efficiency is an important part of our diversified portfolio, but we 
believe that supply reliability cannot be achieved by conservation 
alone. We cannot conserve water we don't have.
    Water Recycling and Seawater Desalination are key elements in our 
diversified supply portfolio. Recycled water is expected to meet at 
least 6% of San Diego County's need for water by 2020. There are 17 
active water recycling projects in the county for a variety of 
landscaping and industrial purposes. The Water Authority along with the 
Metropolitan Water District has provided financial incentives to almost 
all these recycling projects in order to make the projects more cost 
effective and price competitive with buying imported water. Because San 
Diego County does not have large industrial users of water or large 
groundwater basins to recharge reuse of recycled water is primarily 
limited to seasonal irrigation. This idles recycling plants during the 
wetter winter months. To better utilize these resources local agencies 
are exploring indirect potable reuse of highly treated recycled water 
through blending with surface water in reservoirs. If successful, 
reservoir augmentation could significantly increase the amount of 
recycling in San Diego County.
    Seawater desalination is considered by our Board to have one of the 
greatest potentials as a new supply for San Diego County. Because of 
our proximity to the ocean, the geological limitations I have discussed 
in my earlier testimony today, the Pacific Ocean represents a 
significant drought proof resource for our region that uses proven 
technology and can be developed cost effectively and in an 
environmentally responsible manner. Current plans to construct a 50 
million gallon per day seawater desalination plant in Carlsbad through 
a public-private partnership involving 9 of our local retail agencies 
will supply enough water to serve over 100,000 households in San Diego 
County. The Water Authority itself is engaged in studies to develop 
additional seawater desalination projects and is planning for that 
resource to make up 10% of our supply portfolio by 2030. We are working 
with Marine Corps Base Camp Pendleton on the siting of a plant on the 
Base that would provide the opportunity for future expansion up to 150 
million gallons per day and provide water to businesses and residents 
throughout the County. We are also exploring opportunities for 
desalination with Mexico as part of the effort to augment Colorado 
River supplies.
    As with any of the supplies in our diversified portfolio we do not 
believe there is a single solution and it is no different with seawater 
desalination. It is an important part of our future supply but it is by 
no means the only part or the most important part but it is a supply we 
believe should be developed and we are pursuing it along with 
conservation and water recycling.

Northern California Water Supply
 How are the water agencies in Southern California handling the reduced 
        water imports from Northern California? What actions are they 
        taking to make up for the reduced supply to meet their user 
        demands? What management actions are being taken to maintain 
        service to citizens?
    As a result of continuing dry conditions and regulatory 
restrictions that are limiting pumping to southern California, water 
agencies across the region have responded by implementing drought 
management actions that range from drawing on dry-year storage reserves 
to supplementing reduced supplies with water transfers from willing 
sellers in northern California to implementing voluntary and mandatory 
allocation and water use restrictions to reduce municipal and 
agricultural water demand.
    As an example of this response, the San Diego County Water 
Authority activated its Drought Management Plan in 2007 when the 
current dry conditions and pumping restrictions began to threaten water 
supplies. The Water Authority's Drought Management Plan, or DMP, 
includes a series of progressive measures to manage through shortage 
conditions, depending on severity. As conditions worsened in 2008 and 
2009, the Water Authority moved from a call for voluntary reductions in 
water use to our current allocation of water supplies, coupled with 
mandatory water use restrictions at the consumer level, now in place 
across most of our service area. The Water Authority also moved to 
supplement our supply with the purchase of dry-year transfer water from 
willing sellers in northern California. These supply and demand 
management actions sparked a tremendous consumer response to the 
region's water supply shortage. Since July, consumer demand is well 
below allocation targets and as much as 13 percent below 2008 levels 
and 17 percent below 2007 levels.

Role of Congress
 How can Congress assist in addressing demands for increased water 
        supplies that may help some users balance the needs of the at 
        risk species, the economy, and ecosystems in general?
    The federal government is a critical partner in improving 
California's water supply reliability and can play vital roles in a 
number of water supply issues, including resolving problems plaguing 
the Sacramento-San Joaquin Bay Delta, in its role as water master on 
the Colorado River, and through support of local water supply 
development, including promising new technologies.

Bay-Delta
    <bullet>  Support the completion of the Bay-Delta Conservation Plan 
and consider actions that help implement the plan.
    <bullet>  Ensure that federal regulatory actions and congressional 
oversight recognizes the truly co-equal goals of the environment and 
the economy.

Regional Self-Sufficiency
    <bullet>  Reduce dependency upon imported water supplies and 
improved regional self-sufficiency through development of new local 
water supplies, including reclamation, seawater and groundwater 
desalination, conservation and local storage.
    <bullet>  Increase funding for Title XVI Water Reclamation Programs 
and Conservation Programs.

Climate Change
    <bullet>  Focus federal efforts on improving climate modeling, 
including regional downscaling, to better meet the needs of water 
utility managers.
    <bullet>  Provide financial support for climate adaptation 
projects, including infrastructure enhancements for large urban water 
utilities, which may be needed to reduce the regional impacts of 
climate change.
                                 ______
                                 
    Mrs. Napolitano. We will move on to Mr. Dan Parks, 
Assistant General Manager, Coachella Valley Water District in 
Coachella.

 STATEMENT OF DAN PARKS, ASSISTANT GENERAL MANAGER, COACHELLA 
          VALLEY WATER DISTRICT, COACHELLA, CALIFORNIA

    Mr. Parks. Thank you, Madam Chairwoman. First, I want to 
thank the Committee for their interest in California's supply 
challenges and opportunities.
    Coachella County Water District is located in the desert 
between Palm Springs and the Salton Sea. We serve roughly a 
1,000 square mile territory. In the desert, let us not overlook 
the obvious. Every day is a drought. Thus, we rely on importing 
water from our supplies from the Colorado River and the State 
Water Project. We use those sources to recharge our groundwater 
basin and irrigate crops. All of our domestic water is pumped 
from our groundwater basin.
    Our economy consists of agriculture, the resort golf 
industry, and residential homebuilding. They all require a 
dependable supply of water. We have been successful with our 
history of managing water supplies. We manage that through 
conservation measures, core substitution projects such as using 
recycled water, and other nonpotable water supplies instead of 
pumping groundwater, and through our programs of recharging our 
groundwater basin.
    This last year, due to the drought and due to the failure 
of the Delta ecosystem, we only received 40 percent of our 
nearly 200,000 acre-feet of State Project entitlement. The 
estimate for this year, as you have heard earlier, is five 
percent. Without these supplies, we will overdraft our 
groundwater basin and run the long-term risks of impaired water 
quality, permanent loss of storage, and ground subsidence. 
Also, our local economy is at risk.
    Now, California's Legislature has passed a good foundation 
to restore the Delta and improve water supplies. However, to 
solve California's water crisis we must have improved 
conveyance across the Delta and water storage projects. These 
will be both extremely costly and take a decade or more to 
build. Unless California's water crisis is solved, California's 
economy will continue to suffer as, hopefully, the rest of this 
nation's economy improves. Of course, the economy is not 
hampered by water problems today, but they will be a limitation 
for California's future.
    I ask your support, as the others on the panel today have, 
to support our state and Federal water contractors as we move 
ahead with a Delta fix, and of course, we always look forward 
to opportunities where the Federal Government can participate 
as a partner. I thank you, and be glad to answer questions at 
the appropriate time.
    Mrs. Napolitano. Thank you, Mr. Parks.
    [The prepared statement of Mr. Parks follows:]

          Statement of Dan Parks, Assistant General Manager, 
                    Coachella Valley Water District

    My name is Dan Parks. I am assistant general manager of the 
Coachella Valley Water District (CVWD), Coachella, California. I am a 
registered civil engineer in the state of California and have an 
engineering degree from California State Polytechnic Institute in 
Pomona, California.
    The CVWD is a public agency serving 1,000 square miles in 
Riverside, Imperial and San Diego counties.
    CVWD's service area is somewhat unique. It lies within Southern 
California's desert with an average rainfall of a little over 3 inches. 
Many years have no measurable rain, yet in other years more than the 
annual average falls in one storm. Locally, every day is a drought in 
the desert.
    The State of California is experiencing a two-pronged drought. In 
regard to climate, we are feeling the effects of what many are 
predicting will be the most severe drought in recorded history. On the 
other hand, we are also affected by a regulatory drought that is 
severely limiting the amount of water available from the State Water 
Project.
    The Coachella Valley relies on imported water supplies from the 
Colorado River and State Water Project to recharge its groundwater 
basin. When water is available, it is stored in the ground water basin. 
When supplies are short, water is pumped from the groundwater basin to 
meet the needs of the area. Thus, the groundwater basin acts as a large 
storage reservoir. Groundwater in the Coachella Valley is cooperatively 
managed by the two agencies with State Water contracts, Desert Water 
Agency (DWA) and CVWD.
    Since the 1980's, CVWD, DWA and The Metropolitan Water District of 
Southern California (MWD) have participated in a conjunctive use 
program. In wet years, MWD stores its surplus water in Coachella 
Valley's groundwater basin. In dry years, MWD takes delivery of CVWD's 
and DWA's State Water supplies, and in exchange, CVWD and DWA pump MWD 
water stored in the groundwater basin. This program benefits all 
agencies by utilizing wet year supplies to meet dry year water demands.
    Over the years, we've increased our entitlement of imported water 
with the goal of recharging the same amount or more water than what is 
taken out of the aquifer each year. Legal entanglements surrounding the 
Sacramento Bay Delta have resulted in contractors only receiving 40 
percent of their allocation last year. Without sufficient groundwater 
replenishment, the Coachella Valley faces potential negative effects of 
overdraft, including subsidence, diminished water quality and 
permanently reduced storage space.
    We are fortunate to have multiple sources of water, including 
Colorado River. But the Colorado River Basin is also suffering from 
several years of drought. So far, we have been able to receive what 
water we need from that source, but Lake Powell, Lake Mead and other 
reservoirs on the river are very low.
    Last year, two significant water management projects were 
completed, a facility to recharge 40,000 acre-feet of groundwater per 
year and the other to supply 50,000 acre-feet of non-potable water to 
golf courses in-lieu of pumping groundwater. The combined cost of these 
projects is $115,000,000.
    In some areas of the state, various forms of rationing or use 
restrictions are in place. Groundwater storage has allowed CVWD to 
implement a softer program of conservation measures than other areas. 
Because the average Coachella Valley home uses 80 percent of its water 
outside, CVWD's conservation and outreach programs are targeted toward 
reducing outdoor water use. Our success is attributed to a combination 
of imposing a water-budget based rate structure, desert appropriate 
landscape regulations, and incentive programs to increase irrigation 
efficiency and eliminate water waste. The programs have resulted in 
reducing water use by more than 10 percent on a permanent basis. Long-
term reductions are expected to exceed 20 percent as customers make 
further changes in their landscape and irrigation systems.
    The ability to capture, transport and store water is of key 
importance to managing California's water supply. In the short run, a 
solution is needed to reduce the pumping restrictions in California's 
Sacramento--San Joaquin Delta. In the long run, additional water 
storage is needed. If climate change results in less snowpack as some 
predict, additional transport capacity and storage will be needed to 
capture rain fall rather than let it run to the ocean.
    In regard to Colorado River supplies, CVWD is a party to the 
Quantification Settlement Agreement (QSA). Signed in 2003, the QSA is a 
series of agreements between federal, state and local agencies which 
resolves disputes between California agencies created by the priority 
system of allocating water and resolves concerns of other western 
states and the United States Bureau of Reclamation over California 
using more than its amount of Colorado River water. A recent California 
court determined one sentence in one agreement violated a California 
Constitution provision and invalidated the QSA.
    Since 2003 much work has been done among western states to address 
managing the Colorado River during both surplus years and drought 
years. I believe we are in better position to minimize reductions in 
the Colorado River supply through those management programs. Relations 
between California agencies and the other western states are not the 
same as they were in 2003. I believe it is more likely that the parties 
to the QSA will rise to the challenge created by the courts decision 
and find a solution whereby the QSA is implemented as negotiated.
    One dilemma we face in addressing demands for increased water 
supplies is the inherent conflict between endangered species and the 
use of water to supply the public and its economy. It would be helpful 
if environmental laws balanced human needs with those of at risk 
species and the ecosystem.
    Thank you for the opportunity to comment on these matters.
                                 ______
                                 
    Mrs. Napolitano. We will begin the question and answer 
period.
    Mr. Kightlinger, can you tell me what the current average 
cost of a delivered acre-foot of water currently is?
    Mr. Kightlinger. On our power side, our average cost of 
delivery is basically driven by our power, and on the Colorado 
River it is in the $50 to $60, $70 an acre-foot.
    Mrs. Napolitano. How much?
    Mr. Kightlinger. It is between $50 and about $60 an acre-
foot on the Colorado River side, and higher on the State Water 
Project, $70 to $90 an acre-foot for power on the State Water 
Project.
    Mrs. Napolitano. And that is what you charge your 
customers?
    Mr. Kightlinger. No, that is just the cost of moving it. 
Our typical cost of an acre-foot of water right now, treated, 
is about $750 an acre-foot.
    Mrs. Napolitano. Thank you. How do you plan to implement 
the reductions of the water supply from both the Colorado and 
the Northern California to your 26-member water agencies?
    Mr. Kightlinger. We worked with our member agencies and put 
together a supply allocation plan where we looked at 
everybody's base use and tried to reduce that by 10 percent and 
accommodate certain areas that had losses of local supply due 
to impacted groundwater wells or pollution, and so we put 
together this plan, and we implemented it, and we are very 
pleased, as I noted earlier, that we called for a 10 percent 
reduction in use in calendar year 2009, and we have achieved 
over 15 percent to date.
    Mrs. Napolitano. Thank you. Ms. Stapleton, congratulations 
on your advances in all your reductions. It is very impressive. 
How do you plan to implement the reductions in the water supply 
from MWD and potentially the Colorado River on your customers?
    Ms. Stapleton. One of the things is communication with our 
region, not only through our retail water agencies but with the 
population at large. We have worked very closely with our 
businesses as well as our agricultural communities to do a 
couple of things. Number one is to keep them informed right up 
front of what is happening and what the potential implications 
can be.
    Number two is that we notified them of the allocation 
shortage and also opportunities in where they can receive 
financial assistance for conservation programs or installation 
of conservation measures, as well as what we have been able to 
achieve is focusing on outdoor landscaping has been extremely 
helpful. So we have actually obtained a higher than needed 
conservation over this last six months or so. We have been very 
pleased with our community response. They have really stepped 
up to the plate when we asked them.
    Mrs. Napolitano. But you have been engaged in many efforts?
    Ms. Stapleton. Yes.
    Mrs. Napolitano. Mr. Parks, how do you plan to implement 
the reductions in the water supplies from the Colorado and the 
Northern California for your farmers, and if you have any 
assistance programs to them?
    Mr. Parks. Our ag. supplies--we have been very fortunate to 
participate in the Bureau of Reclamation's 2020 program and 
have put out some demonstration incentive projects whereby our 
agricultural growers could use such technologies as high tech 
irrigation scheduling, moisture management, and soil management 
procedures to be much more efficient in their application of 
water. It has been a tremendous success, and we have shown 
proven savings with that.
    Mrs. Napolitano. Thank you. Mr. Brady, how would you 
implement the water delivery restrictions if the restrictions 
occur on the Colorado River, and what process would you do so 
to implement that?
    Mr. Brady. Well, Madam Chair, the essence of the QSA is 
that we transfer eventually up to 300,000 acre-feet to the 
urban areas by implementing on-farm and system conservation 
measures. The system measures are going to cost somewhere 
around $300 million. The on-farm, we will be paying farmers to 
implement drip and sprinkler systems and the like. Beyond that, 
if there are restrictions on the Colorado that take us below 
our allocation, we will most likely go to allocation per acre 
on farmed land, and the farmers--we intend to work with the 
farmers so that we can maintain, if possible, the same yields 
with, of course, less water.
    Mrs. Napolitano. I would suggest to all of you, stay for 
the scientific panel who is coming on afterwards, to listen to 
some of what they are saying about how we can help each other.
    What is your plan if the QSA decision does not change, any 
of you?
    Mr. Brady. Well, I would just say that we are not planning 
for the QSA, but we will continue to transfer water until we 
are told that it is illegal to do so.
    Ms. Stapleton. Madam Chair, I think from our standpoint, we 
believe, and it is where we are focusing our effort, is to 
actually address the provision which the Judge found to be 
unconstitutional, to go into that, look at it, specifically 
understand fully what the Judge's concerns were, work with the 
state and the Federal Government in identifying that, and 
correcting that problem. That is what we are working on, and we 
look forward to the Federal Government being a partner to 
ensure the continuity of the QSA.
    Mr. Parks. If I might add to that, how appropriate the 
title of today's hearing, challenges and opportunities. I 
believe this creates a challenge to which the parties to the 
QSA will rise to the opportunity to find a solution. It is very 
good and refreshing to hear both the Bureau and the state's 
comments today, that they, too, support the QSA as negotiated.
    Mrs. Napolitano. Let us just look for the action behind it. 
Mr. McClintock.
    Mr. McClintock. Thank you, Madam Chairwoman. Mr. 
Kightlinger, you indicated that wet or average water years will 
bring even more water supply restrictions to the Delta. At our 
mock hearing this morning in Fresno, we were told that up to 
10,000 acre-feet of additional water is now being diverted to 
the ocean per day as a result of the recent rainfall. What 
impact is this going to have on your water supply and 
groundwater replenishment?
    Mr. Kightlinger. It is a very significant impact. 
Metropolitan gets 50 percent of the State Water Project as our 
entitlement. For the last three years, we have not been able to 
deliver any water to our groundwater basins for replenishment, 
and those basins are at record low levels in the San Gabriel 
and the San Fernando Valley and Orange County. So they are 
hurting for replenishment water, and we have not been able to 
receive any replenishment water since those fishery 
restrictions have gone into play.
    Mr. McClintock. I want to focus on a bit of your testimony 
here where you said, ``Many of us who have been following water 
issues for decades have been accustomed to quick bounce-back in 
deliveries from the State Water Project when the drought cycle 
ends and the rains return. This pattern will no longer hold 
true. New water supply restrictions--new water supply 
restrictions because of deteriorating environmental conditions 
in the Delta will have their greatest impact in wet and average 
years. Metropolitan will lose the ability to capture as much as 
600,000 acre-feet of water in above-average and wet years 
because of these restrictions.''
    Now we just heard a great deal of fanfare over Title XVI 
projects. I believe that they were producing roughly 350,000 
acre-feet. These restrictions alone are going to cost 
Metropolitan alone 600,000 acre-feet. How do you square those 
two? On the one hand, we are spending phenomenal amounts of 
money, again up to $18,000 per acre-foot in capital costs on 
these Title XVI projects to produce roughly 350,000 acre-feet 
of water, while near-bureaucratic restrictions are costing you, 
just at Metropolitan alone, 600,000 acre-feet.
    Mr. Kightlinger. Yes. We believe we need a very diverse 
portfolio of water supply.
    Mr. McClintock. Do you think that is a sustainable policy, 
restrictions that are costing you 600,000 acre-feet of water?
    Mr. Kightlinger. Absolutely not. It is not sustainable. So 
that is why we must find a way to repair that Delta ecosystem 
and to build some new conveyances so that we can get back to 
more reliable State Water Project levels.
    Mr. McClintock. Well, we have been diverting these massive 
amounts of water, and the population of the Delta smelt 
continues to decline. Maybe that is just nature's way of 
telling us that is not the problem. You argue for a new 
conveyance across the Delta. I assume that is as peripheral 
canal to more efficiently move water from the north to the 
south but, at the same time, the administration in Sacramento, 
the State Water Resources Control Board appointed by the 
Governor, voted to take away the Federal development rights for 
the Auburn Dam.
    If we are not going to produce additional water in the 
northern region, what good is it going to do to improve our 
conveyance facilities? We have to have water to convey, and we 
have an Administration that is actually blocking the 
development of these projects; and by the way, the AB-32 
restrictions have a huge impact on future cement productions. 
You know, every ton of cement requires the production of a ton 
of carbon dioxide, and in case the rocket scientists in 
Sacramento haven't noticed, cement is a rather handy thing to 
have around if you are going to build a conveyance facility or 
a dam. Your comments?
    Mr. Kightlinger. Oh, our comment is just that we believe we 
have to do both. We are going to eventually need more storage 
in the state. We have been roughly a storage poor state, and 
that includes both groundwater and surface storage, and we have 
to have more conveyance, because right now we can't even move 
the water we have in storage.
    Mr. McClintock. Well, don't you think we ought to have more 
storage to go along with that more conveyance?
    Mr. Kightlinger. Absolutely.
    Mr. McClintock. Though you would disagree that the policies 
out of Sacramento that are impeding construction of the Auburn 
Dam and impeding our ability to produce cement economically are 
going to have a serious additional impact on our water needs?
    Mr. Kightlinger. I don't know about the Auburn Dam 
specifically, but I do know they have five specific new storage 
sites they are analyzing, and that is the process that we have 
to go through and, hopefully, choose one or two of those sites.
    Mr. McClintock. One final question. You mentioned the--and 
in fact, several witnesses have mentioned the effectiveness of 
water conservation in San Diego County. Ms. Stapleton said that 
San Diego County used the same amount of water in 2009 that was 
used in 1996, although they have added 200,000 people to the 
region.
    Well, the thing that jumps off the page at me in other 
claims like this is that in 2009 we were in a severe recession. 
In 1996 we had a booming economy. I wonder how much of the 
water conservation success is actual success and how much of it 
is directly related to the recession.
    Ms. Stapleton. I think there is a portion of it that is 
related to the recession, but we track gallons per capita per 
day very closely, and we have been able to make real progress 
in less water usage on a per capita basis. That is through the 
installation of a number of indoor fixtures, whether it be 
washing machines, dishwashers, shower heads and so forth, and 
then turf irrigation and the outdoor landscaping area.
    As I said, we see conservation as a piece of the solution, 
but certainly not the only solution. You cannot get enough 
water by just conserving. If you don't have the water 
initially, you can't conserve it. It doesn't make sense. It is 
a piece of the pie. It is not the entire solution.
    Mrs. Napolitano. Mr. Calvert.
    Mr. Calvert. Thank you, Madam Chairwoman. Mr. Kightlinger, 
even if the water bond issue passes in this next election, how 
long will it take to build those improvements?
    Mr. Kightlinger. We are looking at probably 2018 at the 
earliest, maybe 2020.
    Mr. Calvert. Saying that if those improvements, based upon 
your testimony, 2018, we must have an interim solution on the 
Bay-Delta. Is that correct?
    Mr. Kightlinger. Yes, sir.
    Mr. Calvert. Now you have been involved in coming up with 
ideas, along with people in the Central Valley, on how we can 
come up with an interim solution to allow us to mitigate for 
the Biological Opinion, and at the same time pump water, and 
part of that was the Two Gates project that was mentioned in 
earlier testimony. Isn't that correct?
    Mr. Kightlinger. Yes, sir.
    Mr. Calvert. What is your opinion why that temporary 
solution is unable to get the necessary permits to build in an 
immediate way?
    Mr. Kightlinger. Well, we see the Administration is very 
concerned with implementing it until they are convinced about 
the science behind it and the theory that the smelt will track 
with the turbidity, and the gates would help cut off the smelt 
and be able----
    Mr. Calvert. What is your opinion about that? People have 
been looking at this for some time. Experts that have a 
contrary point of view of the administration believe that this, 
at the same time, would resolve the issue of the smelt and, at 
the same time, allow for additional water flow. Do you share 
that belief?
    Mr. Kightlinger. No. We were one of the authors. We were 
one of the chief proponents of the Two Gate proposal. We have 
faith in the science.
    Mr. Calvert. So if this agreement is going to continue to 
be put off, and the Biological Opinion is going to continue to 
be followed, even if we end up with 120 percent snow melt at 
the end of the season and you are unable to pump water, and 
this goes on from year to year, what is going to happen in one 
or two years from now?
    Mr. Kightlinger. We are going to be in a world of hurt, 
and----
    Mr. Calvert. Applying that to the Quantification 
Settlement, we had a recent judicial opinion that we are aware 
of, what happens, God forbid, if the QSA comes unwound, along 
with the restrictions you have in the Bay-Delta? What happens? 
I guess that is the question that all of you could answer.
    Mr. Kightlinger. We will have a significant problem here at 
Metropolitan, if we are cut back on both our Colorado River 
supplies and the State Water Project supplies simultaneously.
    Mr. Calvert. And by the way, I was involved in negotiation 
of the Quantification Settlement Agreement. I know, and work 
with many of you on that. It wasn't an easy agreement to come 
by, and still somewhat controversial, I understand, in the 
Imperial Irrigation District and other areas, but I will ask 
the gentleman who is the General Manager: Has production in the 
Imperial Irrigation area, agricultural production, been 
affected by the Quantification Agreement?
    Mr. Brady. I would say--and given that I have only been 
there 20 months, my institutional history is not that long, but 
I would say that it has not. Right now we are in an interim 
fallowing program, and we have worked within the constraints of 
the QSA.
    Mr. Calvert. So the conservation improvements that were 
designed to improve water conservation in the Imperial 
Irrigation District are working?
    Mr. Brady. Well, they are working. There are several parts 
to it. The initial ones are. We are planning for additional 
ones, yes.
    Mr. Calvert. If the Quantification Agreement came undone, 
would anybody there think that we could ever put this agreement 
back together again with dynamics for the Upper Basin states 
and the Lower Basin states, and what is going on locally in 
politics? Yes?
    Ms. Stapleton. I think the real issue is it is like pulling 
a thread on a sweater. There are so many components, not only 
in the Quantification Settlement Agreement but in the 
agreements with the other six Basin states that, in fact, it 
took over eight years to negotiate the QSA, and subsequent 
years to come up with the criteria on the Colorado River with 
the other Basin states, and so forth. To have that all swept 
away--I don't think you are talking about being able to achieve 
it again, certainly in the next decade.
    Mr. Calvert. Thank you. I am going to be leaving shortly, 
but I just wanted to make this point. If we don't resolve an 
interim solution soon in the Bay-Delta and sweep away this 
immediate threat on the QSA, we have no certainty on water 
supply in California, no certainty at all. As you know, under 
state law that can have a horrendous effect on issuance of both 
commercial and residential building permits if ever this 
economy ever turns around. So I just wanted to make that point, 
and I thank the Chairwoman, and I apologize. I have to head 
back out.
    Mrs. Napolitano. Thank you for your attendance. You have 
made some very good points. May I add that he was the Chairman 
when I was Ranking Member for a while. So he has a great deal 
of background, and was my mentor at one time. Thank you.
    Just to Mr. Kightlinger, are you in agreement with Title 
XVI programs and to your overall Metropolitan water portfolio, 
and while you are at it, I would like to know if there are any 
improvements that could be made in the infrastructure to yield 
more water, understanding that we are not--many water agencies 
I have talked to are not collecting enough money to be able to 
set aside for infrastructure repairs. The aging system in 
Southern California is horrendous, as in many other parts of 
the state.
    You see, the water mains now are bursting almost on a daily 
basis, which was not an occurrence that we faced years ago. All 
of that, how is that going to affect us being able to ensure 
the water quality, water delivery for our customers?
    Then to Ms. Stapleton, what is the current use of the 
gallons per day from your folks? I will wrap it all into one, 
because that is so important, the answers, for us.
    Mr. Kightlinger. I will start, Madam Chair, and thank you 
for your question. We have to continue to invest in our 
infrastructure in Southern California and continue to invest 
and reinvest. The Title XVI boost that Commissioner Connor 
spoke to was very helpful, that $160 million. They helped many 
of the recycling and reclamation projects in Southern 
California.
    Mrs. Napolitano. Well, that came from the leadership on our 
side. Thank you very much.
    Mr. Kightlinger. We understand. Thank you, and we 
appreciate the support. Metropolitan has invested to match that 
and go beyond, another $370 million into recycling and 
reclamation projects. The message we have delivered is the cost 
of water has to go up as the area continues to grow, as we have 
to find more and more water supply, we are raising rates, and 
we have to do that to continue to invest and not have our water 
supply crumble and break around us.
    Ms. Stapleton. Regarding the usage of water by our 
residents, we started out in those same years that I referred 
to probably nearly 200 gallons per person per day. We have 
dropped it now into the 160s, and it is continuing to drop. We 
really look at it carefully, and it is working in cooperation 
with our businesses and our residents. We believe that we are 
well on our way to achieving that 20 percent conservation by 
2020.
    Mrs. Napolitano. Thank you so very much. I will go into one 
more question.
    Mr. McClintock. Has anyone done a cost/benefit analysis on 
these various forms of water delivery? Mr. Kightlinger, you 
pointed out that residential rates, in particular, or water 
rates in general are going up dramatically as we look for more 
and more exotic ways of producing water, and yet we ignore 
surface water storage as the obvious unfulfilled promise of 
California's resources. So the question I have is: Have you 
looked at the costs and benefits of these various types of 
water production, from desalinization, to recycling, to local 
surface water, to increasing storage on the Sacramento?
    Everybody thinks that the Colorado is the mother of all 
water in the western United States. As you know, the Colorado 
River is a junior sister to the Sacramento. The difference is 
that we store 70 million acre-feet on the Colorado, and yet we 
store only 10 million acre-feet on the Sacramento. Your 
thoughts?
    Mr. Kightlinger. Those are all very good points. We do do 
cost effective analyses of all projects, and we look at that. 
We also have to look at which are the most reliable, and which 
supply water year in and year out, and how we can mix and match 
the best supplies. Certainly, we are storage-short in the State 
of California compared to the Colorado River.
    Mr. McClintock. Well, what is cheaper, surface water 
storage or recycling?
    Mr. Kightlinger. Surface water storage is very expensive. 
It is on a comparable basis with recycled water, but it also is 
very valuable. When you need it, it is always there for you and 
in large amounts.
    Mr. McClintock. Have you guys done a study on that? I would 
like to see some reliable figures where we can get a cost/
benefit analysis of each of the forms of water development.
    Mr. Kightlinger. We have done that, and we will provide 
your staff with that. Thank you.
    Mrs. Napolitano. Thank you, panel, and I invite you to stay 
with us for the next panel, and appreciate your travel and your 
time and your effort.
    I would like to call up Dr. Peter H. Gleick, President, 
Pacific Institute in Oakland; Professor Jay Famiglietti, Ph.D., 
with the Department of Earth System Science, University of 
California at Irvine; Mr. Miguel Luna, Executive Director of 
the Urban Semillas, ``seeds'' to those of you that don't 
understand Spanish, Los Angeles; Ms. Lucy Dunn, President and 
Chief Executive Officer of the Orange County Business Council 
in Irvine; Mr. Joe L. Del Bosque, Owner of Empresas Del Bosque 
Inc. in Los Banos; Mr. Larry Collins, Vice President, Pacific 
Coast Federation of Fishermen's Association in San Francisco.
    Audience, if you could take your conversations outside, 
thank you very much. We want to continue and be out of here on 
a timely basis. Dr. Gleick, I would like to start off with you.

         STATEMENT OF DR. PETER H. GLEICK, PRESIDENT, 
             PACIFIC INSTITUTE, OAKLAND, CALIFORNIA

    Dr. Gleick. Yes. Good afternoon, Madam Chairwoman, members 
of the Subcommittee. Thank you very much for having me here 
today. This has been quite an interesting hearing.
    I have submitted my written testimony. I am just going to 
summarize a few key points. Let me reiterate something that has 
already been said. I agree there is no silver bullet to 
California's water problems. We have many problems. There are 
many solutions. I think everyone involved in the state's water 
debates would acknowledge the need for diverse answers or a 
portfolio, as we sometimes say, of solutions, but the need to 
do many things does not mean we need to do everything or we can 
afford to do everything. We have to do the most effective 
things first, the most cost effective things first. This has 
already been mentioned.
    What I would like to do a little bit today is focus on 
opportunities, the good news, if you will. In particular, I am 
going to talk about two things very briefly. One is the 
potential for additional conservation and efficiency 
improvements statewide. The other is opportunities to rethink 
water supply statewide.
    In particular, there is vast untapped potential for 
reducing our demand for water without affecting the benefits 
that that water provides. Improving the efficiency of use of 
water is the fastest, the cheapest, the most environmentally 
sound option for meeting California's current and future needs.
    We have to change the way we think about supply. There are 
enormous opportunities for new supply in California, but I 
would argue that we ought to not be thinking about expensive, 
inefficient surface storage. As much as we ought to be thinking 
about smart surface storage and groundwater, we ought to be 
thinking about recycled and reclaimed water. We ought to be 
thinking about, where appropriate, desalination.
    It is important to realize that we don't want water. We 
want the services and the benefits that water provides. We want 
a healthy agricultural economy. We want clean clothes, and we 
want to be able to clean our dishes. We want to make semi-
conductors and the other things that are industrial processes 
produce, all of which require water, but all of which require 
less water than we are spending to do those things today. That 
is the definition of improving efficiency. We can do the things 
that we want with less water than we are spending to do them 
today.
    Californians have made enormous progress in this in the 
last 25 years. Our water use is relatively flat. Our population 
has grown. Our economy has grown. Our per capital water use has 
gone down. We have been able to meet a lot of our demands, in 
part by improving efficiency, and yet our current use of water 
is still wasteful. There is still enormous potential to improve 
efficiency.
    In a few weeks the Pacific Institute--it is my institute in 
Oakland; it is a nonprofit research institute--is going to 
release a new assessment, in part stimulated by a letter that 
the Chairwoman sent to the Department of the Interior last 
August requesting that we rethink a million acre-feet quickly. 
Where can we find a million acre-feet in the State of 
California relatively quickly?
    Our new assessment is going to look at the potential for 
conservation and efficiency to produce a million acre-feet 
quickly. We decided we would look at 60 percent agriculture, 40 
percent urban. We would look at only things that were cost 
effective, only things that used existing technology.
    The savings in the urban sector, 400,000 acre-feet, we 
estimate, would cost about $2 billion and produce about 400,000 
acre-feet of water, would save a lot of energy in the meantime.
    I would note Temperance Flat, the current dam that has been 
proposed on the San Joaquin, is estimated to cost well over 
$3.3 billion, would probably produce far under 200,000 acre-
feet of water, an example of the potential for conservation and 
efficiency to meet some of our demands.
    We find there are 600,000 acre-feet that could be saved 
pretty quickly in agriculture by applying additional smart 
irrigation technology, the things that farmers are already 
doing; regulated deficit irrigation on certain kind of acreage; 
and converting part of the Central Valley acreage that is not 
on drip and sprinklers to drip and sprinklers.
    Let me conclude. There are new ways of thinking about 
supply. We should be doing more reclaimed water and reuse of 
water. We should be doing smart desalination. We should be 
doing much more conjunctive use, much more storage of 
groundwater, the best place to store water in California. All 
of these things are part of what we need to do to meet 
California's growing demands, and perhaps provide some of this 
interim solution that we so desperately need, because of the 
long time frame required for some of the other things that we 
have already addressed today.
    I am going to stop there. I would be happy to answer any 
questions during the question and answer period. Thank you.
    Mrs. Napolitano. Thank you.
    [The prepared statement of Dr. Gleick follows:]

            Statement of Dr. Peter H. Gleick <SUP>1</SUP>, 
                   President of the Pacific Institute
---------------------------------------------------------------------------

    \1\ President, Pacific Institute, Oakland, California. Member, U.S. 
National Academy of Sciences. www.pacinst.org.
---------------------------------------------------------------------------

         The Critical Role of Water Efficiency and Conservation
                 in Solving California's Water Problems

    Honorable Representatives, distinguished guests: Thank you for 
inviting me to discuss the key role that water efficiency and 
conservation has and will play in solving California's water problems. 
Notwithstanding the recent winter rains the state has received, 
California continues to face serious unresolved water challenges. 
Current proposals for meeting those challenges are inadequate and 
largely misdirected. But effective solutions are available.

Summary
    Water is vital to the health of our economy and natural ecosystems. 
California's cities and agricultural communities rely on reliable 
supplies of clean and adequate fresh water. As California's population 
and economy grow, there is mounting concern about our ability to meet 
future water demand amidst pressure on our complex water systems. In 
the 20th century, our approach to meeting this demand has been to 
develop new supply. While this approach has brought tremendous benefits 
to this state, we have reached the limits of traditional supply options 
and continuing to rely on building new infrastructure will fail to 
solve our crisis. A broader and more integrated approach is needed.
    There is no ``silver bullet'' solution to California's water 
problems, and everyone involved in state water debates will acknowledge 
the need for diverse answers or a ``portfolio'' of solutions. But the 
need to do many things does not mean we must do, or can afford to do, 
everything. We must do the most effective things first.
    In particular, there is vast untapped potential for reducing our 
demand for water without affecting the benefits that water provides. 
Improving the efficiency of our water use is the cheapest, easiest, 
fastest, and least destructive way to meet California's current and 
future water supply needs. Indeed, without past efforts to improve 
water-use efficiency, our current crisis would be much worse. And we 
must expand our thinking about supply, away from costly and ineffective 
new dams and toward the other excellent options for expanding supply.
My testimony today will address three issues:
    1.  The flaws of our traditional methods of water planning;
    2.  The massive untapped potential for improving water-use 
efficiency. Specifically, I will address the potential to quickly 
reduce demands in California by one million acre-feet at a cost far 
below that of any new supply option that has been proposed.
    3.  The potential for expanding water supplies through non-
traditional approaches of water recycling and reuse, smart 
desalination, rainwater harvesting, and better conjunctive use of 
California's surface and groundwater.
1. Traditional Water Planning Assumptions are Incorrect
    Traditional water planning is based on two premises. First, it 
assumes that as populations and the economy grow, water use must also 
grow. Second, it assumes that in order to meet growing demand, new dams 
must be built, new groundwater aquifers tapped, and new supplies 
brought from farther and farther away. This is what most of you 
believe; it is what most of the public believes; it is what most water 
managers believe.
Both of these assumptions are false.
    Figure 1 shows California's gross state product, population, and 
water use between 1975 and 2001. Total water use in California was less 
in 2001 than it was in 1975, yet population increased by 60% and gross 
state product increased 2.5 times.
    The same trend is true for the United States as a whole. The latest 
information from the U.S. Geological Survey shows that total water use 
in 2005 for the United States is now lower than it was in 1975. Figure 
2 shows total U.S. water withdrawals from 1900 to 2005 along with Gross 
National Product. Per-capita water use has dropped even more 
dramatically over the past three decades. This suggests that we can and 
in fact we have broken the link between water use, population, and 
economic growth. This has been achieved in large part by improvements 
in conservation and efficiency. Figure 3 shows the ``economic 
productivity'' of water use in the United States over the past century. 
Improvements in efficiency of water use now permit us to produce nearly 
three times as many dollars of goods and services per gallon of water 
as just a few decades ago.
    Absent a discussion about population policy, our goal in California 
must be to continue these trends toward higher economic productivity of 
water and decreasing per-capita water use.
2. Conservation and Efficiency Are the Most Important Options
    It is important to realize that we do not want water; we want water 
services. We want to grow food and fiber, clean our clothes and dishes, 
get rid of our wastes, produce semiconductors and other goods and 
services. This realization lies at the heart of conservation and 
efficiency. If we can continue to provide these goods and services with 
less water, we have increased the efficiency of our water use.
    Californians have improved efficiency of our water use over the 
past 25 years as shown in Figure 1. But our current water use is still 
wasteful. The Pacific Institute has completed a series of independent 
reports on urban and agricultural water efficiency that provide a 
comprehensive statewide analysis. <SUP>2</SUP> Our findings have been 
adopted by the California Department of Water Resources in the 
California Water Plan. These studies finds that existing, cost-
effective technologies and policies can readily reduce current state 
demand for water by six to eight million acre-feet, or around 20 
percent. The Governor's recent call for a 20 percent reduction in water 
use by 2020 is thus based on sound science and economics, even if the 
policies to achieve such savings are not yet in place.
---------------------------------------------------------------------------
    \2\ See: Gleick et al. 2003, ``Waste Not, Want Not: The Potential 
for Urban Water Conservation in California'' and Cooley et al. 
``Sustaining California Agriculture in an Uncertain Future.'' Pacific 
Institute, Oakland, California.
---------------------------------------------------------------------------
    Widespread conservation and efficiency improvements are possible in 
every sector and these water savings can be found for much less than 
the cost of building new supply or expanding our current supply. These 
savings are real and represent a tremendous amount of untapped 
potential. Even today, after California's conservation efforts, over 
60% of all toilet flushes are well above national standards, suggesting 
that many old inefficient fixtures remain. More than 65% of all crops 
in California are still grown with inefficient flood or sprinkler 
irrigation systems. Studies have shown that installing efficient 
irrigation technologies, such as drip system, can reduce water use and 
increase agricultural yield. Given that the agricultural sector uses 
80% of California's water supply, or about 34 million acre-feet per 
year, even small efficiency improvements can produce tremendous water 
savings. Additional water savings are possible if farmers continue the 
trend of moving away from water-intensive crops like cotton, pasture, 
rice, and alfalfa in favor of more valuable low-water crops like 
vegetables, fruits, and nuts.
    In a few weeks, the Pacific Institute will release a new assessment 
of how to save one million acre-feet of water, split 60/40 among 
agricultural and urban users, quickly and cost effectively. Let me 
offer an advanced look at some of our findings:
    <bullet>  400,000 acre-feet of water can be quickly conserved by 
urban users by replacing only some of the many remaining inefficient 
toilets, showerheads, restaurant spray-rinse nozzles, washing machines. 
These savings would require an investment of under $2 billion and over 
the life of these fixtures, the energy, water, and wastewater savings 
will far exceed the initial investment.
    <bullet>  Another 600,000 acre-feet of water can be saved by 
applying smart irrigation scheduling to 20% of the state's vegetable 
and orchard acreage, practicing regulated deficit irrigation on 20% of 
current almonds and pistachios acreage in the Sacramento Valley, and 
converting 20% of Central Valley vegetables, and 10% of orchards and 
vineyards, to drip and sprinklers. These changes would save water at a 
cost of around $100 per acre-foot.
    These savings are just the tip of the iceberg: far more water could 
be saved at far less cost than any proposed new supply option. For 
example, the proposed Temperance Flat dam is grossly uneconomic and 
would, at a cost far exceeding $3 billion (or over $900 per acre-foot), 
only provide between 100,000 and 200,000 acre-feet of water, and even 
these figures are disputed.
    Our research has shown that California's total water use in 2030 
could be 20% below current levels while still satisfying a growing 
population, maintaining a healthy agricultural sector, and supporting a 
vibrant economy. Some of the water saved could be rededicated to 
agricultural production elsewhere in the state; support new urban and 
industrial activities and jobs; and restore California's stressed 
rivers, groundwater aquifers, and wetlands--including the Sacramento-
San Joaquin Delta.
    I note that water conservation and efficiency has the additional 
benefit of producing significant energy savings. Capturing, treating, 
transporting, and using water require a tremendous amount of energy. 
This is particularly true in Southern California, where water supplies 
and population centers are separated by hundreds of miles, requiring a 
tremendous amount of infrastructure to move water from where it is 
available to where it is needed. As a result, California's water-
related energy consumption accounts for roughly 19% of all electricity 
used in California, approximately 32% of all non-powerplant natural gas 
use, and 88 million gallons of diesel fuel. Thus improving statewide 
water conservation and efficiency can achieve substantial energy 
savings.
3. Additional Water Supply Options Are Available
    Current proposals to expand water supply in California by building 
a few new dams are seriously flawed. As mentioned above, the best ideas 
for new dams in California are grossly uneconomic and do nothing to 
solve the state's water problems. But there are other good water-supply 
options we must pursue. These options include:
    <bullet>  Water recycling and reuse: Water reclamation and reuse 
can augment water supplies, as well as provide a means to treat 
wastewater and reduce environmental discharges. Water agencies in 
California currently produce about 500,000 acre-feet of recycled water, 
the majority of which is used for agricultural and landscape 
irrigation. Expanding current efforts could produce a substantial 
amount of new water. For example, the Irvine Ranch Water District, in 
Southern California, meets nearly 20% of its total demand with recycled 
water. A new residential community in Ventura County, California is 
using recycled water for all of its landscaping needs at an estimated 
cost of $200 per acre-foot, far below the cost of new surface storage. 
Significant other opportunities exist to increase recycling and reuse 
throughout the state, effectively lessening the need to identify and 
develop new water supplies.
    <bullet>  Conjunctive use: Surface water and groundwater are 
hydrologically linked. Conjunctive use takes advantage of this 
connection by storing excess surface water, including stormwater, in 
groundwater basins for later use in drought periods. This option can 
improve supply reliability and flexibility, reduce land subsidence, and 
minimize the impacts of urban runoff on local steams and the marine 
environment. But it requires fundamental changes in the way we monitor 
and manage groundwater. It is time for the state of California to enter 
the 21st century and require comprehensive groundwater management.
    <bullet>  Desalination: Appropriately designed and sustainably 
managed desalination (both seawater and groundwater) can provide a 
costly but reliable, high-quality water supply. But desalination must 
be done in an environmentally sound manner, and without inappropriate 
public subsidies. Current plans for desalination in southern California 
do not yet meet these conditions.

Summary and Recommendations
    Better water conservation and efficiency can meet California's 
water needs for decades to come. Total state demands for water can drop 
by as much as 20 percent while still satisfying a growing population, 
maintaining a healthy agricultural sector, restoring the health of the 
Sacramento-San Joaquin Delta and other threatened ecosystems, and 
supporting a vibrant economy.
    Can such an efficient water future be achieved? Yes, given 
appropriate attention and effort, California's water-use practices can 
be substantially modified over the next quarter century, just as they 
have over the past 25 years. Implementing these efficiency measures 
requires action on the part of legislators, water managers, water 
districts and agencies, farmers, corporations, and all individuals.
    Finally, a quick comment on the recent political attempts to 
overturn or eliminate the requirement that the Federal government 
protect endangered and threatened species. Species extinction is not a 
sustainable water policy. And the collapsing ecosystem is not the cause 
of our water problems, it is a symptom. If the problem is falsely and 
ideologically defined as ``people versus fish,'' our water policy will 
have failed. We must ensure that both people and fish can thrive with 
the water we have.Gleick 3 charts go at end insert 3-5

[GRAPHIC] [TIFF OMITTED] T4619.003


[GRAPHIC] [TIFF OMITTED] T4619.004

[GRAPHIC] [TIFF OMITTED] T4619.005

                                 __
                                 
    Mrs. Napolitano. I would like to now call upon Professor 
Jay Famiglietti, Department of Earth Science.

 STATEMENT OF JAMES S. FAMIGLIETTI, DEPARTMENT OF EARTH SYSTEM 
SCIENCE, UNIVERSITY OF CALIFORNIA AT IRVINE, IRVINE, CALIFORNIA

    Dr. Famiglietti. The Central Valley offers a compelling 
example of the importance of groundwater to the water supply 
and of the need to manage its use for sustained availability 
and productivity. As one of the most productive agricultural 
regions in the world, the Central Valley relies heavily on 
groundwater to meet its irrigation water demands.
    The extended western U.S. drought and resulting changes in 
surface water allocations are now triggering an increased 
reliance on groundwater to meet those demands. Meanwhile, our 
warming climate is resulting in a decreasing snowpack in the 
Sierras and the Rockies, which will slow future rates of 
groundwater recharge and limit the aquifer's ability to 
replenish these additional water withdrawals.
    Monitoring groundwater availability in the Central Valley 
is, therefore, critical to help manage California's water 
crisis and its impact on the state's economy and the nation's 
food production. It is exceedingly difficult to observe the ups 
and downs of groundwater storage for a large system like the 
Central Valley aquifer using traditional ground based 
observations from wells. Fortunately, a new satellite mission, 
the Gravity Recovery and Climate Experiment, or GRACE, now 
enables routine groundwater monitoring from space. GRACE 
measures minute changes in earth's gravity field.
    Notice its time variable component. Because these changes 
are largely driven by changes in the distribution of liquid and 
solid water on our planet, we can use the gravity measurements 
to estimate the corresponding changes in water stored on land.
    GRACE has already been successfully applied to track 
monthly groundwater changes in several large aquifer systems 
around the world, providing a holistic picture of aquifer 
behavior that would not otherwise be possible. For example, 
last summer we published a study of rapid rates of groundwater 
depletion in northwestern India, an agricultural region like 
the Central Valley that is heavily dependent on groundwater for 
its irrigation demands. Could I have my slides, please?
    The next two slides summarize our recent work on the 
combined Sacramento and San Joaquin River Basins, including the 
snowpack in the western Sierras and the groundwater in the 
Central Valley. The upper left panel shows the GRACE estimate 
of the change in total water storage for the region; that is, 
all of the snow, surface water, soil moisture, and groundwater 
for the October 2003 through March 2009 time period.
    The drought conditions since 2005 are evident in the 
figure. During the entire study period, water storage in the 
Basins decreased by 31.3 cubic kilometers or roughly the volume 
of Lake Mead. Since GRACE measured the change in all the snow, 
surface water, soil moisture and groundwater together, we need 
to estimate and remove these first three in order to isolate 
what is happening with just the groundwater. These are shown on 
the other panels of the slide.
    Soil moisture, in the upper right, totaled 1.7 cubic 
kilometers. Reservoir storage at the lower left declined by 7.6 
cubic kilometers, while the snowpack losses at the lower right 
totaled another 1.7 cubic kilometers. Removing these from the 
total water storage change that we get from GRACE, the 
groundwater storage changes from the Central Valley, as shown 
in this slide. The table shows that during the study period 
groundwater storage decreased by over 20 cubic kilometers, or 
nearly two/thirds the volume of Lake Mead.
    As you know, California's water future is highly uncertain. 
Climate change may drive the Sierra snowpack close to zero by 
the end of the century, while our population will continue to 
grow. Unfortunately, the Colorado River Basin faces a similar 
plight, as shown in this last slide.
    I hope that my testimony convinces you that advanced 
technologies such as the GRACE mission can make an important 
contribution to the future of water management. If I have, then 
unfortunately, I have some bad news for you. GRACE will perform 
reliably for only another three to five years. Its follow-on, 
known as GRACE II, is not slated for launch until 2020.
    Assuming the usual delays, we can probably expect a gap of 
at least a decade in GRACE water storage data. If your 
Committee believes, as I do, that GRACE is invaluable in order 
to adapt water management to changing climate and human 
activities, then please do what you can in Congress to help 
increase the priority of the GRACE II mission. Thanks once 
again for the opportunity to testify.
    [The prepared statement of James Famiglietti follows:]

    Statement of Dr. James S. Famiglietti, Director, UC Center for 
 Hydrologic Modeling, Professor of Earth System Science, Professor of 
 Civil and Environmental Engineering, University of California, Irvine

    Chairwoman Napolitano, Ranking Member McClintock, and other members 
of the subcommittee: thank you for the opportunity to provide testimony 
on the state of our water supply and water supply monitoring in 
California, including groundwater resources.
    My name is James Famiglietti. I am a hydrologist and Professor on 
the faculty at the University of California, Irvine, with appointments 
in the Department of Earth System Science and the Department of Civil 
and Environmental Engineering. I am the Founding Director of the new UC 
Center for Hydrologic Modeling. My research group uses satellite remote 
sensing to track water availability on land, and has been working for 
many years towards improving hydrological prediction in regional and 
global weather and climate models. I am also the former Director of the 
UCI Institute of Geophysics and Planetary Physics and the past Chief 
Editor of the interdisciplinary Earth science journal Geophysical 
Research Letters. I am currently in the last year of a three-year term 
as Chair of the Board of Directors of CUAHSI, the Consortium of 
Universities for the Advancement of Hydrologic Sciences, Inc. It is on 
the strength of nearly 25 years of research, teaching and service to 
the water science and engineering community that I offer the following 
testimony.

INTRODUCTION
    Groundwater--the water stored beneath the land surface in 
aquifers--accounts for nearly 30 percent of global freshwater 
resources. Today, some 2 billion people rely on groundwater as a 
primary source of drinking water and for irrigated agriculture. 
However, in many regions of the world, groundwater resources are under 
stress due to a number of factors, including groundwater depletion 
(when withdrawal rates exceed recharge rates), salinization and 
contamination. When coupled with the pressures of changing climate and 
population growth, the stresses on groundwater supplies will only 
increase in the decades to come.
    In many regions in the United States, including the Ogallala 
Aquifer of the High Plains, the Colorado River Basin, California, and 
its Central Valley, groundwater plays an essential role in supporting 
agricultural activity, as well as in domestic and industrial use. In 
some regions in the U.S., groundwater provides the sole freshwater 
source, while in others, it is used to supplement surface water 
supplies, which can vary with swings in weather and climate. For 
example, until recently, the cities of Fresno and Visalia depended 
entirely upon groundwater for their domestic supply; and in my own 
hometown of Irvine, roughly 50 percent of the water supply is drawn 
from local aquifers beneath Orange County.
    Nearly 80 percent of the fresh water used in the United States is 
for agriculture (though more recent statistics on water use for power 
generation underscore the importance of that sector). In regions such 
as the Central Valley and the Ogallala, groundwater provides the 
majority of the irrigation water requirements. The Central Valley 
offers a compelling example of the importance of groundwater, as well 
as the need to manage its use for sustained availability and 
productivity. The Central Valley is one of the most productive 
agricultural regions in the world, producing more than 250 different 
crops worth $17 billion per year (2002 dollars), or 8 percent of the 
food produced in the U.S. by value; it accounts for 1/6 of irrigated 
land in the U.S.; and it supplies 1/5 of the demand for groundwater in 
the U.S. In short, it the second most pumped aquifer in the United 
States.
    The current water crisis in California places additional stress on 
Central Valley groundwater resources. Continued drought has resulted in 
decreasing surface water allocations to the southern valley, triggering 
an increased reliance on groundwater, in a region where groundwater 
dependence is already high. The crisis is being exacerbated by the 
ongoing drought, since less rainfall results in less groundwater 
recharge. Under these conditions, groundwater use rates exceed 
replenishment rates, and the groundwater supply and the water table 
drop. Likewise, climate change and its impact on the decreasing 
snowpack in the Sierras and the Rockies poses its own set of challenges 
to reliable water supply in California. Decreasing snow in the Sierras 
may well lead to additional reductions in Central Valley groundwater 
recharge, while the diminishing snowpack in the Colorado River basin 
may well result in decreasing surface and groundwater availability 
there. Hence monitoring groundwater availability in the Central Valley 
is critical to help manage California's water crisis, its impact on the 
state's economy and the Nation's food production
    Surprisingly, in spite of its importance to freshwater supply, 
groundwater resources are often poorly monitored, so that a consistent 
picture of its availability is difficult and sometimes impossible to 
construct. Typical groundwater monitoring relies on tracking water 
levels in a network of wells. However, existing monitoring wells are 
often sparse, measurement records are frequently discontinuous (Figure 
1), and wells are often monitored by different agencies, at different 
time intervals, and record lengths often vary. Well measurements from 
different local, state and federal agencies are often archived at 
different locations, stored in different formats, and may not be easily 
or freely accessible. The recent U.S. Geological Survey report on 
``Groundwater Availability of the Central Valley Aquifer, California,'' 
which was several years in the making, underscores the major effort 
required to assemble a comprehensive picture of changing groundwater 
availability. It is not clear that such an effort can be sustained as 
part a routine monitoring program.
    The main goal of this testimony is to share with committee members 
recent advances in satellite technology that now enable routine 
groundwater monitoring from space, including in the Central Valley. The 
satellite mission of interest today, the Gravity Recovery and Climate 
Experiment, or GRACE, has already been successfully applied to track 
monthly groundwater storage changes in several large aquifer systems 
around the world. It is our hope that the information that advanced 
technologies such as GRACE can provide will ultimately be incorporated 
into the information stream that supports environmental decision 
making. I will also appeal to you for your help. Unfortunately, 
hydrological model development and water observing networks have lagged 
far behind the increasingly urgent need to address pressing issues of 
national significance. We cannot make the necessary progress in areas 
such as water, energy and food security without your leadership and 
support.

BACKGROUND
    The GRACE mission was launched in March 2002. It consists of two 
satellites that orbit around Earth each month. The primary measurement 
is not of Earth's surface, but rather, of the distance between the two 
satellites, which is perturbed by changes in gravity from place to 
place as the pair orbit around the globe. The mission collects millions 
of these inter-satellite distance measurements, which are exceptionally 
accurate (to the sub-micron level), and uses them to produce a map of 
our planet's gravitational field. Taking the difference between these 
maps yields the time-variable component of the gravity field. The major 
topographic and geologic features of Earth do not change on a monthly 
basis: their contribution to Earth's gravity field is static. 
Consequently, owing to the fact that water is one of the heaviest 
materials on Earth, the time-variable component of the gravity field is 
largely a reflection of changes in water storage each month. Hence the 
measurements of this time-variable component of the gravity field are 
used to estimate the corresponding changes in water mass stored on land 
and in the oceans. GRACE cannot measure the total (absolute) amount of 
water stored in a river basin, an aquifer or any other region of 
interest. It can only tell us the change between successive 
measurements of the gravity field.
    GRACE data have been successfully used to measure changes in the 
Greenland and Antarctic ice sheets, the Alaskan glaciers, and the 
Patagonian glaciers in Chile. Our research group at UC Irvine has 
focused on hydrologic applications of GRACE. We have demonstrated how 
GRACE data can be used to track water storage changes (Figure 2), to 
estimate evapotranspiration and to estimate streamflow from the world's 
major river basins. We also incorporate GRACE data in computer models 
of hydrology to improve prediction of surface and groundwater storage 
changes. GRACE data are now an input data stream into the operational 
U.S. Drought Monitor (Figure 3). After nearly 8 years of GRACE data, we 
are now able to identify trends in water storage that result from both 
natural and anthropogenic forces (Figure 4).
    One of the key hydrologic contributions of GRACE is that it has 
enabled satellite observation of groundwater storage changes. Our group 
has pioneered these techniques, beginning over a decade ago with our 
pre-launch feasibility study of the potential of GRACE to monitor 
groundwater storage changes in the Ogallala Aquifer. Since then we have 
used GRACE data to explore groundwater storage changes in the 
Mississippi River basin, and in aquifers in Illinois, Oklahoma and 
Australia. Figure 5 shows a figure from our recent study of rapid rates 
of groundwater depletion in northwestern India, an agricultural region 
like the Central Valley that is heavily dependent on groundwater for 
its irrigation demands.
    It is critical to recognize the contribution of the GRACE mission 
to observing the changing hydrology of the continents. Figures 2, 4 and 
5 display information on the behavior of water storage on land that is 
essentially brand-new: before the GRACE mission, this information was 
simply not available. For example, the ups and downs of river basin 
water storage shown in Figure 2 were simply not known: likewise the 
pattern of water storage trends in Figure 4. In particular, remote 
sensing of groundwater was regarded as a ``Holy Grail'' in the 
hydrologic community. In addition to the several reasons described in 
my introductory testimony, since groundwater is located below the 
Earth's surface, it is not ``visible'' by traditional, optical 
satellite missions. GRACE has effectively allowed us to ``see'' beneath 
the surface, by ``weighing'' groundwater storage changes from space.
    There are several caveats that must be understood before we discuss 
the Central Valley example. First, GRACE operates at relatively low 
resolution in space and time. It can measure monthly changes in water 
storage, for regions with a minimum area 150,000 km2, with an accuracy 
of 1.5 cm of equivalent water height. Its performance improves with 
increasing area and time period. Second, GRACE measures changes in all 
of the water stored in a region--that is, it is unable to differentiate 
among snow, ice, surface water, soil moisture and groundwater. In order 
to isolate changes in one of these individual storage reservoirs, for 
example, groundwater, mass changes in the other above-mentioned 
storages must be estimated and removed. Typically these data come from 
ground-based observations, advanced hydrological models, or from other 
satellites.
    Third, the GRACE mission has a limited lifespan. Barring any 
unforeseen battery or electronics failures, mission scientists at 
NASA's Jet Propulsion Laboratory estimate that GRACE will perform 
reliably for only another 3-5 years.
    Finally, it is important to note that our goal is not to expose 
water ``overuse.'' In fact, Figure 4 shows that in many land regions, 
for example, in high-latitude Eurasia, water storage is increasing. 
Moreover, unpublished research from our group suggests that the 
continents as a whole show zero storage change, or even a small 
increase in water storage, during the life of the GRACE mission. 
Rather, we are committed to developing advanced methodologies to help 
monitor water storage changes, characterize water availability, and to 
predict and understand the forces that contribute to regional water 
stress. As mentioned earlier, it is our hope to share this information 
with regional water managers, and with state and federal policy and 
decision makers.

 WATER STORAGE CHANGES IN THE SACRAMENTO AND SAN JOAQUIN RIVER BASINS: 
        GROUNDWATER DEPLETION IN THE CENTRAL VALLEY
    Our most recent regional study is of the combined Sacramento and 
San Joaquin River basins in California. This 154,000 km2 region 
includes California's major mountain water source, the snowpack in the 
Sierra Nevada mountain range, as well is its primary agricultural 
region, the Central Valley (52,000 km2). We selected this region for 
study due to its socioeconomic importance for California and for the 
Nation. This research shown here was presented in December 2009 at the 
Fall Meeting of the American Geophysical Union (AGU) conference held in 
San Francisco. It is currently in preparation for submission to a peer-
reviewed journal.
    Figure 6 (upper left) shows the change in total water storage (all 
of the snow, surface water, soil moisture and groundwater) for the 
combined Sacramento-San Joaquin drainage area. The drought conditions 
since 2005 are evident in the figure. During the 66-month time period 
studied (October 2003-March 2009), water storage in the basins 
decreased by 31.3 km3, or roughly the volume of Lake Mead.
    As I mentioned earlier, in order to estimate only the groundwater 
storage changes in the region, mass changes in the other major water 
stores (snow, surface water, soil moisture) must be estimated and 
removed. Soil moisture is largely unmeasured in the United States. 
Consequently, we estimated and removed the soil moisture signal using 
the average of three different soil moisture simulations for the 
corresponding time period, taken from advanced hydrological models, and 
run at the NASA Goddard Space Flight Center (upper right). The loss of 
soil moisture during the study period accounted for 1.7 km3 of the 31.3 
km3 total. Reservoir storage data (lower left) were compiled from the 
state CDEC website, and accounted for 7.6 km3 of water loss. The 
snowpack estimates, or its snow water equivalent (lower right), were 
obtained from the National Operational Hydrologic Remote Sensing Center 
(NOHRSC), and are a combination of both observations and advanced 
simulation models. The NOHRSC data represent the best estimate of the 
Sierra snowpack currently available. These data show a decrease of 1.7 
km3 during the study period. The results the total water storage, snow, 
surface water, soil moisture, and groundwater (discussed next) are 
summarized in Table 1. Note that the trends reported are for the 
specified time period, which was selected to maximize the overlap among 
the various datasets used in the study.
    Since the total water storage change in the Sacramento and San 
Joaquin basins is the sum of the snow, surface water, soil moisture and 
groundwater changes, subtracting the first three of these components 
from the total (observed by GRACE) yields the groundwater storage 
change (Figure 7). Table 1 shows that during the study period, 
groundwater storage changes accounted for 20.3 km3 of the total water 
loss. We assume in this work that nearly all of the groundwater loss 
occurs in the Central Valley, since the other major geological features 
in the combined basins, that is, the mountain ranges surrounding the 
Valley, have limited capacity to store groundwater.
    The picture that emerges from this analysis is consistent with the 
U.S.G.S. study, and extends that study from its end date in 2003 to the 
present. Our estimated loss trends are similar to those of the 
U.S.G.S., and the steep decline estimated in our study is similar to 
the those estimated by the U.S.G.S. in previous drought periods. 
Furthermore, the results are consistent with our understanding of 
Central Valley farmers' behavior. Facing significant cuts in surface 
water allocations, farmers are forced to tap heavily into groundwater 
reserves to attempt to meet their irrigation water demands. Our 
research also indicates (not shown here) that nearly 75 percent of the 
20.3 km3 of groundwater loss is occurring in the San Joaquin River 
basin, including the Tulare Lake basin, which is also consistent with 
ground-based observations (Figure 8) and other studies.

WHERE DO WE GO FROM HERE?
    As you know, California's water future is highly uncertain. Climate 
change may drive the Sierra snowpack close to zero by the end of the 
century, while our population will continue to grow. Unfortunately, the 
Colorado River basin faces a similar plight (Figure 9). It is not hard 
to imagine that water may emerge as one of the key political issues in 
the decades to come. Perhaps that time is now. Will water be the ``oil 
of the future?'' Maybe.
    Given the importance of water, both now and in the future, the U.S. 
must significantly accelerate its predictive capabilities in order to 
address the pressing issues we will soon face. Will we have enough 
water to supply our growing population? Will there be enough water to 
sustain agricultural activity? Is there enough water and land to 
support biofuel production? How will declining snowpack affect 
hydropower in the American West? How will changes in extreme events 
such as flooding and drought affect California? How can water 
management best adapt to these changes in climate, snowpack, population 
and hydrologic extremes? Agencies like NOAA, the National Weather 
Service, and NASA, are responding, but slowly given current economic 
constraints. I contend that a significant investment in hydrologic 
prediction, observation and research must be made, now, in order to 
build the intellectual infrastructure to ensure the security of our 
nation in the decades to come.
    My own contribution to this effort is through leadership at the 
state and national levels. I am the founding director of a new modeling 
center at UC Irvine called the UC Center for Hydrologic Modeling. Our 
goal is to develop a very high-resolution hydrological model for the 
state that includes all major components of the natural (snow, ice, 
surface waters, soil water, groundwater) and managed (reservoirs, 
aqueducts, groundwater withdrawals) water cycle that can be used to 
test solutions and provide answers to the questions above. Another goal 
is to provide a forum for water managers, practitioners, environmental 
decision makers, and center researchers, to transfer knowledge, provide 
training, and develop meaningful collaborations that can advance water 
management in our state.
    I am leading a similar effort at the national level. This activity, 
called the Community Hydrologic Modeling Platform (CHyMP), is unfunded, 
but is highly regarded by the National Science Foundation and other 
agencies such as NASA and NOAA. Both the UC Center and the CHyMP effort 
will require sustained funding at the state and national levels. Again, 
I am already devoted to the cause, but I need your help to identify the 
resources to ramp up and sustain these critical activities. Students 
must be trained at all degree levels. New modeling paradigms must be 
developed that can easily accommodate ground-based observations, 
emerging sensor technologies, and satellite observations like those 
from GRACE. There is much work to be done.
    I hope that I have convinced you that advanced technologies such as 
the GRACE mission can make an important contribution to the future of 
water management. I will be happy to work with your staff to spread the 
word about the potential of GRACE so that it can be fully utilized in 
water prediction and management. However, recall that GRACE will last, 
at best, another 3-5 years. The follow-on mission, known as GRACE 2, is 
not slated for launch until 2020. Assuming the usual delays, we can 
expect a gap of at least a decade in GRACE water storage data. If your 
committee believes, as I do, that GRACE is invaluable in order to adapt 
water management to changing climate, then please do what you can in 
Congress to help increase the priority of the GRACE 2 mission.
    I thank you once again for the opportunity to testify.
    [NOTE: Figures have been retained in the Committee's official 
files.]
                                 ______
                                 
    Mrs. Napolitano. Is the Commissioner still here? I don't 
know what to say, other than there are things we need to maybe 
explore with NASA, with NAS, with all those agencies, to see 
how we can begin to look at some of what they are findings can 
impact and assist our agencies. Thank you.
    I would like to move on to Mr. Miguel Luna, Executive 
Director of Urban Semillas. Welcome.

    STATEMENT OF MIGUEL A. LUNA, EXECUTIVE DIRECTOR, URBAN 
               SEMILLAS, LOS ANGELES, CALIFORNIA

    Mr. Luna. As a community organizer, my perspective will be 
one that comes from community at the grassroots level. I wanted 
to start my testimony with this quote. ``Solutions have been a 
permanent dialogue between human beings and water.'' I feel 
part of the problem of the state of today's water stems in part 
from a historical lack of dialogue with this resource. Our 
interaction with this vital resource has been one-way, us 
demanding from it, without hearing the warnings, the warnings 
when we pollute it, when we overdraft it, when we waste it.
    Of course, I am aware that our water situation requires 
solutions that are engineered and that also utilize nature's 
services, but if we move forward without a true appreciation of 
water and the role it plays in nature, our rivers, our food, 
our energy, our communities, then we will continue to run into 
the same problems we face today, just at a later time and most 
likely with a greater magnitude of negative impact and at a 
greater cost, both economically and ecologically.
    I wouldn't be doing my job of building capacity within the 
communities I work with if I didn't partner with other 
organizations to identify support and implement sustainable 
local solutions which many of us feel are the most cost 
effective, least environmentally destructive and, why not, even 
provide community benefits that boost local economies through 
the creation of jobs and the retraining of workers to fit new 
emerging technologies and eco-friendly best practices.
    They are all outlined in my testimony that was crafted by 
the Water Coalition I belong to with other several colleagues. 
I wanted to highlight some of them. One is sustainable growth 
in areas that can sustain it, requiring the inclusion of the 
most water efficient design, fixtures and landscaping to draw 
down new water demand.
    Retrofitting aging infrastructure to minimize systemwide 
inefficiencies in leaking infrastructure; taking a proactive 
role in repairing and replacing old infrastructure before large 
breaks occur; expanding the purple pipe system that delivers 
recycled water so we can offset potable water demand; support 
the collaboration between the Department of Water and Power and 
Bureau of Sanitation; and the development of a recycled water 
master plan that outlines strategies to increase the city's 
recycled water use to 50,000 acre-feet by the year 2019; 
promoting water culture through conscientious water management 
and conservation.
    The Pacific Institutes estimates about one-third of current 
urban usage, more than 2.3 million acre-feet of water, could be 
saved statewide through better implementation of existing 
technology for homes and businesses, and more aggressive 
education at all levels with matching expansion of water 
conservation programs for customers.
    Revitalization and restoration of our streams, creeks and 
rivers, which are deeply connected to water supply: When we 
restore creeks and rivers, they can serve as a viable natural 
way for our aquifers to be replenished to serve as key water 
sources. They also revitalize communities and, in the process, 
can provide for short and long-term jobs, maybe even for a 
better sustainable future for our children.
    One example of this is a local project, the Elm Avenue 
Retrofit Demonstration Project in Sun Valley. This project 
models a sustainable future for neighborhoods throughout Los 
Angeles, but also the ideal collaboration between agencies and 
groups at all levels. This is a project where the Bureau of 
Reclamation, the City of Los Angeles, and two local LA groups.
    Bailey-San Gabriel River Watershed Council and Tree People 
are working together to make it happen. A whole block in an 
area where there are no storm drains flooded all the time, now 
will capture rainwater on site and infiltrate it. Not only 
that, but most of the homeowners are already replacing their 
lawns with native landscaping and re-articulating their private 
yards to include biological swales as well as adding rain 
barrels to their properties. While still not completed, it is 
already providing for a better quality of life and serving as a 
great education and community engagement tool.
    I wanted to close with safe water for all. While we are 
very fortunate this year in the City of LA to be able to open 
our tap and have access to safe drinking water, it is not the 
case for other places in the state. One example is our 
neighboring City of Maywood where a population of 50,000, 98 
percent Latino, is served by three water mutual companies, and 
still customers open their taps of water containing manganese, 
lead, PCs and other contaminants.
    We must have policy in the state that ensures that every 
human has a right to clean, affordable and accessible water. 
Thank you so much.
    Mrs. Napolitano. Thank you, Mr. Luna.
    [The prepared statement of Mr. Luna follows:]

           Statement of Miguel A. Luna, Executive Director, 
                Urban Semillas, Los Angeles, California

             We Have Enough Water, but Not Enough to Waste:

                Solutions to Securing LA's Water Future

Introduction
    There has been much discussion recently of Los Angeles being in the 
midst of a drought. Although this type of dramatic language is good for 
capturing the attention of the public, it is ultimately misleading. 
Depicting the current water situation as a drought implies that Los 
Angeles is facing a temporary water shortage, an abnormal situation 
that will pass in time. This is not the case. Years of low rainfall 
tend to sound alarm bells amongst the public, but for Southern 
California, dry years are actually more common then wet ones. Most of 
the city is in a semi-arid Mediterranean climate with generally low 
annual rainfall that can fluctuate from year to year. Moreover, the 
effects of climate change have caused the fluctuation in annual 
rainfall to increase: both the wettest and driest years of record for 
the Los Angeles region have occurred in just the past eight years.
    Los Angeles draws its water supply from a variety of sources. 
However, many of these are now oversubscribed, and several face serious 
water quality problems. LA's sources of imported water can no longer 
supply the city at the level they once did, due to legally mandated 
environmental mitigation programs and increased demand from other 
communities that share these resources. LA's local water sources also 
face problems such as pollution, overuse, and the danger of seawater 
infiltration into underground freshwater basins.
    In spite of all this, there is still hope for LA's water future, 
but city officials and residents must look for sustainable solutions, 
rather than crisis-driven band-aid fixes that will only exacerbate the 
problems in the long term. Central to such a sustainable approach is 
first acknowledging that for LA to continue to thrive, it will need to 
reduce its dependence on imported water.
    Necessary strategies to increase LA's local water supplies include:
    <bullet>  Manage the entire greater Los Angeles watershed using a 
holistic regional approach.
    <bullet>  Aggressively pursue all water conservation, efficiency, 
and recycling options on individual, business, and industrial levels by 
pursuing water education, water efficiency solutions, greywater and 
rainwater capture systems, drought resistant landscaping, incentives 
for conservation, and low impact development.
    <bullet>  Require that all new development be water neutral by 
requiring the use of the best conservation, efficiency, and recycling 
practices.
    <bullet>  Repair aging water infrastructure, require water system 
audits, and expand water-recycling infrastructure.
    <bullet>  Mandate groundwater clean-up efforts and tighter 
pollution controls to deter further degradation.
    By taking these actions to preserve and protect LA's local water 
supplies, the city can also fight environmentally unsound and expensive 
water distribution trends such as water privatization and the over 
reliance on bottled and vended water.
    These changes will also create new employment and development 
opportunities for local communities. The implementation of water-saving 
technologies, retrofitted infrastructure, and new LID development 
practices is a chance to create new jobs in this time of economic 
crisis. It's also an important opportunity to redevelop low-income 
communities in a responsible way, making sure they aren't left behind 
in these efforts and providing them with better infrastructure and 
public space.
    Implementing these solutions is a priority that can't wait. If both 
the city government and residents act now, Los Angeles has an 
opportunity to maximize its local water resources to secure a safe 
water supply for a sustainable future.

Water Supply
    The water supply for the Los Angeles region comes from a variety of 
local and imported sources, and as the population has grown over time, 
LA's reliance on imported water has increased. The city currently 
imports about 65 percent of its water. State and federal courts have 
reduced LA's allocations from these non-local sources in recent years. 
Exploring and investing in ways to maximize local resources will be the 
best way to offset these supply reductions.

Imported Water Sources
    The Los Angeles Aqueduct carries water from the Owens Valley and 
Mono Lake. It is controlled by the LA Department of Water and Power 
(LADWP) and provides water solely to the City of Los Angeles. 
Currently, the aqueduct supplies the city with 11 to 32 percent of its 
annual water supply.
    The Colorado River Aqueduct carries water from the Colorado River 
to many different parts of Southern California and supplies 37 to 46 
percent of the water used in this region. It is controlled by the 
Metropolitan Water District (MWD), a public water wholesaler made up of 
26 member agencies that together provide drinking water to some 19 
million people in parts of Los Angeles, Orange, Riverside, San 
Bernardino, San Diego, and Ventura counties, a combined area of over 
5,000 square miles.
    Los Angeles shares the Colorado River with six other states 
upstream (Utah, Wyoming, Colorado, New Mexico, Arizona, and Nevada) and 
with Mexico downstream. California has been allocated 4.4 million acre-
feet per year from this aqueduct, but due to surpluses in years past, 
MWD had been using more than its allocation by about 800,000 acre-feet. 
Because of increased demand from other states upstream, the Secretary 
of the Interior is forcing California to reduce its take of Colorado 
River water back to its 4.4 million acre-feet allocation.
    The third source of imported water for Southern California is the 
California State Water Project. The California Aqueduct, at 444 miles 
long, is the largest aqueduct in the world. All the pumping of water 
out of the Delta and over the Tehachapi mountains makes the State Water 
Project the largest single consumer of energy in California. The State 
Department of Water Resources administers the project and through it 
supplies water from the Feather River and the Sacramento and San 
Joaquin River Delta in Northern California to the Bay Area, the Central 
Valley, and much of Southern California. In spite of its scale and 
energy consumption, the State Water Project has never provided as much 
water as it was supposed to. The state is contracted to deliver 4.2 
million acre-feet per year but only delivers an average of 1.86 million 
acre-feet a year, less than half. The State Water Project could see its 
ability to deliver water further hindered by such impacts of climate 
change as the greater frequency of dry years, a sea level rise 
requiring additional fresh water releases from reservoirs into the 
Delta to maintain water quality, and a corresponding curtailing of 
pumping water south of the Delta.
    Already the diversion of so much water from the Sacramento and San 
Joaquin River Delta has caused an environmental disaster in the region. 
Due to overdrawing water for agricultural and urban uses, increased 
water salinity, and pollution, the balance of a vital ecosystem is 
being seriously damaged. The most obvious and inexpensive solution to 
stop the degradation and begin to restore the Delta is to decrease the 
Central Valley and Southern California's reliance on the Delta as a 
water source by maximizing reliance on local water sources.

Local Water Sources
    The Los Angeles region currently gets about 35 percent of its water 
supply from local water sources. However, many of these sources are 
under-utilized for various reasons.

Surface Water
    About 20 percent of LA's water supply comes from local surface 
water: near-by rivers, streams, lakes, and reservoirs. The water for 
all of these sources originates from rainwater and snowmelt from 
surrounding mountains. Almost all rainwater is diverted to storm drains 
that send the water out to sea. Most rivers and streams in the LA area 
have been engineered to flush out water to the ocean, since these have 
been channeled and paved to prevent flooding. However, some rainwater 
is stored in man-made lakes (or reservoirs) to later be diverted to 
spreading basins. These are ponds where rainwater is allowed to spread 
and slowly percolate back into the groundwater table, increasing the 
city's groundwater supply. There are also some parts of the Los Angeles 
River and other streams that have not been paved, where water can seep 
back into the ground.

Ground Water Basins
    The Los Angeles region receives about 15 percent of its water from 
groundwater basins. There are six major groundwater basins in the LA 
area, of which the San Fernando Basin is the largest, alone providing 
about 80 percent of the local groundwater supplies. These basins are 
replenished through spreading, the percolation of surface water back 
into the ground, and also through injection. Injection, where wells 
pump water down into the aquifer, is normally used in places where the 
basins have been oversubscribed or there is a danger of salt-water 
intrusion or sinkage. These groundwater basins hold large quantities of 
water and could be a much bigger water source for the LA area. However, 
not all of the groundwater in the basins can be used. Numerous basins 
have been contaminated with industrial waste from World War II era 
rocket fuel, such as chromium 6 and perchlorate, which has taken them 
out of use for drinking water. Additionally, many of the basins are 
polluted by agricultural run-off and leaking septic systems, which 
result in water quality issues.

Water Recycling
    Water recycling, the process through which wastewater undergoes 
multiple levels of treatment so that it can be safely reused, is 
another important opportunity for increasing local water supplies. 
Currently, treated wastewater is used in Los Angeles for a variety of 
purposes, such as landscaping, industrial use, artificial bodies of 
water, and injection into underground water basins to prevent salt 
water infiltration. Recycled water is carried by its own separate 
plumbing infrastructure, purple pipes, and is not used for drinking 
purposes in LA County. Recycled water may be used on individual, 
institutional, and industrial scales.
    There are three main levels of treatment for municipal wastewater. 
Primary treatment involves the removal of sewage solids through 
sedimentation. Secondary treatment uses biological processes to further 
remove organic compounds, with microorganisms using the oxygen in 
aeration tanks to consume the compounds as their food. Tertiary 
treatment combines chemical disinfection using chlorine, sedimentation, 
and filtration. Recycled water that has gone through all three stages 
of treatment may be used in for irrigating golf courses and parks. The 
California Department of Health Services closely monitors and enforces 
health requirements for the use of recycled wastewater.
    Los Angeles began water recycling in 1979 for irrigation and 
industrial uses. While LA currently uses about 4,600 acre-feet of 
recycled water--saving enough potable water for about 9,200 homes--this 
only represents around 3 percent of LA's total water use. Recently golf 
courses like Woodley Golf Course and schools like Loyola Marymount 
University have begun using recycled water for their irrigation.

Conservation
    A most promising source of local water is the water that Los 
Angeles saves through local conservation measures, both through 
individual residential and business efforts with government incentives. 
Although the LA region has managed to reduce its water consumption a 
great deal, there are still untapped opportunities to conserve a lot 
more. Using local water resources more efficiently is the best and 
least expensive way for Los Angeles to increase its water supply and 
achieve regional water independence. The city has already made great 
strides in conserving water. Despite population growth of 35 percent 
since 1970, Los Angeles has experienced a mere 7 percent jump in water 
consumption. During that same period individual per capita water usage 
dropped by 15 percent. More recently, after 5 months of mandatory water 
rationing, the LADWP announced in December 2009 that they had reduced 
water consumption by 18.4 percent.

Watershed Management
    Watershed management may also help safeguard clean water supplies 
and identify recycling and conservation opportunities. A watershed is 
the area of land where all the water in it or on top of it, from 
rainfall, snowmelt, and melting ice, drains downhill into a single 
destination such as a lake or ocean. Water does not stay still. It 
flows both above and below ground, and even when held in lakes and 
seas, it evaporates into the atmosphere and falls again as rain. 
Thinking in terms of watersheds enables one to understand how seemingly 
distinct water sources such as individual rivers, lakes, and aquifers 
are in fact linked together by virtue of flowing toward the same 
destination. According to the Environmental Protection Agency (EPA) 
there are 2,110 watersheds in the continental United States--2,267 
including Hawaii, Alaska, and Puerto Rico.
    Watershed management approaches thus seek to view both land and 
water resources as they are connected to one another in the watershed 
and to manage them accordingly. Such a management approach is essential 
to both identifying sources of existing groundwater pollution and 
preventing further pollution. It is also necessary to navigate the 
intricacies of conflicting water supply and water rights demands. 
Watershed management requires the collaboration of anyone taking water 
from or putting water back into the watershed, thus looking at the 
overall water quality and quantity implications throughout a watershed 
of land use, development, industry, agriculture, and other activities.
    The main watersheds in the Los Angeles area are the Los Angeles 
River Watershed, covering an area of over 834 square miles, the San 
Gabriel River Watershed, covering about 640 square miles, and the Santa 
Clara River Watershed, covering an area of 1,600 square miles.

Facing Los Angeles' Water Supply Problems
Problem: Groundwater Pollution
    In Los Angeles there are numerous ground wells, however, we can 
only one fourth of the existing wells. Drawing uncontaminated water 
from polluted basins increases the risk of the polluted plumes 
migrating to other basins and thereby spreading the contamination. Such 
is the case with the Main San Gabriel Valley Basin, which is 
contaminated with chromium 6 and perchlorate. The Department of Defense 
has fought for years to avoid funding significant clean up by stating 
that they would not act until the EPA set national standards for 
permissible levels of perchlorate contamination in drinking water, 
while simultaneously fighting for broad exemptions from federal 
environmental laws. The California State Legislature created the San 
Gabriel Basin Water Quality Authority, but its efforts have been 
hamstrung by lack of federal funding.

Solution: Groundwater Clean Up
    Polluted groundwater in the Los Angeles region represents a huge 
source of water that cannot be fully utilized. LADWP's attempts to 
further groundwater clean up by filtering recycled water into polluted 
basins should be studied and pursued rather than taken off the table. 
Pressure must be put on the responsible parties, including the 
Department of Defense, to fulfill their legal duty to clean up 
superfund sites in our groundwater basins. Previous legislative efforts 
by California federal representatives such as then Rep. Hilda Solis 
stalled in Washington during the Bush Administration. A broad coalition 
of local, state, and federal officials should aggressively pursue clean 
up funds through Congress and the Obama Administration. The EPA should 
prioritize making its final regulatory determination for perchlorate 
and ensure that public safety is the paramount criterion in the 
determination. To prevent future groundwater contamination, stricter 
legislative standards must be devised and enforced for capturing 
polluted runoff and preventing dangerous chemicals from entering the 
watershed.

Problem: Unsustainable Development
    Population increases will place additional strains on Los Angeles' 
water supply. However, it is necessary to first distinguish between 
development built to meet the demands of a growing population and 
development meant to create demands where they do not exist. Several 
mass development projects such as Tejon Ranch depend entirely on 
imported water supplies that critics claim can be found only on paper.

Solution: Water Neutral Development
    While development may be inevitable, it is urgent that it be done 
responsibly and in areas that can sustain the growth. In Water Neutral 
Development the local water supplier would require new developments to 
include the most water efficient design, fixtures, and landscaping to 
draw down new water demand. Any new demand brought online by the 
project would be mitigated in the adjacent residential areas. For 
example, the developer could pay into a water conservation or 
mitigation fund as a means to offset new demand. The fund would provide 
a new revenue stream for conservation programs that are regionally 
based and not contingent on bond funds or the state budget. Not only 
does this form of development help an area grow and be sustainable, it 
also provides a new funding stream for conservation programs such as 
MWD's Water$mart program that is pending cancellation.
    <bullet>  Require new residential and commercial developments that 
are subject to CEQA to incorporate cost-effective water efficiency 
measures.
    <bullet>  Require that any water use in the new development be 
fully mitigated through water efficiency measures in existing 
communities or by developing local water supplies.
    <bullet>  Require that 40% of the benefits from mitigation projects 
be directed to disadvantaged communities that otherwise would not be 
able to afford efficiency and adaptation measures.
    <bullet>  Require that a portion of the work is done with community 
based organizations who have gone out of business during the drought!
    <bullet>  Begin the manufacturing of water saving equipment in Los 
Angles to provide jobs and economic development

Problem: Aging Infrastructure
    Aging water mains waste tremendous amounts of water through leaks 
and spills, but can also cause great damage when they break.
Solution 1: Repairing and Replacing Old Infrastructure
    System-wide inefficiencies such as leaky infrastructure are an 
easily preventable source of waste in the Los Angeles region. By 
retrofitting old plumbing systems in homes and businesses LA can 
achieve substantial water savings. Local water agencies should take a 
proactive role in repairing and replacing the city's old infrastructure 
rather than waiting for large breaks to occur. The city must increase 
the rate of replacement of infrastructure repair and rehabilitation.
Solution 2: System Audits
    System audits should apply to residential and commercial users. 
Similar to the energy assessment that DWP provides to its customers, 
water audits should also be provided. For example, in Australia the 
water company can monitor the water use of any single customer, or 
across a particular area. They installed special meters that are 
connected remotely to a computer system. This allows monitoring of 
specific locations or areas and makes it easier to target outreach 
where it is most needed. This should be done at no charge to LADWP 
lifeline rate customers.
Solution 3: Expand Recycled Water Infrastructure
    Existing infrastructure should be expanded so that the use of 
recycled water can become more widely utilized. Its use in new 
developments for purposes like landscaping or toilets should also be 
mandated.

Problem: Wasting Good Water
    In spite of the progress that has been made, there are still many 
unexplored opportunities for water conservation in Los Angeles. The 
Pacific Institute estimates that more than 2.3 million acre-feet of 
water (or one third of current urban usage) could be saved statewide 
through better implementation of existing conservation technologies for 
homes and businesses that range from more efficient toilets, showers, 
washing machines, and dishwashers, to fixing leaks and changing 
impermeable turfs to native landscaping. Eighty-five percent of those 
savings could be achieved at costs lower than those required to tap new 
water sources. Excessive levels of personal water use, for domestic and 
landscaping purposes, also represent a large source of unnecessary 
consumption. An aging water infrastructure exacerbates the problem, 
while an unwillingness to fully exploit resources like rainwater and 
greywater further frustrates conservation efforts.
Solution 1: Education
    <bullet>  Prioritize educational outreach. LADWP should partner 
with the Los Angeles Unified School District to educate students about 
conservation and engage them in water audits through existing programs 
such as the Infrastructure Academy to improve water conservation in 
schools.
    <bullet>  Provide workshops and assistance for customers to use 
existing dual meter programs for landscape watering and provide rebates 
to make it more affordable.
    <bullet>  Increase outreach for purchasers for recycled water.
    <bullet>  Increase and advertise California Friendly Landscape 
workshop for LADWP customers in multiple languages.
    <bullet>  Distribute conservation program materials in high traffic 
areas like markets and malls to ensure renters get the information.
    <bullet>  City officials should model behavior by stringently 
following the city's water conservation ordinance
Solution 2: Water Efficiency Solutions
    New technologies represent a huge source of potential water 
savings. Many of the technologies aimed at individual consumers are 
readily available and easy to install. Low flow high efficiency toilets 
and showerheads address some of the larger sources of domestic water 
use. Water-efficient washing machines and dishwashers tackle another 
area of significant water consumption. Point of use water heaters 
without tanks save on water consumption and energy usage by reducing 
wait times for hot water. Consumers can also cut back on the biggest 
source of domestic water consumption--outdoor usage--through the 
installation of smart irrigation technology. Smart irrigation systems 
eliminate over watering by automatically adjusting the timing and 
volume of water use to reflect actual needs. Conservation technologies 
aimed at the business and public sectors can also yield impressive 
results. In addition to the opportunities described above, water can 
also be conserved with waterless urinals and the retrofitting of car 
washes.
    <bullet>  Meter apartment complexes and use dual plumbing in 
retrofits and new buildings for the use greywater for toilets and other 
non-potable uses.
    <bullet>  Retrofit existing public buildings for water efficiency 
and implement low impact development strategies in new and redeveloped 
buildings.
    <bullet>  Include water efficiency standards in building 
ordinances.
    <bullet>  Continue to explore ways to maximize water recycling.
    <bullet>  Dual landscape meters
    <bullet>  ET irrigations controllers--implement the existing Prop. 
84 grant with CBO's
Solution 3: Greywater and Rainwater capture systems
    Greywater and rainwater capture systems are two ways to make use of 
water resources that would otherwise go to waste. With greywater 
systems, wastewater from sources like washing machines, hand sinks, and 
showers is captured on site and reused in toilets and landscape 
irrigation systems. Greywater is defined as wastewater that, although 
not potable, does not contain sewage, significant food residue, or 
dangerous concentrations of chemicals. As 50 to 80 percent of 
residential wastewater is greywater, these systems represent huge 
potential water savings. Rainwater capture systems do exactly what 
their name suggests, capture and store rainwater for use in irrigation. 
These systems cut down on water consumption but also provide an 
additional ancillary benefit: by using captured rainwater for 
landscaping purposes, the rainwater then filters through the ground and 
helps replenish local groundwater basins.
    <bullet>  The city should expand its current rainwater barrel pilot 
program and provide education and incentives for greater implementation 
of rainwater capture systems citywide, particularly in environmental 
justice communities and provide information about the program in 
multiple languages.
    <bullet>  The city should provide greywater guidelines and 
workshops in multiple languages making use of new state guidelines.
Solution 4: Drought Resistant Landscaping
    Outdoor water usage represents the greatest amount of residential 
urban water consumption, as much as 60 percent of urban water 
consumption in LA goes to landscaping and other outdoor use. Although 
Southern California is a semi-arid climate, many home and business 
owners choose to landscape their properties with traditional lawns or 
imported tropical plants, evidencing deeply set cultural preferences. 
Both of these landscaping choices require more water to survive than 
the Los Angeles area can naturally provide. One square foot of turf 
uses approximately 50 gallons of water per year. Moreover roughly 50 
percent of water used for irrigating lawns and gardens is wasted due to 
over watering and evaporation. Over watering also washes significant 
amounts of pesticides and fertilizers into storm drains, tributaries, 
creeks, groundwater supplies, and ultimately into the ocean.
    By contrast, many California native plants (or plants from other 
Mediterranean regions) are well adapted to the dry Southern California 
climate and are able to thrive on comparatively little or no water. 
According to the results of a study by the City of Santa Monica's 
Office of Sustainability and the Environment, maintaining a traditional 
lawn requires almost ten times the amount of water needed to support a 
sustainable landscaped lawn (57,000 gallons of water per year for a 
typical single family home versus 6,000 gallons per year).
    Sustainable landscaping, which uses native grasses, shrubs, 
flowers, cacti, and other plants instead of typical lawn grasses like 
St. Augustine Grass or Buffalo Grass, also creates a wealth of other 
environmental benefits. According to the same Santa Monica study, yard 
waste is significantly reduced with sustainable landscaping (250 pounds 
per year versus 670 pounds), as are maintenance hours (15 hours per 
year versus 80 per year). Planting California native plants also 
creates habitat for native fauna like birds and butterflies whose 
numbers are rapidly dwindling due to habitat destruction. State law 
requires that all cities and counties adopt by January 1, 2010 the 
Department of Water Resources Model Water Efficient Landscape 
Ordinance. The ordinance does not apply to new or rehabilitated 
landscape projects that cover an area less than 1000 square feet or 
that exceed 1000 square feet but do not require a building permit.
    <bullet>  Switch to sustainable, native landscaping.
    <bullet>  Install remote meters for easy monitoring of water 
consumption. Make use of existing landscape or outdoor meter program by 
providing incentives and notifying customers.
    <bullet>  Although MWD has a California friendly landscape and 
gardening classes program through the Be Water Wise conservation 
campaign, MWD, LADWP, and other water agencies need to be more 
aggressive in providing individuals and businesses with education and 
incentives to replace their lawns.
    <bullet>  Sustainable landscaping should be compulsory for all city 
properties and the city should consider mandating native landscaping 
for all new developments.
    <bullet>  The city should be the leader in native landscaping in 
their parks and public spaces.
Solution 5: Incentives for Conservation
    <bullet>  Provide more incentives to LADWP customers to conserve by 
extending and increasing the rebates for efficient washers, smart 
controllers, rotating nozzles, low-flow toilets, and turf removal not 
less than 250 square feet. Make it easier for DWP customers to access 
rebates.
    <bullet>  Improve enforcement of water use restrictions.
    <bullet>  Tiered pricing should be increased without impacting the 
lifeline rate to four or five tier pricing levels to provide incentive 
for customers to use less water, especially by reducing lawn 
maintenance: the more water used the more it costs.
    <bullet>  Ensure that MWD expands the water conservation credit 
program.
Solution 6: Low Impact Development (LID)
    Low Impact Development is a term used to refer to development 
practices that seek to capture a larger percentage of rainwater runoff. 
By capturing the water onsite it can be released back into the 
groundwater table where it replenishes underground basins. This process 
allows air pollution and other particulate matter to be filtered out of 
the water as it percolates down through the soil.
    In LID practices, rainwater is diverted from roofs and paved areas 
to landscaping, planter boxes, and bio-retention areas, instead of 
storm drains and rainwater capture systems like underground cisterns 
where soils do not allow permeability. Cement and asphalt surfaces are 
replaced with porous pavement that allows water to filter through to 
the ground. Bio-retention areas, zones that retain rainwater, and run 
off allow soil and plant-based filtration to clean water before it 
percolates into ground water. These bio-retention areas can also double 
as public green space, as is the case with Pan Pacific Park and Park La 
Brea which serve as retention areas, during times of heavy rain.
    In addition to yielding environmental benefits, LID practices are 
actually more cost effective over time. Because LID is more sustainable 
and makes use of better materials, fewer repairs are required. 
Widespread implementation of LID practices will also reduce the need to 
replace storm water drainage infrastructure.
    Related to LID is the City of Los Angeles' Green Streets 
Initiative. The Green Streets design strategies, which have already 
been implemented in a number of test projects, call for:
    <bullet>  Increased use of permeable surfaces on sidewalks and 
streets, allowing for a higher degree of water infiltration and
    <bullet>  Landscape systems such as vegetated swales, flow-through 
planters, and storm water curb extensions that capture and filter storm 
water.
    Green Street developments also serve the additional function of 
beautifying neighborhoods with new landscaping. This can be of 
particular value in creating new green space for LA's many park-poor 
communities.
    On January 15, the Los Angeles Board of Public Works unanimously 
approved the draft LID ordinance requiring that 100 percent of the 
rainfall from a three-quarter inch storm at newly built houses, 
developments, and certain redevelopments either be captured and reused 
or infiltrated on site, or that developers pay a stormwater mitigation 
fee to help fund offsite LID projects like Green Streets.
    <bullet>  Push for an expansion of the city's current Green Streets 
pilot programs that have already proven effective. Particular effort 
should be made to provide funding and incentives for this type of 
redevelopment in low income areas, so that they are not left behind.
    <bullet>  Install mini-water treatment plants and onsite water 
treatment plants
Solution 7: Other Watershed Solutions
    Other efforts can help to improve the quality and availability of 
drinking water within our local watershed. Restoring natural bottoms to 
some parts of Los Angeles' many channeled waterways will help a greater 
degree of storm-water runoff to filter down into groundwater basins 
rather than emptying into the ocean. Increased conjunctive use of 
surface water to store winter and spring surpluses will also increase 
local water supplies for future use. To bolster this effort greater 
emphasis should be put on exploring new potential sites for spreading 
basins.

Problem: Over consumption of Bottled and Vended Water
    Encouraging people to use tap water, rather than bottled water, 
will also help the water situation in our region. It is a commonly held 
misconception that the tap water in Los Angeles is not fit for 
drinking. In fact, LA's water not only meets or exceeds all federal and 
state safety standards, but in 2008 MWD also tied for the gold medal in 
the Berkeley Springs International Water Tasting Award for best testing 
municipal water. Despite these facts many Los Angeles residents still 
choose to rely on bottled or vended water for their drinking water 
needs.
    Bottled and vended water are a waste of both money and resources. 
In California, the price of bottled water represents a 10,000 percent 
markup from the cost of tap water. Bottled and vended water is also 
environmentally damaging, not only because of the amount of trash 
generated, but also because of the resources required to transport this 
water over long distances. Purchasing bottled water also helps to 
accelerate the process of water privatization that is occurring in many 
parts of the world. As industry takes control of more fresh water 
sources communities that once relied on these resources are finding 
their access curtailed.
    Finally, there are also safety concerns with vended water. In 2000, 
the Los Angeles County Environmental Toxicology Bureau found that 33 
percent of the 279 water vending machines they tested failed to meet 
the EPA standard for trihalomethanes, a by-product of water 
chlorination. Vended water machines throughout the city are largely 
unregulated. Water machine operators are only required to test machines 
for trihalomethanes once a week and fecal coliform bacteria once every 
6 months. However, many operators fail to comply with even those meager 
regulations. This is a real problem for Los Angeles residents, 
especially in low income communities, where they pay a disproportionate 
amount of their income for water they think will be superior to tap 
water, when often it is of far inferior quality.
Solutions:
    To remedy our city's reliance on bottled and vended water it is 
first necessary to change public perceptions regarding the safety of 
tap water. In 1999, MWD embarked on a public campaign to inform Latinos 
that MWD's water is clean and safe for drinking. The DWP can learn from 
MWD's experience to expand its own outreach efforts in this area. The 
mayor has already issued a memo to LA city departments regarding their 
wasteful expenditures for bottled water. It is important that he now 
hold them accountable for their continued bottled water use by banning 
bottled water in all city departments. The City of San Francisco banned 
bottled water within all branches of city government, successfully 
reducing city bottled water purchases from about $500,000 a year to 
zero. Lastly the city and county public health departments should 
collaborate with the state Department of Health Services to inspect 
vending water machines and stores.

Conclusion
    There are many factors that play into the current state of the 
water in the Los Angeles region, but it is clear now that this is a 
permanent problem that city government and residents will have to face 
now and into the future. The solutions proposed here are low hanging 
fruit that both officials and residents can use to maximize local water 
resources with the lowest monetary and environmental costs. 
Conservation, better watershed management, recycled water, and avoiding 
vended water and water privatization are all easy solutions that can 
have big effects. These solutions will both provide enough water for 
the Los Angeles region and provide economic benefits such as green jobs 
and community redevelopment. Availability of clean drinking water and 
water for nature is a growing problem and if the city does not 
implement these measures now, it will become harder and harder to reach 
the population's water needs and achieve the regional water 
independence necessary for the city's future.
                                 ______
                                 
    Mrs. Napolitano. We move on to Ms. Lucy Dunn, President and 
Chief Executive Officer of Orange County Business Council, 
Irvine.

STATEMENT OF LUCY DUNN, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
       ORANGE COUNTY BUSINESS COUNCIL, IRVINE, CALIFORNIA

    Ms. Dunn. Thank you, Madam Chairwoman. I appreciate the 
opportunity of representing the business community today.
    Southern California is the economic engine of the State of 
California, and California itself is the economic engine of the 
nation. In addition to agriculture, this state's innovations in 
biotech, medical device, green technology--you name it--are all 
dependent on a clean, reliable source of water.
    Southern California uses every tool in the toolbox right 
now. You have heard that over and over today. We are leaders in 
conservation, groundwater replenishment, desalting offshore, 
recycling, but we see the crisis is real and will not be 
resolved in any single strategy or an end to the current 
drought. Droughts in California are a fact of life here. They 
will return and, as we have not made major new investments in 
water infrastructure commensurate with the environmental, 
population, climate and infrastructure aging realities we have 
to deal with, we will face incalculable long-term impacts on 
California's economic competitiveness and quality of life.
    We simply cannot exist without a secure water supply system 
with sufficient clean water for all in California, and it does 
affect the nation. Given the threats to the State Water Project 
and the Central Valley Project in the Delta, there is no excuse 
for not making it the highest priority of the state and the 
Federal Government to agree on a feasible remediation plan and 
to implement it as soon as humanly possible. The state's 
economy and a major part of the country's economy is hanging in 
the balance. Do not repeat the mistakes of Katrina and New 
Orleans.
    The business community understands it costs money to build 
and maintain a reliable and environmentally friendly water 
system. Investments of billions of dollars will be required. We 
are more than willing to pay our fair share as residents and as 
water users. There are also many opportunities to attract 
private capital, as we are doing in the transportation sector 
in California and, frankly, in public/private partnerships 
throughout the nation. These are well documented models of 
cooperation and success.
    We urge you in government to consider and authorize as 
necessary private investment participation in water 
infrastructure to augment and work side by side with public 
investment. Do not let the lack of public investment capital be 
the cause of failure to modernize this state's water system.
    You have many coalitions of support among business groups 
and water agencies in the state, in particular, the formation 
of a joint partnership between the Silicon Valley Leadership 
Group and the Orange County Business Council called The Real 
Coalition. The largest economic associations in the state, over 
18 of us business groups, have formed together with water as 
one of our top priorities.
    You also see that here locally in Southern California with 
the Southern California Water Coalition, strong supporters of 
clean, safe water, helping each other understand the issues and 
get out the word to the public.
    You know, it is the first time in human history that I can 
recall where a government has turned off water for its people. 
If in Los Angeles we can get through a regulatory process that 
allows an environmental streamlining for a football stadium 
here in Los Angeles, we should be able to do the same thing for 
38 million people in the State of California and get this 
project in the ground. I love football. I love water. Let's 
just get it done. It is enough talk, enough studies. We have 
studied this to death. It is time now for strong action on the 
ground for a very cranky public out there. Thank you. Thank you 
for the opportunity.
    Mrs. Napolitano. Thank you.
    [The prepared statement of Ms. Dunn follows:]

              Statement of Lucy Dunn, President and CEO, 
                     Orange County Business Council

    California, home to one in eight Americans, accounts for around 12 
percent of the nation's gross domestic product and has the economic 
horsepower of the world's eighth-largest economy.
    When the state stumbles, its sheer size 38 million people creates 
fallout for businesses from coast to coast, which means California's 
economic malaise could make it harder for the entire nation's economy 
to recover.
    The single biggest threat facing businesses in California, outside 
of the existing economic crisis, is the lack of a reliable water 
supply.
    For Orange County specifically, this reality is sobering because 
water resources managed by state and regional agencies account for 50 
percent of our overall yearly water supply countywide. Just like 
America's relationship with foreign oil, we are dependent on others for 
a large portion of this most basic element of life--water.
    Water is a critical element in every industry and particularly for 
bio-tech, manufacturing, agriculture, homebuilding and new green-tech.
    Any and all signals that suggest we are emerging from this economic 
downturn could be dashed if we do not have a sufficient water supply.
Why would a Wisconsin Senator care about California's water?
    California has been the leader in U.S. agricultural production for 
over 60 years. Eight of the nation's top 10 producing counties are in 
the state. California grows more than half of the country's fruits, 
nuts and vegetables. It is the country's number one agricultural 
exporter.
    California is the leading dairy state and also America's top wine 
producer, making 90% of all U.S. wine, and is the fourth leading wine 
producer in the world.
    California's food production and processing industry is critical to 
both California and the United States' overall economy. Food production 
companies face unprecedented global competition and must remain cost 
competitive to stay in business.
    Natural and regulatory drought conditions are resulting in zero 
water supplies in many Central Valley areas and similar situations have 
begun to emerge elsewhere in California, including many of the state's 
major urban areas.
    Travel to California's bread basket and you'll see miles of fallow 
fields and stumped orchards and cross through small towns facing 
enormous hardship with unemployment as high as 40%. Water means food, 
jobs and a future.

California's innovation
    California is a world technological and economic leader. It has 
been the birthplace of many products and social trends that have 
changed the world. From Levi Strauss jeans in the 1850's to the birth 
of the modern computer, some of the world's most significant 
technological innovations, and social trends had a start here. The 
popsicle, the zamboni, the polygraph test, the modern theme park, 
windsurfing and even golf carts were invented here in California.
    California continues to lead innovations in water technology.
    <bullet>  Seawater Desalination plants
    <bullet>  Ground water replenish systems
    <bullet>  Establishment of rebate and grant programs to incentivise 
efficient usage

Endangered Species Act
Environmental reform should value our people more than a fish.
    Not even Mother Nature can match the impact the Endangered Species 
Act has had on California's water supply.
    Enforcement, or threat of enforcement, of both the federal and 
state Endangered Species Acts have become the foremost controlling 
factors in the development of California's water resources. Compliance 
with ESA creates significant impacts on water supplies throughout the 
state.
    Regulatory actions to protect species have reduced water deliveries 
from the state's two largest water systems in recent years to more than 
25 million people in the San Francisco bay Area, Central and Southern 
California.
    There is no question that protection of the largest estuary on the 
West Coast is critical. The Sacramento-San Joaquin Delta is in an 
ecological crisis, but so are California's farmers and residents. There 
must be a way to balance economic and environmental viability.
    The current status seems to put a small fish about the needs of 
humans. This policy also creates new environmental problems. By forcing 
agricultural production to fallow, risk shortages of our food supply 
here at home and force greater production of greenhouse gases as once 
local food production must be shipped in from foreign locations. We all 
believe in conservation of the species, but shouldn't people come 
first?

R.E.A.L. Coalition points
    The water supply system that supports most of California's 
residents, businesses and underpins its ecological health is facing 
unprecedented challenges. Coordinated near-and long-term actions to 
address constraints and conflicts are needed if we are to realize the 
co-equal values of adequate water supply for California, and ecosystem 
health and revitalization. Given the breadth and statewide impact of 
the crisis, the interest of the business community is coincident with 
that of the general public.

About OCBC
    The Orange County Business Council is the leading voice of business 
in Orange County, California. OCBC represents and promotes the business 
community, working with government and academia, to enhance Orange 
County's economic development and prosperity in order to preserve a 
high quality of life. OCBC serves member and investor businesses with 
nearly 250,000 employees and 2,500,000 worldwide. In providing a 
proactive forum for business and supporting organizations, OCBC helps 
assure the financial growth of America's fifth largest county. For more 
information, visit www.ocbc.org.
                                 ______
                                 
    Mrs. Napolitano. We go on to Mr. Larry Collins--Audience, 
please refrain from interrupting. I won't ask again. You are 
taking the time of these people to testify. Mr. Larry Collins, 
Vice President of the Pacific Coast Federation of Fishermen's 
Associations in San Francisco. Welcome, sir.

   STATEMENT OF LARRY COLLINS, VICE PRESIDENT, PACIFIC COAST 
    FEDERATION OF FISHERMEN'S ASSOCIATIONS, SAN FRANCISCO, 
                           CALIFORNIA

    Mr. Collins. Good afternoon, Madam Chairwoman, Mr. 
McClintock. My name is Larry Collins. I am a commercial salmon 
fisherman. I am Vice President of the Pacific Coast Federation 
of Fishermen's Associations, which is the largest organization 
of working fishing men and women on the West Coast, with 
associations mostly in California but also in Oregon and 
Washington. I am also President of the Crab Boat Owners 
Association out of San Francisco, and we have been fishing wild 
California King Salmon for well over 100 years.
    I think that Ground Zero for us is on the coast, not in the 
valley. Every working waterfront from Santa Barbara to the 
Washington border has been out of work for the last two years, 
because we have had a ``no salmon'' season. I have been fishing 
with my wife for 25 years, chasing these fish, these beautiful 
fish, up and down. It seemed like we always were able to have a 
balance between water for the cities, water for the farmers, 
and enough water for the fish to get up or the baby fish to get 
out through the gate.
    There are a couple of things that people say that really 
bother a commercial salmon fisherman, that water through the 
gate is wasted, that hydroelectricity power--they call it 
cheap--and when they talk about cheap water. It all depends on 
where you are sitting. San Francisco Bay-Delta--it is our 
Everglades. It is like Chesapeake Bay. It is where the crabs 
grow up, where the herring fishery that is stopped this year 
for the first time in history, where the salmon go through. It 
is critical to the commercial fisherman on the coast, up and 
down the coast.
    You know, you were talking before about training people 
about water. I do the Fishermen in the Classroom Project with 
the Gulf of Farallones Marine Sanctuary. I go into the 
classrooms, and I talk to the kids about how these are public 
trust resources. Every fish, every crab out in the ocean--they 
own them. They are always impressed by that fact. I tell them 
that the water that is in the rivers is a public trust 
resource, too, and I tell them that these are very valuable 
resources.
    So every now and then, if things get out of balance because 
people try and take more than they ought to, and that is what 
we need a government for--to keep things in balance. I am not 
against farmers growing things down in the Valley, but, in my 
mind, the main course is salmon. We need to fix this 
environment so the salmon can get up, and the baby salmon can 
get out.
    You know, I have been interested in water issues since the 
passage of the CVPIA, which is 18 years ago, and I thought, oh, 
boy, fish doubling. We are going to put this water down the 
river so the fish can get up. It was supposed to be 600,000 
feet from the state and 600,000 feet from the Fed. We are going 
to get doubled up here, and we were going to all be healthy, 
and everything was going to be beautiful.
    Eighteen years later, it hasn't happened. None of that 
water has flowed through the gate, and that, to me, is not 
wasted water. That estuary needs that mixture of salt and fresh 
water to be healthy. A healthy estuary is every bit as 
productive as anywhere in the Valley. We have a community that 
travels up and down the coast chasing these fish, and that 
community is as important as any town in the Valley.
    We would like to thank Congress for seeing our need a 
couple of years ago and getting us some disaster relief money, 
or I wouldn't be here today, and none of the fleet would still 
be here. Salmon is 70 percent of my income. So it has been a 
pretty tough hit, and we may not get a salmon season again this 
year. So we may have to come and ask Congress for help again.
    We can fix this thing, but we got to get the balance right. 
We got to value the salmon as much as we value the farms and 
the urban areas. We have to share that water. We got to make it 
right. Thanks.
    Mrs. Napolitano. Thank you, sir.
    [The prepared statement of Mr. Collins follows:]

Statement of Larry Collins, Vice President, Pacific Coast Federation of 
          Fishermen's Associations, San Francisco, California

    Good afternoon. I am Larry Collins, vice president of the Pacific 
Coast Federation of Fishermen's Associations, largest organization of 
working fishermen and women on the West coast with member associations 
mostly in California but also in Oregon and Washington.
    My wife Barbara and I fish for salmon and crab out of San Francisco 
on our vessel, the ``Autumn Gale''.
    I first got involved with water issues around the time of the CVPIA 
passage and have been involved ever since. Salmon fishing was 70 
percent of my income so, clearly, if the resource wasn't healthy I 
didn't work.
    We appreciate the opportunity to appear before you today to provide 
the fisherman's perspective on California's water resources, the ways 
in which these resources are being managed and abused, and the 
assistance which Congress might provide to assure a more equitable and 
sustainable distribution of the state's water resources among food 
producers--both fishermen and irrigators--and the state's urban 
communities.
We are out of work, now, as salmon fishermen.
    Barbara and I have been successful fishermen for 25 years. During 
these years we bought our home in San Francisco, raised our two kids, 
and paid our bills--all from the income earned from of our fishing.
    California's salmon fisheries have been shut down, by order of the 
U.S. Secretary of Commerce, under the regulations of the Federal 
Magnuson-Stevens Fishery Conservation and Management Act, since 2007.
    That is, we've been out of work, now, for two years by direct 
Federal mandate. Prospects for fishing for Central Valley chinook 
(``king'') salmon--the mainstay of our fishery--are dim for 2010.
    Following the closure of our fishery in 2008 the National Marine 
Fisheries Service--the Service's scientists headquartered at their 
Santa Cruz, California laboratory--prepared an assessment of the 
reasons for the poor condition of Central Valley salmon stocks. The 
lead investigator of that NMFS panel, Dr. Steven Lindley told the press 
``Poor ocean conditions triggered the collapse. But what primed it is 
the degradation of the estuary and river habitats and the heavy 
reliance on hatcheries over the years <SUP>1</SUP> (Hatcheries are 
created, of course, to mitigate for salmon habitat lost to water 
developments.)
---------------------------------------------------------------------------
    \1\ Dr Lindley's statement may be found at http://
articles.sfgate.com/2009-03-19/bay-area/17215271--1--chinook-salmon-
pacific-fishery-management-council-national-marine-fisheries-service; 
his report ``What caused the Sacramento River fall Chinook stock 
collapse'' at http://swr.nmfs.noaa.gov/media/SalmonDeclineReport.pdf
---------------------------------------------------------------------------
    This chart documents the dramatic decline of the Central Valley 
Chinook salmon.

[GRAPHIC] [TIFF OMITTED] T4619.006

We're not talking about just another estuary here.
    We are talking about the San Francisco Bay Estuary, the most 
important estuary on the Pacific Coast of North or South America
    The San Francisco Bay-Delta Estuary ecosystem has been declared, 
time and again, by the California Legislature--most recently in its 
November, 2009 ``historic Bay-Delta water deal'' legislation--to be a 
resource area of both state and national significance, held in trust 
for the public by the State government.
    Given the nexus among State and Federal water quality, 
environmental policy and endangered species acts, we assume that such 
public trust responsibility extends to Congress and the Federal 
government, as well.
    To say that the San Francisco Bay-Delta Estuary is a national 
treasure does not adequately define its importance. It is a planetary 
treasure and its health or sickness has grave consequences for all of 
us. The responsibility for its safekeeping lies primarily in the hands 
of State government.
    So how has the safekeeping of the Estuary by its State and Federal 
stewards been going lately?
    There's been a lot of hand-ringing, of course, because there are 
supposedly high protection standards in place for the Estuary, but 
since the Governor declared a drought emergency two years ago many of 
those Delta protections--including those necessary to address the 
degradation pointed out by Dr Lindley--have been suspended.
    And, of course, there have been those controversial Federal court 
decisions, back and forth, about how much water can be taken from the 
Delta before harm is done to its public trust resources.
How bad has the drought been?
    It would be hard to tell from the media the past year or so just 
how bad--or not--the ``drought crisis'' has been. What is clear is the 
subject supported a year-long media circus.
    According to the U.S. Bureau of Reclamation precipitation in 
Northern California--where three-quarters of the state's water comes 
from--was 94 percent of average in 2009.

[GRAPHIC] [TIFF OMITTED] T4619.007

And how about unemployment?
    The suffering of the farm community of Mendota, California has 
played on the pages of every major newspaper in the country, on Fox 
``News'' repeatedly, and most recently in a 60 Minutes broadcast.
    How bad is unemployment in Mendota? Really bad--not only in 2008 
and 2009, but in practically every year for which there are records.
    Unemployment peaked in Mendota last year at 42 percent. It hit 38 
percent seven years ago and got below 20 percent, thanks to the 
construction boom, for the first time in 2005-2007.
    The Berkeley-based Pacific Institute noted last year:
        ``...the drought has had very little overall impact on 
        agricultural employment, compared to the much larger impacts of 
        the recession. In fact, in the last three years, while State 
        Water Project allocations have decreased statewide, 
        California's agricultural job sector has grown. Further, 
        according to Professor Jeffrey Michael, director of the 
        Business Forecasting Center at the University of the Pacific in 
        Stockton, rising unemployment in the Central Valley is largely 
        the result of the bad economy, not a lack of water.'' 
        <SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ See Professor Michael's report at http://forecast.pacific.edu/
articles/PacificBFC--Fish%20or%20Foreclosure.pdf
---------------------------------------------------------------------------
How bad is unemployment in California's salmon fisheries?
    Unemployment in the California salmon fisheries, the result, in 
major part, as Dr Lindley said, of the degradation of the Estuary and 
river habitats, is 100 percent--by order of the U.S. Secretary of 
Commerce.
    A study conducted by our industry last summer, using 2006 National 
Marine Fisheries Service survey data, indicates that the shut-down of 
salmon fishing in California--both commercial and sports fishing--has 
delivered a $1.4 billion annual loss, and the loss of 23,000 jobs to 
our state. The study found that the recovery of California's salmon 
fisheries to their good, pre-drought condition would provide California 
a $5.6 billion annual economic gain and the creation of 94,000 new 
jobs.

[GRAPHIC] [TIFF OMITTED] T4619.008

In contempt of Congress--the U.S. Bureau of Reclamation's 
        administration of the Central Valley Project Improvement Act's 
        Anadromous Fish Restoration Program
    Development of the Federal Central Valley Project began in the 
1930s, driven at the time by the need to lift the state out of the 
Great Depression. There were, of course, no water quality or fishery 
protection laws at the time.
    As development of the CVP progressed over the years, its impact on 
water quality and fishery resources became increasingly hard to ignore. 
The complete drying up of the San Joaquin River for 75 miles below the 
CVP's Friant Dam and the loss of 300,000 chinook salmon there was the 
most visible of the CVP's aquatic insults. But there were many other, 
less obvious impacts, including the over-diversion of water from the 
Trinity River and the steady decline of Chinook salmon in the 
Sacramento River.
    In the early 1990s the stars aligned to make some significant 
changes to the CVP's Depression-era congressional authorization:
    1.  Key House and Senate committees were in the hands of Members 
informed and deeply concerned with Central Valley, Trinity River and 
Bay-Delta Estuary conditions, Representative George Miller and Senator 
Bill Bradley.
    2.  The 1983 National Audubon Society v. Los Angeles court decision 
ordering the restoration of Mono Lake's public trust resources had 
California's southland communities scrambling for replacement water 
supplies, and
    3.  A real drought which persisted for six years from 1986 until 
1993 had driven a wedge between urban and agricultural water users, who 
were traditionally aligned in their quest for more and more water from 
Northern California, over what struck many city-dwellers, rightly or 
wrongly, as agriculture's water greed and misuse
    The Central Valley Project Improvement Act of 1992--the CVPIA, 
signed into law by George Herbert Walker Bush--came from that 
convergence of politics and drought.
    The CVPIA dedicated water to the restoration of the Trinity River. 
Earlier allocations for Trinity River salmon flows, made in the 1950s 
and '60s, had been manipulated by the U.S. Bureau of Reclamation, with 
considerable help from Trinity diversion-interested Members of 
Congress, to levels inadequate to maintain the river's salmon 
resources.
    The CVPIA dedicated 800,000 acre-feet of CVP ``yield'' <SUP>3</SUP> 
with which the Secretary of the Interior was to address explicit 
environmental improvement actions in the Bay-Delta Estuary and its 
watershed--not the Secretary's on-going Clean Water and Endangered 
Species acts responsibilities, mind you, but specific fish and wildlife 
restoration actions.
---------------------------------------------------------------------------
    \3\ i.e., of the CVP's 13,000,000 acre-foot reservoir capacity and 
7,000,000 acre-feet of annual ``safe'', or reliable yield
---------------------------------------------------------------------------
    The CVPIA responded, in effect, to the California Water Resources 
Control Board, which had determined through two years of intense 
inquiry into the flow needs of Bay-Delta Estuary resources, from 1986 
through 1988, that 1.6 million acre-feet of additional water through 
the Delta was needed to maintain Central Valley salmon and other public 
trust resources in good condition.
    The CVPIA specifically embraced the policy enacted in 1988 by the 
California Legislature to double Central Valley salmon over the 
depressed numbers that they reached in the 1960s and 1970s 
<SUP>4</SUP>--and put up the Federal government's ``fair share'' of the 
1.6 million acre-feet of water needed--the CVPIA's 800,000 acre-feet 
for assuring Central Valley salmon ``safe passage'' through the Delta 
to the Bay and ocean beyond.
---------------------------------------------------------------------------
    \4\ See CA Fish & Game Code Section 6900, the ``Salmon, Steelhead 
Trout, and Anadromous Fisheries Program Act''
---------------------------------------------------------------------------
    In a U.S. Office of Management and Budget-prescribed evaluation of 
the CVPIA's Anadromous Fish Restoration Program--that salmon-doubling 
effort mandated by Congress--an independent science review panel found 
in 2008 that the Bureau of Reclamation has ``gamed'' the CVPIA salmon 
water ever since the program began--that not one drop of the 800,000 
acre-feet of CVP water allocated by Congress to the rebuilding of 
Central Valley salmon has ever made it though the Delta to San 
Francisco Bay. <SUP>5</SUP>
---------------------------------------------------------------------------
    \5\ See http://www.cvpiaindependentreview.com/
FisheriesReport12_12_08.pdf, the bottom of page 41 and the top of page 
42 of the report, where the reviewers say they are ``flabbergasted'' to 
learn that Reclamation has gamed the water in direct contradiction of 
its Congressional mandate
---------------------------------------------------------------------------
    The OMB independent science review finding that Reclamation is in 
contempt of Congress deserves some sort of reaction, some response from 
Congress. We know of none to date.
CVP water trading threatens implementation of Delta flow criteria
    Which brings us down to a couple of closely related California 
water supply challenges that deserve the attention of your Committee:
    1.  The California Legislature's mandate two months ago to the 
State Water Resources Control Board to determine the ``flow criteria'' 
necessary to protect the public trust resources of the San Francisco 
Bay-Delta Estuary.
    2.  Efforts underway to gut the environmental safeguards that 
Congress placed in the CVPIA, which, unless stopped, will confound 
horribly the State's efforts to implement those flow criteria when they 
are determined this summer.
    H.R. 3750, which resides in your Committee, would increase sales of 
CVP water from traditional Project users to non-Project users by, among 
other things, stripping away the environmental safeguards placed by 
Congress in the CVPIA.
    Let me explain.
    Prior to the CVPIA, the use of CVP water was strictly confined to 
the CVP's designated ``place of use'', within the boundaries of the 
CVP's water district customers.
    California's southland communities were scrambling in 1992, as we 
mentioned, for water to replace what they would lose to the National 
Audubon's 1983 Mono Lake State Supreme Court decision.
    Congress said, OK, we'll allow the sale of some CVP water to non-
CVP water users, but we're talking about only water that has been used 
on-farm at the time the CVPIA was enacted. That way, Congress was 
heading off the sale of the water that it had reserved for Trinity 
River restoration and Central Valley salmon doubling.
    H.R. 3750 strips away the CVPIA's environmental restraints 
<SUP>6</SUP>--the saving clauses for the Trinity River restoration and 
salmon doubling--and plunges the CVP headlong into California's growing 
``arbitrage'' water market--that handful of political insiders waxing 
fat by buying heavily-subsidized public project water and ``flipping'' 
it, at greatly increased prices <SUP>7</SUP> to non-CVP buyers.
---------------------------------------------------------------------------
    \6\ subparagraphs (A) and (I) of section 3405(a)(1) of the 
Reclamation Projects Authorization and Adjustment Act of 1992--the 
CVPIA--Public Law 102-575; 106 Stat. 4709
    \7\ See ``Harvest of Cash; Kern County Agency Buys Public Water 
Low, Sells High http://www.contracostatimes.com/ci_10152127 and 
``Massive Farm Owned by L.A. Man Uses Water Bank Conceived for State 
Needs'' http://articles.latimes.com/2003/dec/19/local/me-kern19
---------------------------------------------------------------------------
    To the extent that H.R. 3750 waives away the protections for the 
water that Congress intended be used for doubling Central Valley salmon 
stocks, it severely threatens the implementation of the State Water 
Resources Control Board Delta ``flow criteria'', they which the 
Legislature's 2009 ``historic Delta water deal'' intends be applied to 
the protection of the Bay-Delta Estuary's public trust resources, 
including Central Valley salmon.
    Once sold, particularly into urban markets, this heavily-subsidized 
public project water is very, very hard to retrieve.
    We recommend, with all our might, that your Committee take a long, 
hard look at the environmental chaos that would result should you 
release H.R. 3750. We recommend you hold it in your Committee.
    To be clear, we are not against legislation to help farmers. What 
we are opposed to is legislation like H.R. 3750 which threatens to move 
publicly-subsidized CVP water from the farms into the hands of water 
traders.
    I'll be glad to answer such questions that I can. PCFFA's executive 
director, Zeke Grader, is also here today and will gladly answer any 
questions that you may wish to put to him.
    Let me quickly add my thanks to the Members of Congress for their 
help in keeping our fleet alive these last two years. When we could not 
go fishing you provided us badly needed disaster relief. We don't know 
yet if there will be a season this year but if there isn't, we will 
need your help again.
    Thank you for this opportunity to address your Committee.
                                 ______
                                 
    Mrs. Napolitano. Now for Mr. Joe Del Bosque, owner of 
Empresas Del Bosque, Inc., in Los Banos. Welcome.

            STATEMENT OF JOE L. DEL BOSQUE, OWNER, 
        EMPRESAS DEL BOSQUE INC., LOS BANOS, CALIFORNIA

    Mr. Del Bosque. Thank you, Madam Chairwoman. I am glad to 
be here to hear the points of view on the water. It is very 
good to hear that, and you have won one forum.
    My name is Joe Del Bosque. I grew up on a farm in the San 
Joaquin Valley, became a farmer in 1985, and my wife and I grow 
cantaloupes, organic cantaloupes, asparagus, almonds, and 
cherries. At peak season my farm employs over 300 people 
growing, picking, and packing fresh fruits, nuts, and 
vegetables for the country. My farm would be considered average 
an average size and representative of the very diverse San 
Joaquin Valley.
    The farm lies in the CVP, Central Valley Project. So we are 
at Ground Zero in this drought. We have been operating with 
chronic water shortages since 1992 when, as Mr. Collins 
mentioned, the CVPIA was passed, but since 1992 until 2008 our 
average water allocation was 60 percent, and the worst that we 
had was 25 percent. We have learned a lot during that time, 
learned a lot how to become efficient. We have learned a lot 
about how to find sources of water, transfer water. We learned 
how to be as efficient as possible growing our crops, but 
nothing could prepare us for what we got in 2009, a 10 percent 
allocation. It has been devastating to our part of the world.
    As I said, our farm as tried to become as efficient as 
possible. All of my crops are under drip irrigation. In fact, I 
have more drip irrigation than I have crops, because we don't 
have enough water to go around. So I had to lay 850 acres 
fallow on my farm last year. I still have to pay rent, mortgage 
payments, tax assessments on that land. So it has been a very 
tough economic hit for us.
    The worst part of this situation is what it has done to our 
communities and our farm workers. Our farm workers are a very 
important part of our farm, and they are the most vulnerable 
segment of our communities out there. We have heard all sorts 
of statistics on unemployment of farm workers out there, and 
disputes about whether it is 35 or 40 percent or not.
    The fact of it is that I know that we did not hire a lot of 
people back this year. I know that a lot of the people that we 
did hire were underemployed. You don't see that in the 
statistics. These people during peak season typically work six 
and seven days a week very happily, and most of the time in the 
summertime they were only working five days a week. For farm 
workers, that is very devastating. It is not like you or I. 
They don't have additional sources of income. They rely on us, 
and so that is why I am here, for them.
    Many of them were seen at food distribution lines in 
Mendota, Firebaugh, San Joaquin, Huron, receiving food that 
oftentimes came from China. That was very demoralizing to see 
that. Several times I volunteered to distribute food, and I 
found the wives of my workers in line. These are people who 
would rather be working.
    Handouts are appreciated, but they don't pay for rent. They 
don't pay for their children's clothing. These people need to 
get back to work, and we need them. Our fruits and vegetables 
need these people. They are just as important to us as our land 
and our water. It is a three-legged stool. We need all three.
    The economic impacts of my farm--I am not even going to 
talk about that. It is not as important as what it has done to 
our people. So where are we now? You know, we have seen these 
storms that have come and dumped tons of rain and snow in the 
mountains. As was stated earlier, there is about 100,000 acre-
feet of water flowing to the ocean right now. Our pumps are 
running at 60 percent speed. The amount that we are losing 
there could supply my farm's annual--the whole farm's annual 
irrigation needs for two years.
    I am not saying that water is lost, and we don't want all 
the water. We know that the fish need water, but our area is 
suffering, and that is why we have come here to speak up. The 
ironic thing is that now there is an issue coming up called 
turbidity, and as the storms swell the rivers even further and 
there is more water in them, we are going to get less, because 
apparently, if the smelt don't see the pumps, we have to turn 
the pumps off.
    Mrs. Napolitano. Thank you, sir. Could you wrap it up?
    Mr. Del Bosque. Yes, I will. Thank you. I would like to say 
that our Federal Government has not been of help to us. We feel 
in the Central Valley that we have been neglected, that they 
have been giving us promises since last summer. We have seen 
very little, if anything, from them, and so, Madam Chairwoman, 
we would like to appeal to you, and anyone else who will 
listen, that we need to get something done. We need to get some 
sense into this. Thank you.
    [The prepared statement of Mr. Del Bosque follows:]

    Statement of Joe L. Del Bosque, Owner, Empresas Del Bosque Inc, 
                         Los Banos, California

Introduction
    My name is Joe Del Bosque. I grew up on a farm, the son of farm 
workers on the Westside of the San Joaquin Valley. Thanks to this great 
country, I went to college, and was able to become a farmer in 1985. 
Some of the land that I now own, I worked as a boy picking melons. I 
now grow cantaloupes, organic cantaloupes, asparagus, almonds, and 
cherries on about 2300 acres. At peak season, my farm employs over 300 
people growing, picking, and packing nuts, fruits, and vegetables, 
feeding people across America. My wife, Maria Gloria, who was also a 
farmworker, helps me manage the operation. My farm would be considered 
average in size and representative of the very diverse Westside.

Our water supply
    Our farm lies in several water districts, but all are federal 
districts that receive water through the CVP. Our water comes from the 
Delta, pumped into canals that provide water for farms and cities. 
About 25 million people receive some of their water through this 
system, including San Jose, Los Angeles, and San Diego.
    We have been farming with chronic water shortages since 1992 when 
the CVPIA took effect. Before 2009, in our worst years we received a 
25% water supply. The recent biological opinions for smelt and salmon 
have cut our water supply deeper than solely hydrologic conditions. 
That is the reason that we only received 10% in 2009.
    For over fourteen years we have been adopting high tech irrigation 
systems to become more efficient and conserve water. This has required 
large investments and learning new methods. Last year, 170 acres of 
land with high tech drip irrigation systems laid idle because there 
wasn't enough water. At some point, we can no longer conserve our way 
out.

Impacts to my farm
    Since 2007, the amount of crops that my farm produces has been 
reduce by almost half. I no longer grow tomatoes or wheat. My bread-
and-butter crop, cantaloupes has been reduced by 55%. Asparagus acreage 
has been cut in half. Last year I terminated leases on 300 acres of 
land, and another 850 acres were left idle. I still had to pay rent or 
mortgage payments, taxes, and assessments on this land. We have had to 
find other sources of water to make up the shortfall for the survival 
of our trees, always at expensive rates. Since 2007 my water cost has 
tripled causing me to exhaust cash reserves.
    Right now is the time of the year when my banker is reviewing our 
loan requests. I will have to provide him with sources and quantities 
of water for our farm. All I have to show him now is what I have left 
over from last year, which is very little. We typically start planting 
in March. The Bureau of Reclamation didn't allocate water to us last 
year until May 7. This makes ag bankers very nervous.

Impacts to the community
    Some of the most vulnerable people in our farming communities, our 
farm workers, have been hit hard by this drought. With less produce to 
grow and harvest, many workers were not rehired. Those that had jobs 
were often underemployed. During the summer harvest season when people 
normally work six or seven days a week, most employees worked only 
five. This is a terrible impact on our worker's and their families. 
Some of our workers bought homes for the first time in late 2008, only 
to struggle to make payments in 2009. In our local towns of Mendota and 
Firebaugh the unemployment rates skyrocketed to 35% and 40%. Hundreds 
of people who should have been growing and picking our food were 
gathered in food distribution lines. Several times that I volunteered 
to distribute food, I found the wives of our employees waiting in line. 
These are people who would rather be working. Handouts are appreciated, 
but they do not pay rent or children's clothing. God only knows how 
they are surviving the winter. I'm sure many have gone back to their 
home countries. Madam Chairwoman, we need these people. They are just 
as important to our farms as our land and water.

Other economic impacts
    The impacts of starving our farms is far-reaching. Just from the 
reduction of our cantaloupe acreage is a significant economic loss to 
our economy. That reduction, 595 acres, would have generated over $4 
million to our economy, $1.1 million of that in wages, and several 
hundred thousand dollars in taxes. Every farm dollar would have been 
multiplied by four or five in our distribution and retail sectors. The 
crop produced would have fed over 2 million people their annual 
consumption of the fresh fruit. All this for about 900 acre feet. About 
the same amount that waters about 600 lawns per year.

What do we face for 2009?
    The biological opinions for smelt and salmon have restricted 
pumping from the delta since November 1, and consequently choking our 
water supply. Even during storm events such as this week when rivers 
have tripled in size, the pumps are restricted, and water flows to the 
ocean. This week we have lost about 10,000 acre-feet per day. That is 
enough water to irrigate my entire farm for two years. As rivers reach 
flood stage, we expect pumping to be restricted even further due to 
turbidity standards. Apparently when the smelt can't see the pumps, 
these must be shut down.
    Our government has not helped us. Most of the aid that Washington 
sent to California for drought relief went to environmental projects 
such as fish screens, and didn't produce any water at all. Some went to 
fund groundwater wells which will exacerbate the depletion of our 
aquifers. The two-gates project has been all but scuttled by the 
Interior Department. Secretary Salazar came to my farm in October, gave 
us little hope, and he has made it real. Madam Chairwoman, who else can 
we turn to?
    Among farmers in the San Joaquin Valley, there is a very real 
urgency. We are watching as our future spills out the Golden Gate 
Bridge to the Pacific every day. We cannot sustain another 2009. We 
have already seen farmers pull our their almond orchards in the San 
Joaquin Valley, and avocado growers decimate their trees in San Diego 
County. All the water that has been deprived us, causing economic and 
social devastation, has not improved the populations of smelt or 
salmon. We have come to the point where our leaders must make some 
sense of this and prevent further disaster to our farms and people. It 
was done in New Mexico with the silvery minnow; it can be done here. 
Thank you for the opportunity to present this testimony to you and the 
committee.
                                 ______
                                 
    Mrs. Napolitano. Thank you so very much for your testimony.
    We are running a little behind. I want to be sure that we 
are out of here shortly. Since there are only two of us left, 
it may be making a little leisure. But I will start off with 
Ms. Dunn.
    This is more of a comment than a question, but is the 
business community ready to put in financial, moral and other 
support to solve the water problems, because normally the 
polluters, the PRPs, potential responsible parties, walk away 
and leave the taxpayer to pay for the pollution in many of the 
areas. That, to me, is a great concern.
    So while some of the businesses may say that they are 
wanting all these benefits, there is also a cost to that, and I 
want to be sure that we do not ignore that. So that is just as 
a comment. But thank you very much for your testimony.
    Ms. Dunn. Ma'am, if I may, I want to share with you that I 
couldn't agree, and I think the businesses, certainly in my 
organization and up and down the state, would concur that a 
clean, reliable water supply, together with a clean 
environment, is very important to business as well. They could 
not do business without it. So that will happen.
    Mrs. Napolitano. Thank you. Well, we may call on you for 
maybe identifying some of those parties to help out.
    Ms. Dunn. Absolutely.
    Mrs. Napolitano. Dr. Gleick, have you calculated the cost 
comparisons of the various types of water development projects 
such as surface, recycle, and groundwater storage?
    Dr. Gleick. We have done some of that. The water agencies 
have done some of that. The state and the Federal Government 
has done some of that. There are many different options out 
there. It depends on what you want to build where.
    We believe that the conservation and efficiency options 
that I described very briefly and that are described more in 
the report we are doing are the cheapest. They pay back the 
fastest. They save water. They save energy. They let water----
    Mrs. Napolitano. Such as?
    Dr. Gleick. Well, for example, one of our suggestions is 
replacing 2 million very inefficient toilets in the state. New 
York City replaced 1.3 million toilets in three years in a city 
of 8 million. We have a population of 35 or 36 or 37 million. 
That would save an enormous amount of water.
    Mrs. Napolitano. I might want to interject, but recently in 
a briefing that I had with many water agencies, they said they 
have tapped out. I don't believe it. I think you are right.
    Dr. Gleick. Surface storage is an option. There are 
discussions of a number of dams that have been proposed. They 
seem to be very expensive, even the best estimates of what it 
would cost to build a surface storage dam, and I can't remember 
a surface storage dam that we actually built for what the 
initial estimates were anyway, but we have lost a lot of 
groundwater, as we have heard.
    It is much cheaper to store water underground. We ought to 
figure out a way to capture a lot of this runoff, store it in 
underground reservoirs, underground aquifers. Now that is 
conjunctive use. It is much cheaper. Desalination is very 
expensive, but we might choose to build it for its reliability. 
It is very reliable. We might consider building desalination in 
Southern California, if we agree to take less water from the 
Delta. That is an option that hasn't been discussed.
    There are lots of answers here to your question, depending 
on what you want to build where.
    Mrs. Napolitano. Well, thank you very much for your very 
insightful testimony and to your answers, because I think you 
have a lot of good, solid information for a lot of the water 
agencies that we can benefit from.
    Where do you think the best application of funds can be 
made right away to get the biggest benefit in addressing our 
supply issue?
    Dr. Gleick. I think, in part, it is a question for many 
farmers, for example, of coming up with upfront money for them. 
Those farms that have not moved to drip, that have not moved to 
precision sprinklers, that aren't able to measure their soil 
moisture and irrigate when the crops really need it rather than 
just when it is delivered by irrigation districts, or 
irrigation districts who don't have the money to rebuild their 
delivery systems so they can deliver water more accurately, 
that is an upfront cost.
    Some of those savings pay back over a long period of time, 
but there isn't money for upfront expenditures. The Equip 
program under the farm bill provided some of that money, but 
that money ran out really quickly. That is one example of a 
good source of--a potentially very fruitful source of money. I 
have other examples I would be happy to share with you.
    Mrs. Napolitano. All right. We would like for you to submit 
it to the record, Dr. Famiglietti, can GRACE be used to 
identify how much water is actually in the Central Valley 
aquifer or, as far as that is concerned, in that Basin, and try 
to figure out if there are any other aquifers that had been 
unidentified that may have been spotted or you know there has 
been some kind of activity that leads you to believe that they 
may be usable for storage of rainwater capture, recycled water, 
etcetera?
    Dr. Famiglietti. GRACE cannot tell us the absolute amount 
of how much water is there. It can tell us the changes from 
month to month, but as we spoke earlier, I do think that there 
is the potential to identify new sources, and I gave an example 
before of how we see some signals of water storage variation in 
places where we might not expect it; for example, in the Sahara 
Desert.
    So we can look there and see that there is a fair amount of 
water stored in the Nubian aquifer. So I think that we can be 
using it to do a little prospecting, if you will.
    Mrs. Napolitano. So what would it take for us to request 
that you begin that prospecting on behalf of California?
    Dr. Famiglietti. Oh, not too much, but as I mentioned in my 
testimony, I think the biggest thing is that the data will be 
disappearing soon. So I think the biggest contribution that you 
can make----
    Mrs. Napolitano. Again, Commissioner Connor, help.
    Dr. Famiglietti. And I can get you the names of the 
appropriate NASA officials to speak with about how to increase 
that priority.
    Mrs. Napolitano. Very quickly, Mr. Luna, what is your 
number one challenge to achieve water sustainability in the Los 
Angeles area, and what options exist to achieve that?
    Mr. Luna. I am big believer in education. So I think we 
need to do more of that. When I say more, I praise the existing 
information that has been out there, but we need to educate, 
and we need to educate our youth, prepare them for how we are 
leaving the status of this planet for them, and by preparing 
them I mean appropriate tools, education-wise, culturally. They 
need to appreciate it. So I think that is the biggest challenge 
for the immigrant communities. It is not that we don't get it. 
It is that we disconnect, and we come here, and we suddenly 
forget that water gets flushed away, and that tap, that water, 
is connected to other places.
    So I think it is that connection and that water culture 
that we need to build, is what I see as most challenging, but 
also provides the best opportunity, because it doesn't cost 
that much.
    Mrs. Napolitano. And also in different languages. Mr. 
McClintock.
    Mr. McClintock. I was just pondering the question of 
financial commitment that the Chairwoman raised with Ms. Dunn, 
and it seemed to me a good opportunity to take a trip down 
memory lane back to 1960 when California voters approved the 
Burns-Porter Act. The Burns-Porter Act authorized the 
construction of the State Water Project, including the great 
California Aqueduct and the series of northern dams. It 
included Oroville that I mentioned earlier.
    That bond measure was $1.75 billion in 1960. You do the 
inflation adjustment. It is about $12.5 billion in today's 
money. So about $12.5 billion to produce the State Water 
Project, essentially everything that we are dealing with today 
that we depend upon for our water supply from Northern 
California.
    Now in the last dozen years, California voters have already 
approved six bond measures totaling $17 billion, all of which 
promise to increase our water supplies. So the question I would 
ask Ms. Dunn is where is our generation's state water project? 
Do you think the money that has already been committed has been 
very well spent?
    Ms. Dunn. None of these bonds, sir, were perfect, and many 
of the bonds, my personal review, contained a lot of benefit 
for the environment and not a lot of water in them, but the 
reality is the nature of the bond processes--I know I do not 
have to instruct you, sir--is such that they are a result of 
many compromises. So even this bond package that is coming to 
the ballot now is not perfect, but it does provide for a 
delicate balance among both the environment and the economic 
benefits that we need.
    Yes, that is correct. The funds that we have received under 
previous bonds probably didn't produce the infrastructure, all 
the infrastructure, that we needed, but there were benefits in 
them that helped.
    Mr. McClintock. Speaking of the bond process, up until the 
last generation, we first decided what project we were going to 
build, what dam we were going to build, what canal we were 
going to build. We went out and got bids on that, and once we 
knew and had agreed to exactly what we were going to build and 
how much it was going to cost, only then did we go to voters 
with a bond.
    When we went to the voters with a bond, it was a self-
liquidating general obligation bond. In other words, it was not 
redeemed by general taxpayers. It was redeemed by the users of 
the water and power from that dam in proportion to their use. 
That has been completely turned upside down. The most recent 
bond, and for that matter, the six that preceded it, don't 
authorize specific projects. They establish grab-bags of money.
    Why are we surprised then when that money is frittered away 
on small projects that don't add up, don't begin to add up to 
the magnitude of the Burns-Porter Act projects that had 
produced the state water system.
    Ms. Dunn. If there is a question in there, the answer is I 
agree with you.
    Mr. McClintock. Good answer. Mr. Collins, to what extent 
does a renewed commitment to fish hatcheries roll into this 
whole equation? I was very impressed by the enormous commitment 
that the State of Alaska has made to salmon hatcheries off of 
their coast. What role do fish hatcheries play in the salmon 
population?
    Mr. Collins. Hatcheries are absolutely necessary. We 
wouldn't have any salmon left. You know, they were a mitigation 
for when the dams went up. There were huge runs of salmon that 
were naturally occurring that became extinct when, for 
instance, the Friant Dam went up. We would be out of business 
without the hatcheries, and we need to fund then fully and make 
sure they keep working, and I think, expand them. If we expand 
them, it will help everybody.
    Mr. McClintock. I was very impressed by the--I forget the 
exact figures--the astonishing number of salmon produced by the 
hatcheries in Alaska.
    Mr. Collins. Five billion.
    Mr. McClintock. Should we be making the same commitment in 
California?
    Mr. Collins. We can't. We don't have the rivers and the 
area that they need for that kind of production. I think it is 
5 billion fish they have up there. We could definitely double 
the number of hatchery production in this state, and it would 
be a good thing.
    Mr. McClintock. Thank you.
    Mrs. Napolitano. Would the gentleman yield for a second?
    Mr. McClintock. Sure.
    Mrs. Napolitano. I was asking the staff. In other briefings 
that I have been at, and hearings, I hear that some of the 
folks don't like the hatcheries, because it dilutes the fish, 
the species.
    Mr. Collins. We have had hatcheries on Central Valley runs. 
The Mad River hatchery started in the 1880s. Most of the 
Central Valley fish are more homogenized than the individual 
runs like the clam, if they are further up, because it is such 
a long history. When it was started, they didn't know what we 
know now about genetic policy. They are way, way better at it 
now than they used to be.
    They are very strong, these fish. I mean, they go out the 
gate. If they can get through the Delta to get out, they are 
this big, and three years later they are 35 pound fish. So they 
are very excellent fish.
    Mrs. Napolitano. Right. But I guess maybe what I am getting 
is that we need to be sure we have hatcheries, and that is 
alluding to his point, is that somewhere along the line we need 
to support it, but ensure that they are run well.
    Mr. Collins. Yes, and we need the wild fish. We need the 
wild fish to be able to get up the river, too, and that is why 
we need the water there.
    Mrs. Napolitano. Thank you. Ms. Dunn, what is your number 
one challenge to achieving the water sustainability in Orange 
County, and what options exist to achieve it?
    Ms. Dunn. I think the number one issue for Orange County is 
continuing to educate the public on the issues of water and how 
important it is to understand--it is interesting for me 
personally to see how often folks don't even realize that so 
much of our water in Southern California comes from the Delta, 
how important it is to us. So education is important.
    Mrs. Napolitano. So you would say that we have not done a 
good job?
    Ms. Dunn. I would say collectively, all of us, not just, 
obviously, Congress.
    Mrs. Napolitano. Thank you.
    Ms. Dunn. But in addition, making sure that our elected 
officials, our local elected officials, understand that they 
set examples for conservation, for recycling, for understanding 
water. I think that is an important component.
    Mrs. Napolitano. Thank you, ma'am. Mr. Del Bosque, what can 
be done to achieve water sustainability for your farm and your 
local cooperatives?
    Mr. Del Bosque. In my local area, we have gone to high tech 
irrigation systems. We are using all kinds of atmospheric 
instruments and monitors. You know, when you are down to 10 
percent, there is not much more you can do. You know, we are 
doing it.
    This old irrigator told me one time, he says, we are 
working the water so hard, it is getting callouses, and that is 
a fact. Our water that we put on our crops is literally put on 
by eyedroppers. We have no runoff. We have no excess water. 
There is nothing to recycle or reuse. it is all there, just in 
the crop. So for us the only answer is to find some sort of 
reliability in the water that we get.
    I believe it is going to take some sort of storage, whether 
it is surface storage or below ground storage. We are just 
starved for water. There is no other way for us than to try to 
increase our supply some way and to be a little more reliable.
    Mrs. Napolitano. Recycle water for nonedible crops?
    Mr. Del Bosque. For what?
    Mrs. Napolitano. Usage of more recycled water?
    Mr. Del Bosque. We have no water to recycle.
    Mrs. Napolitano. Well, no. We have a lot of rainfall, and 
you are able to capture it, if you could find a place to store 
it. Some areas use rubber dams to be able to capture runoff and 
be able to have it trickle into the aquifers. There has got to 
be ways of being able to continually look for solutions.
    Mr. Del Bosque. Yes. I agree. We do need to, and nobody has 
a greater sense of urgency about that than we farmers in the 
San Joaquin Valley.
    Mrs. Napolitano. Well, thank you to all of you. I would 
state that we should have the media lined up here, being 
participants and being able to get the general public 
interested in the water solutions. Maybe it is because there 
has been so much rain, they think the drought is over.
    I would hope that somehow we are able to educate, as you 
will: Yes, have a drink; turn the water on everywhere. The fact 
is the constant message from most of the panelists has been 
education. It is an important project. It is an important 
topic. It is an important issue for all of us.
    Please count on us in being able to do what we can. The 
problem is, as everybody knows, if you are going to try to buy 
air time, it is expensive. So we need to find ways of being 
able to get the message out, whether it is to the water end 
users in their bill, to getting the state to cooperate, getting 
the media to understand the severity of the issue, and being 
able to say, hey, we are going to have more unemployment and 
some of you may be out of work. Maybe that will get to them. I 
don't know, but somehow we need to work together, continue 
working on that.
    Thank you very much to all the panelists for your time, for 
your ability to travel and be with us. This concludes the 
Subcommittee's oversight hearing on ``Perspectives on 
California Water Supply: Challenges and Opportunities.''
    I thank the Members that came, my staff. Thank you, 
Metropolitan. Thank you. I do want to close and honor Steve 
Hall, a former member of the ACWA, and Wes Bannister from MWD, 
and Tom Grant, Executive Director of the Environmental Defense 
Fund.
    Thank you to all witnesses for appearing. Your testimonies 
and expertise have indeed been very enlightening and helpful. 
Under Committee Rule 4(h), additional material for the record 
should be submitted within the next 10 business days from 
today. The cooperation of all of the witnesses in replying to 
any questions submitted to you in writing would be most greatly 
appreciated.
    With that, this hearing is now adjourned.
    [Whereupon, at 3:55 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
